<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR 2014</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                   LEGISLATIVE BRANCH APPROPRIATIONS 

                                FOR 2014 
=======================================================================



                                HEARINGS

                                BEFORE THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                     ONE HUNDRED THIRTEENTH CONGRESS

                              FIRST SESSION

                                ________

                   SUBCOMMITTEE ON LEGISLATIVE BRANCH

                  RODNEY ALEXANDER, Louisiana, Chairman

 C. W. BILL YOUNG, Florida          DEBBIE WASSERMAN SCHULTZ, Florida
 JEFF FORTENBERRY, Nebraska         JAMES P. MORAN, Virginia
 DAVID G. VALADAO, California       SANFORD D. BISHOP, Jr., Georgia
 ANDY HARRIS, Maryland              

 NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mrs. Lowey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

                       Elizabeth C. Dawson, Clerk
                   Jennifer Panone, Professional Staff
                    Chuck Turner, Professional Staff

                                ________

                                 PART 2

                   FISCAL YEAR 2014 LEGISLATIVE BRANCH

                         APPROPRIATIONS REQUESTS

                                ________

         Printed for the use of the Committee on Appropriations

                                ________

                     U.S. GOVERNMENT PRINTING OFFICE

 81-322                     WASHINGTON : 2013

                    COMMITTEE ON APPROPRIATIONS

                    HAROLD ROGERS, Kentucky, Chairman

 C. W. BILL YOUNG, Florida \1\        NITA M. LOWEY, New York
 FRANK R. WOLF, Virginia              MARCY KAPTUR, Ohio
 JACK KINGSTON, Georgia               PETER J. VISCLOSKY, Indiana
 RODNEY P. FRELINGHUYSEN, New Jersey  JOSE E. SERRANO, New York
 TOM LATHAM, Iowa                     ROSA L. DeLAURO, Connecticut
 ROBERT B. ADERHOLT, Alabama          JAMES P. MORAN, Virginia
 KAY GRANGER, Texas                   ED PASTOR, Arizona
 MICHAEL K. SIMPSON, Idaho            DAVID E. PRICE, North Carolina
 JOHN ABNEY CULBERSON, Texas          LUCILLE ROYBAL-ALLARD, California
 ANDER CRENSHAW, Florida              SAM FARR, California
 JOHN R. CARTER, Texas                CHAKA FATTAH, Pennsylvania
 RODNEY ALEXANDER, Louisiana          SANFORD D. BISHOP, Jr., Georgia
 KEN CALVERT, California              BARBARA LEE, California
 JO BONNER, Alabama                   ADAM B. SCHIFF, California
 TOM COLE, Oklahoma                   MICHAEL M. HONDA, California
 MARIO DIAZ-BALART, Florida           BETTY McCOLLUM, Minnesota
 CHARLES W. DENT, Pennsylvania        TIM RYAN, Ohio
 TOM GRAVES, Georgia                  DEBBIE WASSERMAN SCHULTZ, Florida
 KEVIN YODER, Kansas                  HENRY CUELLAR, Texas
 STEVE WOMACK, Arkansas               CHELLIE PINGREE, Maine
 ALAN NUNNELEE, Mississippi           MIKE QUIGLEY, Illinois
 JEFF FORTENBERRY, Nebraska           WILLIAM L. OWENS, New York
 THOMAS J. ROONEY, Florida
 CHARLES J. FLEISCHMANN, Tennessee
 JAIME HERRERA BEUTLER, Washington
 DAVID P. JOYCE, Ohio
 DAVID G. VALADAO, California
 ANDY HARRIS, Maryland
   
 ----------
 <SUP>1}}</SUP>Chairman Emeritus    

               William E. Smith, Clerk and Staff Director

                                  (ii)



                             C O N T E N T S
                               __________
                                                                   Page
Government Accountability Office.................................     1

Government Printing Office.......................................    51

Library of Congress..............................................    85

Congressional Budget Office......................................   129

Architect of the Capitol.........................................   163

Open World Leadership Center.....................................   203

House of Representatives.........................................   653

U.S. Capitol Police..............................................   839

Written Testimony of Members of Congress and Other Interested 
  Individuals and Organizations..................................   879

                                 (iii)


               LEGISLATIVE BRANCH APPROPRIATIONS FOR 2014

                              ----------                              

                                        Tuesday, February 26, 2013.

                 U.S. GOVERNMENT ACCOUNTABILITY OFFICE

                                WITNESS

GENE L. DODARO, COMPTROLLER GENERAL OF THE UNITED STATES

                Opening Statement of Chairman Alexander

    Mr. Alexander. Good morning, the subcommittee will come to 
order. Today we will begin our fiscal year 2014 budget hearings 
for the various agencies under the legislative branch.
    As the members of the subcommittee are aware, the 
President's fiscal year 2014 budget has not been transmitted to 
Congress as of yet. We understand that the delivery of the 
President's budget will be sometime in early March. And in 
order to complete the work that this subcommittee is charged 
with, we have decided to begin our hearings without receiving 
the formal budget.
    Advanced information received by the subcommittee reflects 
that most of all the agencies under our jurisdiction have 
requested a budget increase over the amount of the current CR. 
And with our Nation dealing with a national debt of over $16 
trillion, it is going to be very difficult to not only maintain 
current levels, but increase funding above the current levels. 
Everyone can be assured that we are going to do our work; we 
are going to lead by example. We are going to be efficient and 
effective in doing more with less.
    I look forward to working with the ranking member of the 
committee, the former chairwoman of this committee, Ms. Debbie 
Wasserman Schultz, as well as other members of the 
subcommittee. Mr. Bishop is the only member returning from the 
last Congress to this committee. And we are delighted to have 
you all here this morning.
    Ms. Wasserman Schultz.
    Ms. Wasserman Schultz. Thank you, Mr. Chairman.
    It is a pleasure to--I am looking forward to working with 
you as well.
    Mr. Dodaro, welcome.
    The last hearing we had when I was chair of the 
subcommittee, you were still in an acting position. So I am 
glad to see that you were confirmed in late 2010 and that GAO 
has an experienced leader like yourself to address the many 
challenges we are facing during these difficult times.
    Two years ago, you sat in front of this subcommittee and 
asked for a budget to maintain 3,270 full-time equivalent 
positions. Well, it has been a long 2 years since I served on 
this subcommittee, since with sequester looming, your testimony 
states that you expect to only have 2,875 FTEs. Now, that is 
despite the fact that GAO's congressional work has only 
slightly tapered off, with only 924 requests from Congress in 
fiscal year 2012.
    Now, I know your analysts take great pride in their work 
and work under timeline pressure from Members and committees 
requesting your analysis. And we usually want our requests 
filled immediately, as we work in an environment that changes 
hourly. But with the budget cut by 8.2 percent since fiscal 
year 2010 piggybacked by sequester, GAO is hard pressed to do 
any more with less. Your agency and others will have to do less 
with less and explain the impacts for those seeking and needing 
your expertise.
    I believe your mission is well understood by most Members, 
and most support your work in uncovering waste and finding 
savings within agencies, including those in the legislative 
branch. GAO helped this subcommittee complete the Capitol 
Visitors Center construction and stave off more cost overruns. 
GAO continues to help us review the Capitol Police's radio 
modernization project.
    We know firsthand on this subcommittee that you save the 
taxpayers money with the work that you do. More cuts to GAO are 
the embodiment of the phrase ``pennywise and pound foolish.'' 
As you lead GAO through these tough budgetary times, you, more 
than many agencies, must ensure that the work you are able to 
do remains above reproach and without question. And I would 
rather you take on less work and maintain the quality of your 
analysis for the work that you are able to accept. As you put 
other agencies' programs on your annual watch list, we need to 
ensure that sequester does not put your agency on that very 
same list.
    Thank you, Mr. Chairman.
    And Mr. Dodaro, I look forward to your testimony.
    Mr. Alexander. Mr. Bishop, do you have anything?
    Mr. Bishop. I have no opening statement. I just welcome Mr. 
Dodaro, and I look forward to hearing his testimony.
    Mr. Alexander. The GAO is requesting $524 million for 
fiscal year 2014. That is an increase of $9.9 million over the 
CR from last year. The request is 2 percent above the 
continuing resolution of last year.
    Mr. Dodaro, if you would introduce those staff members that 
are with you, others that wish to speak, and then we will take 
your testimony.

                 Comptroller General's Opening Remarks

    Mr. Dodaro. Thank you very much, Mr. Chairman.
    Good morning to you.
    Ranking Member Congresswoman Wasserman Schultz, nice to see 
you again. Welcome back to the committee.
    Congressman Bishop, welcome back. It is good to see you 
again as well.
    Mr. Chairman, I have with me today four people that 
potentially could talk, including myself, that I would like to 
introduce, Patricia Dalton, who is our chief operating officer 
at GAO; Susan Poling, who is our general counsel there; and 
David Fisher, who is our chief administrative officer and chief 
financial officer.
    I would like to talk about what efforts we have made in 
order to manage our workload to make sure that we maintain the 
high quality of our work but yet deal with this budgetary 
environment. There are really three key things that are 
important for us as we are executing our mission to support the 
Congress and improve the performance of government. One is 
making sure that we have effective communication and ongoing 
dialogue with the congressional committees; second, that we 
prioritize our work to make sure that we are working on the 
most important national issues; and third is to make sure that 
our work has the maximum impact and good results for the 
Congress and the country.
    Now, with regard to effective communication, we work with 
every standing committee of the Congress and most of the 
subcommittees. I have met with most of the chairs and ranking 
members of the committees. Our staff have ongoing dialogue with 
Congressional staff to make sure that we understand what their 
needs are and their highest priorities. We monitor every bill 
that is submitted every week in the Congress with a potential 
requirement for GAO's work. We review annually our mandates 
that are in the law to see if any of them outlived their 
usefulness. And we appreciate the support of this committee 
last year in eliminating 16 of those mandates to help us refine 
our workload.
    The purpose of my meetings with the chair and ranking 
members of each of the committees is to explain our budgetary 
environment, and the importance of setting priorities. And I 
have received a very good response. People understand our 
circumstances. I am not going to do more work than we can do of 
a high-quality nature. That requires us to prioritize the work 
with the input of the committees, and we have done that.
    As Congresswoman Wasserman Schultz pointed out, our 
requests have tapered off a bit because people understand the 
situation. I believe we are picking the most important national 
issues to work on, whether they are in health care, defense, 
financial markets and institutions, energy, environment, or 
transportation areas. Our work covers the full breadth and 
scope of the Federal Government's activities, and I believe we 
are delivering great results for the Congress and the American 
people.
    Last year, the implementation of our recommendations 
resulted in over $55 billion of financial benefits to the 
Federal Government, which is $105 returned for every dollar 
invested in GAO. Since 2002, our work has resulted in one-half 
trillion dollars in financial benefits to the government and 
over 14,000 other improvements in laws, public safety issues, 
improved management, and efficiency and effectiveness of the 
government programs. I believe we provide a good return on the 
investment.
    In the last 2 years, we have, as noted, taken more than an 
8 percent reduction. We have taken on this challenge and 
reduced our administrative and operating costs. Our costs for 
supporting our work, including travel costs, have been reduced 
by 36 percent. Our infrastructure costs, including our IT 
investments, have gone down by 21 percent. And since 80 percent 
of our costs are people costs, we have not been able to replace 
attrition. The biggest impact on our organization is the 
reduced number of people.
    We are at our lowest staffing level since 1935. With 
sequester, if sequester stays in effect, we will go even below 
that staff level moving forward. I don't believe that this 
staffing level is commensurate with the challenges facing our 
Federal Government right now with deficits, debt, social, 
economic, and security challenges. We have asked for a modest 
increase in our budget submission. I think it will be a 
prudent, wise investment for the Congress. We will continue to 
manage our administrative costs. Our increase would mostly go 
to replacing staff that we are losing through attrition and to 
add back some of the staff that we have lost. We will still be 
way below our 2010 levels with this request. But I believe that 
we are at a pivotal point in our government's history in terms 
of dealing with this historic deficit and debt issues. GAO 
could make a great contribution to help Congress make targeted 
cuts that will not have unintended consequences. Congress needs 
us now more than ever.
    We are ready to step up to the challenge. We just need some 
modest support from this committee and the Congress. And that 
concludes my opening statement.
    I would be happy to entertain questions.
    [The prepared statement of Gene Dolaro follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
           GAO's Outreach to Congress To Prioritize Requests

    Mr. Alexander. Okay. Well, before we go to questions, I 
would like to introduce Mr. David Valadao. Would you have an 
opening statement that you want to make?
    Mr. Valadao. No, thank you.
    Mr. Alexander. All right. You mentioned that the requests 
for your agency have tapered off. Is it because of unconcern or 
people have just given up hope of getting anything done over 
the ordinary?
    Mr. Dodaro. No, I think it is a conscious result of my 
outreach to the committee chairs and ranking members to 
understand our budget situation and to prioritize the requests.
    And when we say ``taper off,'' we mean we have gone from 
maybe over a thousand requests to 924. So we are having some 
impact, but Congress is still seeking a high demand for our 
work.
    But I think it is a consequence of those dialogues, Mr. 
Chairman. People understand and they are prioritizing their 
requests. If a committee chair or ranking member sent in a 
request, on average, it takes us about 4 months to be able to 
staff that request. So they know we are not going to get to 
things right away, and we have to prioritize.
    The other thing we are doing that I am very pleased about 
is that we are now doing bodies of work for multiple 
committees. And about half of the request workload that we have 
are bipartisan requests. So we have worked with the committees 
to gather the most common interests on multiple committees and 
do one body of work to meet the needs of multiple committees. 
That has brought down the number of requests too, so we don't 
have a lot of committees asking for the same work.
    Mr. Alexander. So you are prepared for sequestration if it 
indeed comes about?
    Mr. Dodaro. Yes. We have been planning prudently for the 
eventuality of this. The consequences for us is that we would 
have to postpone about 60 percent of our hiring, which would 
further bring down the size of GAO's workforce to near historic 
low levels.
    We would have to defer or reduce our retention programs and 
reward programs for our employees, who are dedicated and 
hardworking people, producing good results.
    We would reduce further our infrastructure costs by 
deferring some IT investments that we need for the future. And 
we would cut back on our travel and other, related costs during 
that period of time.
    But the most important aspect of sequestration for us, and 
we believe it is because we planned prudently, we are not--if 
the sequestration level stays at 5.3 or 5.5 percent, we 
wouldn't have to furlough anybody. We have been planning to 
make sure we maximize our impact to the Congress and minimize 
our impact on our employees. But the biggest impact for us is 
both, now and in the future, not having an additional 200 or 
300 people to replace attrition. So we wouldn't be able to 
support the Congress as much as we have been now and in the 
future at GAO. I am really worried about the future of GAO.
    I mentioned to this committee in the past, I feel like a 
college football coach, where all the seniors are leaving and 
there are no freshmen and sophomores coming in. And one more 
year of postponed hiring, which would make our third straight 
year in a row, I will begin to start losing the junior class, 
too. So I am deeply concerned about the future of our agency 
and our ability to support the Congress.
    Mr. Alexander. Okay.
    Ms. Wasserman Schultz.
    Ms. Wasserman Schultz. Thank you, Mr. Chairman.
    You know, I think it is important to just raise what the 
purpose of the Government Accountability Office is. This is the 
beginning of my 21st year in public office. And right about the 
time when I was first elected to the Florida legislature, 
accountability, whether it was through the establishment of GAO 
or we have an entity in Florida called OPPAGA, which these 
agencies exist so that we can make sure that we are spending 
the taxpayers' dollars wisely and that we are not engaging in 
unnecessary waste and that we ferret out fraud when there is 
any, which hopefully, obviously, in the Federal agencies 
funding, there wouldn't be, or even abusive practices.
    You know, in my remarks I mentioned it is the ultimate in 
being pennywise and pound foolish to cut GAO, to allow an 
indiscriminate across-the-board cut of $27.3 million as a 
result of sequestration to take place because, you know, 
ultimately making it harder for us to hold the agencies 
accountable for the spending that they are doing is going to 
mean that we waste more money, ironically.
    And I think it is also important that we remind each other 
that the sequester is not just a one-time cut. It is a 
reestablishment of the baseline. So, you know, when you are an 
appropriator, you understand that. And so what I would like to 
know is how does GAO plan to absorb those cuts not just--you 
have outlined how you would absorb them now, but beyond. 
Essentially, does that mean that if we don't replace the 
sequester at some point soon, does the footprint and the 
ability of GAO to do the full scale of your work, does it 
diminish and decline? And aren't we likely to have more waste 
in government if that happens?
    Mr. Dodaro. Well, definitely the sequestration would have 
an immediate effect on reducing the size of GAO and make it 
harder for our workforce in the future. So, yes, it will 
diminish our capability to do our work in support of the 
Congress and identify fraud, waste, abuse, mismanagement, and 
ways to make government more efficient and effective at a time 
where we need that more than ever.
    Ms. Wasserman Schultz. Right.
    Mr. Dodaro. I am very concerned as the auditor of the 
government's financial statements about our financial position 
going forward. And we are in an era of where there is going to 
be continued budgetary pressures for many years. And as for 
GAO, if our workforce is diminished, our ability to serve the 
Congress will be diminished, and we won't be able to help 
Congress make as many informed decisions.
    I mentioned we returned $105 for every dollar invested in 
us last year. There are over $100 billion every year in 
improper payments in the Federal Government. Our tax gap is 
$385 billion. You know, these are areas we could do more work 
on and help Congress resolve.
    Ms. Wasserman Schultz. Mr. Dodaro, is it fair to say that 
if the sequester kicks in, that we will have less 
accountability and more potential waste of taxpayer dollars?
    Mr. Dodaro. I believe that would be the case, because it 
will cause people to make decisions that they wouldn't have 
otherwise made in this period of time. I have been in 
government now at the GAO for 40 years, and when these type of 
things happen, people cut back on the administrative oversight 
of these programs: It is inevitable that will happen. And you 
could have breakdowns in management controls. I think we have 
too high of a level right now. And I would be concerned about 
any additional vulnerabilities that might occur.
    Ms. Wasserman Schultz. And wouldn't it be more likely that 
your workload and the requests for your work with a sequester 
in place kick in because you are arguably going to have 
committees that are going to want to know what impact the 
sequester is going to have on the programs that they are 
responsible for?
    Mr. Dodaro. That is true.
    Ms. Wasserman Schultz. So wouldn't you have sequester-
related requests that would add to your workload?
    Mr. Dodaro. Right. I believe we would have that. And we 
would have to prioritize and defer other work to be able to 
handle those.
    Ms. Wasserman Schultz. Okay. Thank you, Mr. Chairman.
    Mr. Alexander. Mr. Bishop?

                 GAO PLAYS KEY ROLE IN HELPING CONGRESS

    Mr. Bishop. Thank you very much.
    Following along the lines of the questions from Ms. 
Wasserman Schultz, you are our guide as Members of Congress, 
our chief investigator, our chief accountant, our chief 
detective. You perform the function that helps us to do what we 
should do to be responsible with taxpayers' dollars. If you 
were in the position to orchestrate or choreograph how the 
deficit reduction should take place, as compared to the 
sequester, I would assume that, being thoughtful, that you 
would want to set priorities. Your agency helps Congress to be 
informed in setting priorities.
    So if you were not necessarily head of GAO, but you were 
somehow orchestrating deficit reduction and the path to a 
balanced budget would GAO be the last agency that you would 
think about cutting? Since you set the priorities, wouldn't the 
GAO be the agency that you would want to be the strongest and 
most aggressive with its resources so that the people that you 
serve, your constituents in the Congress, would be better 
informed?
    Mr. Dodaro. I believe a strong GAO is good for the 
Congress, good for the country, and we need to do that. I 
believe that we shouldn't be immune from scrutiny over our 
budget. And I have come before this committee in the past and 
asked for a zero increase in our budget because I believe----
    Mr. Bishop. And you have.
    Mr. Dodaro [continuing]. We need to make our contribution 
to that. But I believe with the 8 percent reduction we have 
already implemented, and another, you know, 5, almost 6 percent 
with the potential sequester, that we are getting diminishing 
returns now, and we are jeopardizing GAO's ability to serve the 
Congress in the future. So I definitely believe, and obviously, 
I have a conflict of interest at this point----
    Mr. Bishop. That is why I asked you to imagine that you 
were not necessarily head of the GAO.
    Mr. Dodaro. Right. But I am in this position for 15 years. 
So it is hard to think of me being anything else right now.
    Mr. Bishop. I thought you were head of OPM.
    Mr. Dodaro. As I said, I believe a strong GAO is necessary 
to help the Congress make these difficult trade-off decisions. 
And it is a prudent and wise investment.
    I know full well that the government is on a long-term 
unsustainable fiscal path. And what lies before the Congress 
are some very, very difficult policy choices, from entitlement 
programs to discretionary spending to revenue issues. And we 
can provide full service to help the Congress deal with the 
full range of those fiscal challenges going forward. So I 
believe our optimum level is about 3,250 people. And right now, 
we are 300 below that, and potentially going 400 to 500 below 
that with the sequester. So we are asking for just a modest 
increase, and we think we can do the job and help the Congress.
    Mr. Bishop. It has been said over and over again such that 
I guess it is becoming redundant, that the sequester is 
pennywise and pound foolish, and would really, really just make 
absolutely no sense to you as a professional in terms of the 
function that your agency performs.
    Mr. Dodaro. Speaking for GAO, I believe it will have an 
impact on us, impact on the Congress and the country 
immediately, and will have a long-term impact on us unless we 
can recover from it.

             GAO IDENTIFIES BILLIONS OF DOLLARS IN SAVINGS

    Mr. Alexander. Mr. Valadao.
    Mr. Valadao. My question is simple. On page eight, you 
mention an opportunity to reduce cost if we take congressional 
action. How much would that save, and are there any other 
opportunities?
    Mr. Dodaro. On page eight. Which----
    Mr. Valadao. Where you state the reporting requirements for 
ARRA funding.
    Mr. Dodaro. Oh, ARRA funding. Yes, that would save us 
several staff years. What the requirement is--and it made sense 
in the beginning with the Recovery Act--we were charged with 
doing bimonthly reviews of the use of the Recovery Act money by 
States and localities and once a quarter to report on the 
number of jobs created or maintained that recipients were 
reporting to the administration. And so we did that. But most 
of the Recovery Act money has been spent now, but the 
requirement for us to do the bimonthly reviews and the 
quarterly reporting requirements is still in place. So that 
would save us some staff time to be able to do that. It is not 
going to be our savior by any means, but it is a contribution.
    Mr. Valadao. Are there any other opportunities similar to 
this?
    Mr. Dodaro. We address them every year. We will be 
submitting some additional ones to the Congress this year for 
consideration. Last year, the Congress repealed 16 mandates 
like that. We have asked this committee to help us on this one 
since it originated in the Appropriations Committees. But we 
work with the authorizing committees and others to try to 
repeal these requirements. We do that; it is a routine action 
we do every year. And we appreciate your support on that 
question. Thank you.
    Mr. Valadao. Thank you.
    Mr. Alexander. Mr. Jeff Fortenberry, we have given 
everybody else a chance for an opening statement and a 
question.
    Mr. Fortenberry. Thank you, Mr. Chairman.
    I appreciate your leadership, and the opportunity to talk 
with you today. And thank you for your leadership at the head 
of this most important agency. I apologize for coming in late. 
I don't have the benefit of the earlier statements, so forgive 
me if I am a bit redundant. I know you are doing more with 
less, and it is my understanding you basically have the same 
staffing level that you have had since 1935, something like 
that.
    Mr. Dodaro. Right.
    Mr. Fortenberry. I agree with the commentary that, going to 
the issue of the sequester, it is a clumsy way to do this 
across the board. Now, that is why I think that this demands 
cooperation between the White House and the Congress to figure 
out how the necessary task of reducing spending takes place in 
a more targeted manner that is reform minded, that helps 
deliver government services more effectively and efficiently, 
smart government. And I know that is your fundamental mission.
    To the specifics of something that you did, I believe it 
was last year, it might have been 2 years ago, you put out a 
report that looked at interagency conflicts, redundancies, 
overlapping missions. Can I make a recommendation to you? And I 
will allow you to respond.
    Mr. Dodaro. Sure.
    Mr. Fortenberry. It was very hard to unpack actually, if we 
implemented all of those measures that you called for, what the 
fiscal impact would be. You heard some people interpret that as 
a $600 billion savings. Technically, I am not sure how that was 
developed. I looked at the executive summary, as I recall, and 
you carefully avoided talking about, as I recall, the 
potential, the fullness of savings there. But can you address 
that question?
    Mr. Dodaro. Sure.
    Mr. Fortenberry. What is the potential savings of simply 
doing smart government reform that you have already called for? 
One low level number I saw was $200 billion. But I would rather 
hear it from you directly as to what that specific number was.
    Mr. Dodaro. Yes. We have now a statutory requirement that 
Congress put on us in one of the efforts to raise the debt 
ceiling to do this report every year on overlap and duplication 
and fragmentation of the Federal Government. We have issued two 
reports. We have pointed out 132 areas where there is overlap, 
duplication, as well as the ability to achieve cost savings and 
enhance revenues. We added that on as well because it is the 
same objective as overlap and duplication.
    Our third report will be coming out in early April of this 
year. And it will be our first pass across the entire Federal 
Government. In the 132 areas, we make over 300 specific 
recommendations of actions that could be taken by the Congress.
    One of the difficulties that we have had, Congressman 
Fortenberry, is that, in a number of cases, it has been hard to 
determine what the costs of some of these programs really are 
because they are included in a number of different areas. For 
example, there are 82 programs to improve teacher quality by 10 
different Federal agencies. Nobody had a list before we did the 
study. Many of these are outside of the Department of 
Education. There are 47 programs on employment and training. 
Also, there is very little information available for most of 
these programs on what their performance has been and how 
effective they are.
    But the bottom line is, to your point, we have estimated 
that implementing these actions, depending on what the Congress 
does, it could be tens of billions of dollars. We don't have an 
overall price tag that we put on it. It would depend on the 
decisions that are made. But we are confident that it is in the 
tens of billions of dollars. We think they would be smart cuts.
    Mr. Fortenberry. Well, then you can understand the 
difficulty of a single congressional office, where you are 
looking at basically 16 staff members trying to unpack what the 
potential of those actions means. It would be helpful if you 
could maybe in terms of even--I understand broad categories of 
tens of billions--but a little more specificity would be 
helpful. Because then that actually empowers us to say, okay, 
is this smart, or is this not? And by doing this a little bit 
differently, you can deliver effective program services but get 
rid of some of this duplication that is too hard to pay 
attention to as a single Member of Congress. You are having 
problems with 3,500 staff unpacking the dynamics of multiple 
duplications of a singular mission program that actually lands 
in a variety of places.
    Mr. Dodaro. Right.
    Mr. Fortenberry. So do you understand what I am asking you 
to do?
    Mr. Dodaro. Yes. Where we have been able to do that, we 
have. For example, there is a program where the Social Security 
Administration does not have the information from IRS to offset 
the pension costs for State and local employees. We estimate 
and CBO has estimated, if Congress mandated that information be 
collected you could save between $2 billion and $3 billion. We 
have said there is a Medicare pilot program that CMS has 
undertaken that is different from the one authorized in the 
Patient Protection and Affordable Health Care Act that rewards 
mediocre plans, not high-performing plans. If that pilot was 
canceled, you could save $8.3 billion. Now, the pilot has gone 
through a year or two already, but there is still $2 billion or 
$3 billion there. We have said on Medicare Advantage, that they 
are not reflecting the types of beneficiaries specifically on 
how they adjust the rates between the fee-for-service program 
and Medicare Advantage. That could save another $2 billion to 
$3 billion.
    So we have a lot of specific recommendations like that; 
where we can put a price a tag on it we put in there.
    The problem is on the 47 employment training programs, it 
depends on which ones the Congress keeps and which ones it 
doesn't. It is a policy matter for the Congress to choose.
    Mr. Fortenberry. Sure, I understand it is our 
responsibility ultimately. Is there a central repository of 
those specific----
    Mr. Dodaro. Yes.
    Mr. Fortenberry [continuing]. Programs that is simply 
outlined?
    Mr. Dodaro. Yes. This year, we are putting it online in 
April.
    Mr. Fortenberry. Can I have it this afternoon actually?
    Mr. Dodaro. Well, let me see what we can provide you right 
now. It is in process.
    Mr. Fortenberry. That would be helpful. I think it gets to 
the heart of my earlier question. Help us empower your mission.
    Mr. Dodaro. Right.
    Mr. Fortenberry. Specifics, even if they have to be in a 
bit of a broad range, I understand that, but tens of billions 
of dollars is too broad. Specifying, ``if you did this, these 
changes would occur, you could still meet mission goals but at 
the same time save this amount of money,'' I think that would 
enhance the effectiveness of your agency. It would further 
empower you and your passionate service for getting government 
right. I think it would potentially, as my other friends are 
arguing, put you maybe at the top of the list and make this 
number for every dollar invested, you get $100 of return, stick 
in the minds of people. I would like to give you that 
recommendation. It would be helpful.
    Mr. Dodaro. I understand what you are saying. But I also 
think it needs to be an interactive process. In other words, we 
need to point Congress in the direction in some of these areas. 
Where we have specific cost savings, we have provided them. But 
Congress would need to make some tentative policy choices and 
policy options, and then they could be priced out to see how 
much money we would save. You could eliminate----
    Mr. Fortenberry. Fair enough. I have admonished you. Now 
you have admonished me. Fair enough.
    Mr. Bishop. Would the gentleman yield? Could you provide 
that to all of us on the committee?
    Mr. Dodaro. Yes.
    Mr. Bishop. All right. Thank you. I think it is an 
excellent suggestion.

              FINANCIAL AND OTHER BENEFITS FROM GAO'S WORK

    Mr. Fortenberry. Thank you.
    Mr. Alexander. Going back 40 years, I certainly don't 
expect you to have a definite answer, but just off the top of 
your head, what percentage of the requests that you all have 
made to Congress, what percentage have been acted on in a 
reasonable way?
    Mr. Dodaro. Basically, we track implementation of our 
recommendations over a 4-year period. We figure if it is not 
going to be acted on within a 4-year period, chances are they 
will not be. It has consistently been 80 percent of our 
recommendations, that is by both executive branch agencies and 
the Congress, have been acted upon.
    Mr. Alexander. So the numbers that Mr. Fortenberry is 
talking about in savings, you have an estimate of what your 
suggestions have saved?
    Mr. Dodaro. Yes. That is the one-half trillion dollars I 
had mentioned of financial benefits. Just to give you a couple 
examples, we had pointed out acquisition and procurement 
problems in the Constellation program at NASA, so they canceled 
that and saved several billion dollars. DOD was going to have 
what they called tour normalization in South Korea, which was 
to move families there for longer tours of duty, servicemembers 
and their families, which was going to cost huge infrastructure 
costs. We said, you can't afford it, so they scaled it back and 
saved over $3 billion as a result. Many weapons systems we have 
pointed out have been over budget, and either the Congress or 
the agencies have scaled them back. We have pointed out where 
DOD buys too many spare parts. They have taken action. They 
have saved about--or $800 million, in spare parts. We think 
they could save more. So we have a lot of those type of 
recommendations.
    Mr. Bishop. Is that $800 billion?
    Mr. Dodaro. Eight hundred million, I am sorry. I misspoke, 
but I corrected myself.
    Mr. Fortenberry. We all got excited.
    Mr. Dodaro. Between trillions and billions and millions----

                      CAPITOL POLICE RADIO UPGRADE

    Mr. Alexander. It is our understanding that you have been 
monitoring a project that the Capitol Police have been trying 
to implement related to the outdoor repeater sites. And it is 
our understanding that it has been delayed maybe 6 months. Can 
you tell us why they are being delayed?
    Mr. Dodaro. Yes. One of the problems is the program had an 
extended procurement cycle. And there have been delays in the 
permitting processes. But right now, and we think that the 
fundamental problem has been, that you have three different 
parties involved here. You have the police. You have the 
Architect of the Capitol who has to build the facilities, and 
you have the Naval Air Systems Command, which is procuring the 
equipment for the police. There is no integrated schedule to 
say, okay, if we do this, this, and that, the project will stay 
on schedule. Right now, for example, they have to build the 
outdoor facilities in order to house the antennas, the repeater 
sites that are in place. There is still no agreement on how 
they are going to do testing to ensure that the system 
components work together. There is no training schedule for 
training the Capitol Police on how to use the radios. You have 
about 1,800 officers who have to be trained. Or how to migrate 
from the current radio system to the new radio system.
    All of those details need to be worked out in a well 
thought out schedule in order to be able to tell exactly when 
they are going to finish the effort, have it completed and in 
place. We have pointed this out several times in the past, but 
they still don't have a very reliable, integrated master 
schedule. And without that, your reliability of predicting when 
you will finally complete this is not high.
    Mr. Alexander. Ms. Wasserman Schultz.
    Ms. Wasserman Schultz. Thank you.
    I want to ask a follow up on the Capitol radios.
    But I do want to point out, Mr. Fortenberry, the GAO has 
2,870 FTEs, not 3,500. We are not even at 3,000. And we are 
several hundred below where they were previously. So we really 
are asking them to do more with less.
    I do want to agree with what he said, it is important for 
us to not allow the sequester to come in, to kick in, because 
indiscriminate across-the-board cuts are not the responsible 
approach. We have an opportunity to do that.
    We can come together and focus on a balanced approach to 
deficit reduction that would replace the sequester with 
targeted spending cuts, as well as closing tax loopholes for 
the wealthiest, most fortunate Americans. That is an approach 
that the American people overwhelmingly support, as opposed to 
the cuts-only approach that is on the table, proposed by the 
House Republican leadership. And, you know, the President and 
Congressional Democrats are simply waiting for the GOP join us 
at the negotiating table so that we can hammer out a compromise 
that takes that balanced approach.
    That having been said, on the radios specifically, and this 
is a continuation of, you know, of a project that was already 
starting to have problems when I was the chair of the 
committee. You know, we went through at the beginning of the 
process an argument over whether or not we actually would just 
appropriate the entire amount right away. And, you know, we 
struggled through that for a little while. And now, you know, 
we are at the point where the project timeline has slipped. The 
cost overruns have begun. And, you know, I am concerned about 
further slippage. And, you know, I am not willing to just sign 
off on, you know, more funds being released for this project 
until there is a better handle on the timeline and just 
actually until we are given greater confidence that the system 
that they are putting together actually has good oversight and 
is one that is going to do the job. Because remember the radio 
modernization project, Mr. Chairman, I mean, the purpose of 
that is left over from 9/11. I mean, you know, we are still 
dealing with the system that the Capitol Police has that has 
interoperability challenges. And I mean, it is 2013.
    You know, we are 12 years beyond 9/11. And this was one of 
the number one problems that was identified that our police 
services had when 9/11 happened. So what are the budget 
implications due to the time slippage? If you could give us an 
outline of those.
    Mr. Dodaro. Sure. I understand there has been appropriated 
about $105 million. Right now, the estimate is around $102 
million. So there is a small amount of money that we understand 
may still be available. And we have not gone in and audited it, 
but that is our understanding of what is being reported. If the 
project slips beyond the current schedule, which is toward the 
end of this fiscal year, and goes into fiscal year 2014, there 
is a possibility that additional money could be needed. I don't 
have any idea right now. Until you have a good schedule, it is 
really hard to predict the amount of money.
    Ms. Wasserman Schultz. We have a hearing with them on March 
6.
    Mr. Dodaro. I think the things to focus on then will be the 
testing to ensure system coverage. You are exactly right. The 
dead spots in the Capitol and why they had no coverage in many 
parts of the Capitol. They have installed all the internal 
antennas within the Capitol. The one thing to keep an eye on 
and ask about is what implications there would be when the 
renovations start at the Cannon Building for the placement of 
those antenna and whether they need to be moved again or not.
    Ms. Wasserman Schultz. Right.
    Mr. Dodaro. The need to review the system coverage on the 
outdoor testing before they accept the system, make sure 
everything works properly, and to make sure they have a good 
rollout plan for training the officers and migrating from the 
old system to the new one so you don't have any gaps in 
coverage. Those are the key things.
    Ms. Wasserman Schultz. Thank you.
    Mr. Alexander. Is that all?
    Ms. Wasserman Schultz. I have others.
    Mr. Alexander. Okay.
    Mr. Bishop.
    Mr. Bishop. I am fine.
    Mr. Alexander. Mr. Valadao.
    Mr. Fortenberry. One more question if you would indulge me, 
Mr. Chairman.
    Mr. Alexander. Sure.

              OVERLAP AND DUPLICATION IN FEDERAL PROGRAMS

    Mr. Fortenberry. You talked about the two reports that you 
have issued on waste and fragmentation and potential for 
reform. You talked about a third coming out in April. Is that 
different, or is that the same?
    Mr. Dodaro. No, that is different. That will have new areas 
identified in it, but it also tracks the recommendations that 
we made in the first two reports.
    Mr. Fortenberry. To the chairman's question.
    Mr. Dodaro. Right. And to your point. The information will 
all be automated and searchable.
    Mr. Fortenberry. Okay. Now, you spoke of the initial 
reports that identified 132 programs reflecting a degree of 
redundancy, or the potential for reform.
    Mr. Dodaro. Yes. Over half of those identified are areas of 
overlap and duplication. The other half to a third of the areas 
are cost savings opportunities and revenue enhancements. We 
have a number of recommendations on revenue enhancements.
    Mr. Fortenberry. I want to return to that in a moment after 
I finish this narrative thread. You said there are 300 actions 
involving those 132 programs.
    Mr. Dodaro. Yes, that is correct.
    Mr. Fortenberry. What does it look like in your April 
report as to the number of areas that could potentially be 
reformed?
    Mr. Dodaro. Another 50.
    Mr. Fortenberry. Okay. Fifty. So we can just accumulate, 
assuming Congress has not done much with the earlier ideas?
    Mr. Dodaro. There are some that have been fully 
implemented. Many are partially implemented. But there are many 
others where there hasn't been any action.
    Mr. Fortenberry. So 50 more is going to potentially save 
tens of billions of dollars more? Can you go that far?
    Mr. Dodaro. I have not signed off on the final report yet, 
so I am not even going to give you that right now. I want to be 
accurate. I don't want to overpromise.
    Mr. Fortenberry. What do you mean in terms of a redundancy 
as it affects enhanced revenues?
    Mr. Dodaro. Well, there is a set of the 132 areas that are 
focused on overlap and duplication of programs. And these areas 
are: employment training, teacher quality, science, technology, 
engineering and math, STEM studies, 200 programs; 160 programs 
in the housing area. For example, we recommended that the Rural 
Housing Authority and HUD potentially could be merged to save 
money. The Rural Housing Authority is making loans in urban 
counties, and HUD is making loans in rural counties. And with 
today's technology, you could save.
    Then we have cost savings, where we have recommended that 
this action could save money. We put those in there, too. They 
are not overlap and duplication. Now, revenue enhancement, 
there are things like how to address the $385 billion net tax 
gap that we have right now from taxes owed that should have 
been collected under the current system that were not.
    Mr. Fortenberry. So it is about enforcement issues.
    Mr. Dodaro. It is enforcement. The Congress could give the 
IRS math authority. We have recommended that so they could fix 
some of the returns. We have recommended that IRS be given 
authority to collect third-party data in a couple other cases 
that IRS could improve enforcement. There are also 
recommendations in there about new revenue sources that the 
Federal Government could get, for example, in selling enriched 
uranium. There is a potential for that. Congress has asked the 
energy department, based on our recommendation, to provide some 
options for doing that that wouldn't disrupt the market that 
could accrue revenue to the Federal Government. The Federal 
Government hasn't adjusted user fees for a number of years. A 
number of programs are supposed to recover fees to cover their 
costs. That hasn't happened in a lot of cases. Civil penalties 
have not been adjusted for inflation.
    Mr. Fortenberry. They are already empowered to adjust it by 
law?
    Mr. Dodaro. Yes, in some cases. In other cases, they need 
statutory authority. We point out to the Congress where they 
could provide needed authority. For example, immigration fees, 
when people come into the country. That could be adjusted to 
better cover the costs of DHS rather than using appropriated 
funds to recover that money.
    Mr. Bishop. Will the gentleman yield?
    Mr. Fortenberry. Yes.

                      REPORT ON UNCOLLECTED TAXES

    Mr. Bishop. On the uncollected taxes, we have had the 
opportunity to fund additional revenue agents that the IRS has 
requested. We were told that the failure to fund these revenue 
agents allowed billions of dollars in uncollected taxes to 
continue. Did GAO do recommendations on this one as well?
    Mr. Dodaro. Yes, we just issued a report, for example, 
where IRS, we believe, could redirect some of their resources 
to more productive enforcement activities and enhance revenue 
collections by at least a billion dollars with small 
adjustments to more productive areas. We have made a lot of 
recommendations over the years to enhance IRS' performance 
measures for really figuring out what are the best methods for 
collecting and enhancing revenue.
    Mr. Bishop. So additional agents are not necessarily the 
answer?
    Mr. Dodaro. Not always, no. You could get third-party data. 
The most efficient source is information matching, particularly 
with today's computer environment. And that is one of their 
best methods to be able to do it. Plus you need to act early.
    Mr. Bishop. So they could do more with less is what you are 
saying.
    Mr. Dodaro. Well, they need both agents, and they need IT, 
but they could do more to bring in more revenue if our 
recommendations were implemented. And this is not new revenue. 
This is revenue that is due under current law.
    Mr. Fortenberry. Reclaiming my time, thank you. Go back to 
that specific point on, for instance, you gave an example of 
teacher quality improvement programs across multiple agencies. 
You couldn't even find how many there were. Once you did, there 
were dozens did you say?
    Mr. Dodaro. There were 82 by I believe 10 different 
agencies.
    Mr. Fortenberry. That is all I have.
    Thank you, Mr. Chairman.
    Mr. Dodaro. Sure.
    Mr. Alexander. Mr. Andy Harris, welcome to the committee. 
Do you have a question or an opening statement?
    Mr. Harris. No, I don't, sir. I will pass.
    Mr. Alexander. Okay.

                       PAY FOR PERFORMANCE AT GAO

    Ms. Wasserman Schultz. Thank you, Mr. Chairman.
    Just a couple of items. GAO still is utilizing your pay-
for-performance system. And that was an experiment that was 
entered into by a few government agencies, the largest being 
DOD, which ended their experiment after the 2010 National 
Defense Authorization Act. And GAO reviewed DOD's system before 
it ended. But have you reviewed your own? I would like to know, 
you know, has it accomplished the goal of tying pay to 
performance? And how are GAO employees comparable to other 
Federal workers in pay since they don't have any within grade 
increases like most executive branch employees?
    Mr. Dodaro. First, we went off the GS system in the 1980s 
and have implemented pay for performance since that period of 
time under different systems. We have just reviewed our system, 
from a bottom-up approach with the employees, the union and 
others. We have a new performance management system that we are 
implementing this fiscal year for the first time. And I am very 
pleased with that system. We are working through right now with 
the union how we are going to compensate people for their 
performance from a pay standpoint.
    The problem is we have not been able for the last 2 or 3 
years in particular to give our people comparable raises to 
what the GS step increase system would be in the executive 
branch. I am concerned about that.
    Ms. Wasserman Schultz. And to what do you attribute that?
    Mr. Dodaro. The budget, just budgetary constraints. In the 
GS system they are mandated by law to provide the step 
increases.
    Ms. Wasserman Schultz. Right. Right.
    Mr. Dodaro. In our system, adjustments are not mandated and 
we are constrained by how much money we can give our employees 
for pay for performance.
    Ms. Wasserman Schultz. You would say that is more of an 
indictment of the fact that we are not at an appropriate level 
of funding rather than the system that you use.
    Mr. Dodaro. Exactly. Before the budgetary constraints, we 
were rewarding our employees comparable levels in pay for 
performance. I think our pay-for-performance system works well. 
It always works better if you have money.
    Ms. Wasserman Schultz. Yes, resources are helpful.
    Mr. Dodaro. Yes. I am confident in our system. We have good 
working relationships with our union. I am pleased with that. 
We will work through that.
    Ms. Wasserman Schultz. Things seem to have definitely 
improved from the last administration to this one when it comes 
to the relationship you have with your employees and their 
union representation, which is great.
    Mr. Dodaro. Right.
    Ms. Wasserman Schultz. But still, it is important to know 
that the pay grade is lower as a result of the budget 
challenges.
    Mr. Dodaro. Yes. And I am concerned about that. We have 
dedicated, talented people, but they are marketable both within 
government and in the private sector.
    Ms. Wasserman Schultz. And ultimately, wouldn't you say 
that it affects the quality of your ability to recruit talented 
employees to GAO when your system, which is sound, results in a 
lower pay scale because of the budget challenges?
    Mr. Dodaro. Definitely.
    Mr. Bishop. How about retention?
    Mr. Dodaro. And retention issues, too, definitely.

                          STAFFING CHALLENGES

    Mr. Bishop. Are you losing employees?
    Mr. Dodaro. Well, we are at about 7 percent, 8 percent 
attrition this year, about half through retirements. What I am 
concerned about at this point is also hanging onto the talented 
younger people and the Baby Boom generation, since forty 
percent of our senior executives and about 26 percent of our 
supervisory analysts are eligible to retire. We are not 
replacing them through the pipeline. So I am worried about the 
future of the workforce. It is an issue of both replacing 
retirees and retention.
    Ms. Wasserman Schultz. Just reclaiming my time, I want to 
ask you about Open World. Did you have something else?
    Mr. Bishop. No.

                  GAO REVIEW OF OPEN WORLD OPERATIONS

    Ms. Wasserman Schultz. Thank you. We will have a hearing 
with Open World, and I will have a chance to ask some questions 
from them. But GAO reviewed it from the fiscal year 2012 
legislative branch bill, the Open World program. Could you just 
describe the scope of that project and what some of the results 
were? And particularly I am interested to know what kind of 
progress they have made on raising private funds and what 
percentage of their budget now consists of private funds.
    Mr. Dodaro. The requirement in the 2012 appropriations 
required us to look at our 2004 report, where we made eight 
recommendations to improve their financial management 
operations and their performance management operations. We 
found that they had improved their financial management 
practices. They were now getting independent audits every year 
and getting clean opinions. They revised their manuals and 
grant procedures. In the performance management area, they had 
improved their practices there, too, with quantitative 
measures, and at the completion of our review produced a 
performance plan. So they were moving in the right directions 
and implementing the recommendations. The 2012 requirement did 
not ask us to update the issue on the funding. But my 
understanding from our team, and I will provide a more detailed 
answer for the record for this----
    Ms. Wasserman Schultz. Thank you.
    Mr. Dodaro [continuing]. Is that most of the funding is 
coming from in-kind contributions at this point. I am not sure 
exactly what percentage it represents. But I will try to get 
that information and provide it for the record.
    [Information provided for the record follows:]

    Question. To what extent is Open World generating private funding?
    Response. In its 2011 Annual Report, Open World reported raising 
$406,000 from private funding sources to supplement its appropriations 
in fiscal year 2011. Open World is making efforts to raise funds from 
private sources at an annual average of approximately $330,000 for 
fiscal years 2012 through 2016. According to Open World officials, most 
of this funding to date has been used to support alumni activities not 
funded through appropriated funds.
    In addition, in fiscal year 2011 Open World reported $2.3 million 
in in-kind (non-cash) contributions, mostly from U.S. grantees/
volunteers that support the program. These contributions typically 
include homestays, meals, volunteer staff time, transportation, meeting 
space and other types of in-kind services.\1\
---------------------------------------------------------------------------
    \1\ In 2004, we recommended that Open World estimate and disclose 
the value of contributed services from U.S. volunteers to better 
reflect the total scope of the program. Each year since 2007, Open 
World has required all grantees to submit by March 31 of the following 
year a Cost Share Report detailing contributions made by the grantee or 
a third party to the program.
---------------------------------------------------------------------------
    Open World has established annual fund-raising goals for both 
direct private funding and in-kind contributions for fiscal years 2012 
through 2016. The annual target for direct private funding ranges from 
$325,000 in 2012 to $338,000 in 2016. For fiscal years 2012 through 
2016, Open World set a goal of receiving annual in-kind (and some other 
private) contributions that, when given a monetary value, represent 
between 20 to 22 percent of its annual appropriation.\2\ Planned 
targets remain fairly consistent at 20 percent for 2012 and 2013, 21 
percent for 2014 and 2015, and 22 percent for 2016.

    \2\ Open World officials said the term ``cost-shares'' used in Open 
World's performance measures refers to both in-kind contributions and 
other private contributions that fund delegation-specific program 
expenses.

    Ms. Wasserman Schultz. That would be great. And did your 
review look at duplication with other agencies or programs that 
are similar to Open World?
    Mr. Dodaro. I do not believe so.
    Ms. Wasserman Schultz. Thank you, Mr. Chairman.
    Mr. Alexander. Mr. Bishop, you have a final question?
    Mr. Bishop. I am satisfied. Thank you.

                            Closing Remarks

    Mr. Alexander. Well, we appreciate it. There are some other 
questions that we will submit to you for the record. We 
appreciate you sharing your time with us this morning. We will 
work with you.
    We appreciate you all being here with us today. Thank you.
    Mr. Dodaro. Thank you very much, Mr. Chairman. I know that 
you and the committee members will give careful consideration, 
as always, to our requests. And I appreciate that very much. 
Thank you again for the opportunity to be here today.
    Mr. Alexander. Sure. Thank you.
    [Questions submitted for the record by Chairman Alexander 
and Congressman Young follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                        Tuesday, February 26, 2013.

                    U.S. GOVERNMENT PRINTING OFFICE

                                WITNESS

DAVITA VANCE-COOKS, ACTING PUBLIC PRINTER
    Mr. Alexander. Next we will hear from the Government 
Printing Office. Good morning. How are you? Nice to see you.
    Ms. Vance-Cooks. Good morning, Mr. Chairman.
    Mr. Alexander. So you will be sitting alone at the table?
    Ms. Vance-Cooks. I am going to bring some people up.
    Mary Alice?
    Mary Alice Baish is the Superintendent of Documents.
    Mr. Alexander. This is the testimony of the Government 
Printing Office of the request by you as $128.5 million for 
fiscal year 2014, an increase of $1.5 million or 1 percent 
above the current CR. As we mentioned earlier, the fiscal 
uncertainty is very difficult to predict what the outcome is 
going to be. So we are going to be talking to you about that. 
We look forward to hearing from you.
    Ms. Wasserman Schultz, do you have an opening statement?
    Ms. Wasserman Schultz. I do. Thank you, Mr. Chairman. I 
join the chairman in welcoming the Acting Public Printer, Ms. 
Davita Vance-Cooks, as well as Ms. Baish in a new role. Maybe 
you have been here for a while, but a new role since I was last 
here. Nice to see you again, too. Ms. Vance-Cooks and I had a 
chance to meet this week and she gave me an overview of her 
tenure at GPO.
    The major issues with GPO really are well covered by the 
National Academy of Public Administration report entitled 
Rebooting the Government Printing Office: Keeping America 
Informed in the Digital Age. So this subcommittee mandated NAPA 
to conduct this review and the NAPA panel concluded that GPO's 
core mission remains valid but that the agency and rest of the 
Federal Government will need to continue to reboot for the 
digital age.
    I am glad to see that NAPA recognizes the unique role GPO 
has in disseminating information to the public. We have too 
many members who use GPO as a political football, as an 
opportunity to shine the light on government waste, simply 
because your name has the word ``printing'' in it. If they took 
time to learn more about the agency they would know what I know 
and what NAPA found, that GPO has a critical role for 
disseminating, authenticating and preserving government 
information. It really is an accountability agency.
    As GPO has repeated time and again, two-thirds of GPO's 
print costs for congressional work goes towards content 
development with the remaining one-third going towards actual 
printing. And I think that is something that gets lost in our 
debate over GPO's budget.
    I agree with NAPA that GPO needs to modernize its business 
model and shift its focus to disseminating and preserving 
content on line. And I know Ms. Vance-Cooks does as well, which 
means changing the current staffing model. And I look forward 
to a discussion with the Acting Printer about how she plans to 
steer the agency into a modern era.
    And as with every agency that will appear before the panel, 
I want to hear how your agency will implement sequester cuts if 
they go into effect on March 1st.
    Thank you, Mr. Chairman, and Ms. Vance-Cooks, I look 
forward to your testimony.
    Mr. Alexander. Ms. Vance-Cooks, if would you introduce your 
staff members.
    Ms. Vance-Cooks. Yes.
    Mr. Alexander. And then present your testimony, thank you.
    Ms. Vance-Cooks. Certainly. Mary Alice Biash, 
Superintendent of Documents. In back of me, would you please 
stand and give your title?
    Mr. Davis. Ric Davis, Chief Technology Officer.
    Mr. Green. Lyle Green, I am the Managing Director of 
Official Journals of Government.
    Mr. Sherman. Andy Sherman, Chief Communications Officer.
    Mr. Shedd. Steve Shedd, Chief Financial Officer.
    Mr. Guy. Bill Guy, Budget Officer.
    Mr. Somerset. Gary Somerset, Public Relations Manager.
    Ms. Wojtowicz. Emma Wojtowicz, Public Relations Specialist.
    Ms. Johnson. And I am Yalanda Johnson, Congressional 
Relations Specialist.
    Mr. Bishop. May I make a short opening statement?
    Mr. Alexander. Sure.
    Mr. Bishop. I just wanted to of course welcome all of you 
back. I wanted to praise Ms. Vance-Cooks for the outstanding 
job she has done over the last year in doing more with less. I 
understand that GPO ended fiscal year 2012 with a positive net 
income, which is remarkable considering the fact that all of 
the agencies are cutting their printing costs. So I just want 
to congratulate you on your efforts to reconfigure the mission 
for the digital age and to slash your overhead.
    Mr. Alexander. Anybody else have an opening statement? Ms. 
Vance-Cooks.

                Opening Statement--Acting Public Printer

    Ms. Vance-Cooks. Thank you for the kind remarks. I 
appreciate it very much.
    Chairman Alexander, Ranking Member Wasserman Schultz, and 
Members of the Subcommittee, good morning, and thank you for 
the invitation to make a few remarks about the Government 
Printing Office. In the interest of time, as you have asked, I 
will briefly summarize my prepared statement, which has been 
submitted for the record.
    The GPO, as you know, produces, procures, catalogs, 
indexes, authenticates, disseminates and preserves the official 
information products for all three branches of the Federal 
Government. This year, however, we have taken it one step 
further. We have rebranded the GPO as official, digital and 
secure. This rebranding you will see is evident in our 
marketing collateral, in our social media, and in our strategic 
plan.
    We are official because the Government information that we 
produce is authentic and it has not been altered since 
origination. We are digital because we are transitioning to a 
digital information platform. We offer digital products, we use 
digital equipment, and we integrate digital processes into our 
workflow. We are secure because we have expertise in producing 
the latest, state-of-the-art secure precision functionalities 
in our e-Passports and in our ``smart card'' credentials.
    We were once primarily a printing operation. We are now 
smaller, we are leaner. We are more agile and we are in fact a 
publishing operation. And I am here today to tell you that I 
believe that the name of this agency should actually be changed 
to the Government Publishing Office because we are much more 
than printing ink on paper. We carry out our mission of keeping 
America informed by using an expanded range of digital as well 
as conventional formats, and this is because we are 
transforming ourselves from a print-centric to a content-
centric operation.
    The transition of GPO to a digital information platform is 
evident in just so many ways. Our Web site, the Federal Digital 
System, or FDsys as it is called, has 800,000 Federal titles 
available free of charge to the public. We see more than 37 
million documents downloaded each month. This is the only 
system of its kind in operation today.
    We provide mobile apps of congressional as well as agency 
information. We make House bills available in XML bold data 
format. We offer Government documents for sale as e-books. We 
create and host Web sites. We produce e-Passports for the State 
Department, which contain computer chips for biometric data. We 
offer secure credentials to both congressional and Federal 
agency offices as smart cards containing the latest in digital 
security measures. And we are constantly looking for future 
opportunities. We are pursuing variable printing, we are 
pursuing print-on-demand. We even have a small 3-D printer 
because we are trying to figure out whether or not there is 
space for us in the 3-D printing market.
    Over the past generation our transition from printing to 
digital operations has saved Congress, Federal agencies, and 
the taxpayers hundreds of millions of dollars while at the same 
time exponentially expanding public access to government 
information. This is the path that we are on, this is the path 
that we will continue to follow.
    The GPO's path towards a digital transformation has been 
validated by the National Academy of Public Administration. In 
their recent report titled ``Rebooting the Government Printing 
Office'', we are pleased to see they in fact affirm that GPO's 
core mission of authenticating, preserving, and distributing 
Federal information remains critically important to the 
American democracy in the digital age. We believe the report 
offers a number of thoughtful useful recommendations to 
strengthen our business model for the future, and we are taking 
these recommendations very seriously and we have begun to work 
on them.
    We also look forward to working on our budget request for 
fiscal year 2014, which will be submitted later this week. We 
proposed if you will recall a flat budget in fiscal year 2013 
and we received one through the continuing resolution. For 
fiscal year 2014, we are proposing a modest 1.2 percent 
increase over the continuing resolution. Our request will 
include a significant shift in funds away from congressional 
printing and binding towards our revolving fund, primarily for 
investment in new technology to support our ongoing 
transformation to a digital platform.
    But unfortunately, the momentum that we have seen in terms 
of moving towards a digital platform will probably be impaired 
by the sequester. This means that the momentum in terms of our 
support of Congress moving towards a digital platform will be 
impaired. We have been preparing for sequestration for quite a 
while. It appears to be a very real possibility. And I am 
prepared to discuss in detail how GPO will manage itself during 
the sequestration, but like everyone else, we hope that the 
Government's funding issues will be resolved very, very soon.
    Chairman Alexander, Ranking Member Wasserman Schultz, and 
Members of the Subcommittee, this concludes my opening remarks 
and I would be pleased to answer any questions that you might 
have.
    [The statement of Ms. Vance-Cooks follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                        IMPACT OF SEQUESTRATION

    Mr. Alexander. You mentioned sequestration, can you tell us 
in twenty-five words or less how you prepared for it?
    Ms. Vance-Cooks. Twenty-five words or less, I will 
definitely try. Sequestration will cost our appropriations 
approximately $6.7 million. The $6.7 million is a very large 
amount of money for an agency this small. We will attack it in 
two ways. We will look at our discretionary expenses, which 
means we will defer our capital expenses and our long-term 
projects. We will also impose what I call organizational 
restrictions, which is a restriction on hiring, there will be a 
hiring freeze, restrictions on travel, training, and so forth.
    We believe that with that $6.7 million cut that might be 
okay except for one fact--may I keep going?
    Here is the problem. The appropriated funds for GPO only 
account for 16 percent of our budget. The balance, the 84 
percent, comes from revenue that we earn. We earn it through 
printing for Federal agencies and passports. If sequestration 
hits the other agencies, they will probably reduce printing. 
They may even cut it out altogether. If that ripples into our 
84 percent revenue category, then we may have to furlough. We 
are doing everything in our power to avoid furloughs. This is 
not what we want to do. We may not know about the extent of the 
impact on our 84 percent revenue until May or June.
    However, there is also one other problem. The printing 
revenue that we have and that we generate is also done by 
printers outside of GPO, across the United States. There are 
about 16,000 vendors; 3,000 of them we do a lot of business 
with. It is entirely possible they will see a reduction in 
their revenue. They may lay off, they may even close. This is 
the impact of sequestration. It will ripple across those 
businesses.
    Mr. Alexander. Ms. Wasserman Schultz.
    Ms. Wasserman Schultz. Thank you, Mr. Chairman. Just to 
follow up on what you just mentioned, the 84 percent is just 
your revolving fund?
    Ms. Vance-Cooks. Yes, it is.
    Ms. Wasserman Schultz. So the impact on your revolving fund 
is both that if agencies cut back on their printing that will 
affect your revenue?
    Ms. Vance-Cooks. That is correct.
    Ms. Wasserman Schultz. But the businesses with whom you 
contract work, from the conversation we had yesterday and your 
testimony now, could go under. From my experience with all of 
us have quite a bit of interaction with our printers at home, 
both as customers and as constituents, and my understanding is 
that the printing business has a very slim margin.
    Ms. Vance-Cooks. It does.
    Ms. Wasserman Schultz. And, you know, do you have an idea 
of the percentage of work that is attributed to GPO's work that 
you give to many of these businesses?
    Ms. Vance-Cooks. Yes. Yes, approximately 75 percent of the 
orders that come into the GPO are contracted out to vendors.
    Ms. Wasserman Schultz. And those vendors, what percentage 
of their work do you know is GPO's business?
    Ms. Vance-Cooks. It varies according to the vendor but some 
vendors may have as much as 80 or 90 percent. They may rely on 
it totally, other vendors may not. The small mom and pop shops 
are actually the ones I am the most concerned about. They are 
the ones with fewer than 20 employees.
    Also, if I may, I have numbers that indicate just how much 
revenue goes to some of the States in here if I may share that. 
For example, in California in fiscal year 2012 $22 million of 
printing went to that State from GPO. Florida was $12 million, 
Georgia $6 million, Maryland $48 million, Virginia $11 million, 
Nebraska $1.5 million, Louisiana half a million.
    Mr. Fortenberry. Why did you pick those States?
    Ms. Vance-Cooks. Because they are all represented here.
    Mr. Fortenberry. Never ask a question you don't know the 
answer to.
    Ms. Wasserman Schultz. So what is the impact beyond this 
year if the sequester is not replaced and you have to operate 
in fiscal year 2014 and beyond with a roughly five percent cut?
    Ms. Vance-Cooks. We will see degradation in our 
investments. We rely very heavily on the funding to improve our 
investments in technology so that we can continue our digital 
transformation. As you know, to convert to digital takes money, 
so it is upfront costs. If we do not have those funds, 
everything will stop in terms of that transition.
    Ms. Wasserman Schultz. So basically the process to 
transforming into a more digital agency will stall?
    Ms. Vance-Cooks. That is correct.
    Ms. Wasserman Schultz. And you will continue to 
essentially, in the minds of some Members, waste money by 
printing documents that are thrown away or that age and don't 
stand the test of time?
    Ms. Vance-Cooks. That is correct. Also, I would like to add 
that we also end up with the fact that we will not be able to 
move forward in terms of creating new and different ways in 
which we can present information. It was through the funding 
from Congress that we were able to figure out how to develop 
apps, develop e-books. Now we are looking at 3-D printing, now 
we are looking at variable printing, print-on-demand. It is 
that assistance that allows us to look into the future. When we 
don't have that kind of funding because it is that expensive, 
that may stop.
    Ms. Wasserman Schultz. It is fair to say that if 
sequestration takes place in 3 days the impact on GPO's budget 
and the products that you turn out will result in less 
accountability because we will have less information available 
to the public that can be widely disseminated?
    Ms. Vance-Cooks. That is correct.
    Ms. Wasserman Schultz. Thank you. Thank you, Mr. Chairman.

                  EQUAL EMPLOYMENT OPPORTUNITY AT GPO

    Mr. Alexander. Mr. Bishop.
    Mr. Bishop. Thank you very much. Ms. Vance-Cooks, another 
compliment for you. I was pleased to read that the GPO is 
continuing to make progress in reducing the number of equal 
opportunity complaints. I understand that there were 27 formal 
complaints of discrimination filed at GPO during fiscal year 
2012 compared with 34 the year before, which is a 21 percent 
reduction.
    Can we get for the record an update on the equal 
opportunity complaints and the resolution of those complaints? 
It has been a chronic problem over the years and I am happy to 
note that over the last couple of years it has gotten better.
    In addtion, as an iPad user, I was very pleased to read 
that you signed an agreement with Apple to sell the Federal e-
books over iTunes and other electronic stores. Do you see that 
as a revenue raiser or more of a public service, open 
government type initiative or both? How do you go about 
establishing your prices?
    Ms. Vance-Cooks. Okay, let's talk about the EEO first. 
Thank you for acknowledging that we have reduced the EEO 
complaints because we have worked very diligently on this. The 
EEO Director actually reports directly to me. We meet once a 
week. Because there are so few complaints now I am actually 
familiar with almost every case. We have had a number of 
opportunities to--I guess the right way to say it is to 
intercede. We have an alternate dispute resolution process now 
so that we try to take it off-line and try to resolve it. It is 
working, people come out and they feel good about that.
    We are also very sensitive about the EEO issues when we 
went through a buyout, because a lot of times when you have a 
buyout sometimes the EEO complaints increase. They actually 
decreased because of our stringent adherence to making sure 
that the individuals and the employees were aware of what we 
were trying to do, why we were trying to do it. Actually when I 
last looked at the data we had as high as 84 complaints in 
2009, so we have actually dropped 68 percent. So it is actually 
pretty good.
    In terms of Apple, I am glad you enjoy Apple. Thank you 
very much. Actually for us it is an opportunity issue, it is an 
opportunity just to put the e-book out there. E-book pricing is 
very low. It is very difficult to make a margin on that. So 
actually what we are doing with the e-book market is making our 
presence known to the rest of the public that we can in fact 
offer e-books. Consider it an opportunity type of issue.
    Mr. Bishop. Have you been able to track how many people are 
downloading the mobile applications? I think you referenced it 
just now, but have you been able to track whether the users are 
finding them easy to navigate?
    Ms. Vance-Cooks. Yes, we can track and we have been 
tracking. Let me give you an example. We are the ones who 
created the app for the President's budget for fiscal year 
2013, which was the first time it had ever been done. And by 
the way, we won an award for that one. The first day it had 
53,000 visits. And so we see about several hundred or several 
hundred a day.
    Mr. Bishop. Were those applications created in-house or 
were they contracted out?
    Ms. Vance-Cooks. I am happy to tell you they were made in 
house.
    Mr. Bishop. Final question, do you see any new technologies 
that could further transform and change the printing industry?
    Ms. Vance-Cooks. We are very interested in variable 
printing, we are very interested in print-on-demand. The latest 
one now is the 3-D printing. We are not sure what kind of space 
we will have with 3-D printing but we are looking at it. And we 
are also heavily involved in mobile data networks. So we are 
doing a lot of things to make sure that we are relevant to the 
population.
    Mr. Bishop. Thank you very much.

                   PRINTING PROCUREMENT FOR AGENCIES

    Mr. Alexander. Mr. Harris.
    Mr. Harris. Thank you very much. And I also congratulate 
you on having your revenue exceeding your expenses last year.
    Ms. Vance-Cooks. Well, thank you so much.
    Mr. Harris. You mentioned that about, if I got it right, 
about 84 percent of your budget comes from outside, other 
agencies and whatever--I guess you just manage the printing for 
or you act as the conduit between them and outside printers, 
$48 million of which is in Maryland. Which department is your 
largest user of that?
    Ms. Vance-Cooks. The Department of Defense.
    Mr. Harris. And what is their amount?
    Ms. Vance-Cooks. I would have to check.
    [Information provided for the record follows:]
    In FY 2012, total billings to DOD and related military 
agencies were $103.8 million.

    Mr. Harris. Have they given you an indication of if the 
sequester takes effect how much of that printing budget will be 
cut?
    Ms. Vance-Cooks. No one has talked to us yet.
    Mr. Harris. Do you think that is good planning over at the 
Department of Defense?
    Ms. Vance-Cooks. I think they are involved in looking at 
other things beyond printing. I think printing will probably be 
the last thing they start to look at.
    Mr. Harris. Do you have any idea of a timeline of when they 
might start looking at things like that since this law was in 
place for a year and a half?
    Ms. Vance-Cooks. I am predicting that probably we, GPO, 
will see something within the next 2 or 3 months. I will tell 
you that we have begun our own market outreach. We have 
contacted a number of our agencies to find out what they are 
planning. Some of them are saying that they are going to wait 
and see.
    Mr. Harris. That is tough on you.
    Ms. Vance-Cooks. Today in fact we are having an open house 
for our client agencies. We have over 200 clients there right 
now so that we can tell them what we can provide for them 
during sequestration or ongoing. And I think it is a good 
marketing tool for us, and as soon as I leave here I am going 
back to this open house. They want to know how they can manage 
their printing and publishing needs and we are here to help 
them. So we are trying to present ourselves as a problem 
solver.
    Mr. Harris. So I should tell some of these printers in 
Maryland who do the $48 million that actually it appears to me 
that the GPO is not the problem. If they come ask me what is 
the effect of sequester on me you can't answer because actually 
you are downstream from other agencies----
    Ms. Vance-Cooks. That is correct.
    Mr. Harris [continuing]. That have not planned as far as 
you can tell.
    Ms. Vance-Cooks. We are downstream from agencies who have 
not yet communicated to us what their plans are.
    Mr. Harris. Well, thank you very, very much. Thank you, Mr. 
Chairman.

            NATIONAL ACADEMY OF PUBLIC ADMINISTRATION REPORT

    Mr. Alexander. In your opening statement you mentioned the 
National Academy of Public Administration. It is my 
understanding that they released their report with some 
recommendations how you can help us deal with the digital age. 
Have you satisfied some of those suggestions that they have 
made?
    Ms. Vance-Cooks. Yes. They actually gave us 15 
recommendations sorted into three themes. The first theme, as 
you mentioned, is to take a good look at the Federal Government 
in the digital age. And they recommended that Congress 
establish an interagency process to develop a governmentwide 
strategy for the life cycle management of digital information. 
As part of that they want us to take a look at the FDLP and 
develop a national plan on how we will preserve information. 
Through Mary Alice Baish, the Superintendent of Documents, we 
have started a State forecasting study. In fact we started it 
last year, and the purpose of that study was to ask all the 
Federal depository libraries what they thought they would need 
as they go towards the digital age so that they would 
essentially be a stakeholder in this process, and we started 
that. Good data will be coming out very shortly.
    Mr. Alexander. Okay, and we understand that last year you 
printed your 75 millionth passport?
    Ms. Vance-Cooks. Yes, sir.
    Mr. Alexander. Has the State Department asked you to get 
ready for the next generation of passports? Have you all talked 
about how sequestration would effect you?
    Ms. Vance-Cooks. The latest information that I received 
last night indicated that the MOU which we currently have in 
place will remain in place for 13 million units of passports. 
If, however, we have to go through a sequestration with them, 
or 5.3 percent, it would go down to about 12 million; 12 
million is still more passports than we made in 2012.
    Mr. Alexander. Ms. Wasserman Schultz.
    Ms. Wasserman Schultz. Thank you, Mr. Chairman. You know, 
rather than question why the agencies aren't treating 
sequestration as a foregone conclusion, we should be coming 
together to replace the sequester with a balanced mix of 
spending cuts that are targeted and closure of tax loopholes so 
that we don't put printers in the private sector out of 
business because of the intransigence of Congress.
    That having been said, I want to ask you about the NAPA 
review of GPO because they found that the agency is necessary 
for providing Government information to the public, but it 
indicated that GPO should try to take more of a leadership role 
in ensuring permanent public access to Government information. 
Through your role in providing Government documents to Federal 
depository libraries, for example, are you confident that these 
libraries are preserving print copies of these documents that 
one day are going to be considered historical? And then are 
there any Governmentwide efforts going on to determine how we 
preserve digital formats given that they change so frequently? 
And how would those efforts and your ability to take that 
leadership role be impacted by the sequestration?
    Ms. Vance-Cooks. The law requires that the regional 
libraries basically maintain their collections permanently, not 
necessarily preserve them. The preservation is something that 
we are attempting to do on a digital FDsys. We agree with the 
recommendation that we need to work with other agencies as well 
as with the Federal depository libraries to develop the 
appropriate standards for preservation of digital content. We 
expect that to be part of the State forecasting study which 
will be released probably within the next few months.
    Ms. Wasserman Schultz. Great. And just along the same 
lines, Mr. Chairman, on your staffing NAPA recommended that GPO 
develop an ongoing human capital planning process, just to 
guide the reshaping of your workforce. I thought it was 
interesting to note that your workforce has fallen from 6,450 
employees in 1980 to roughly 1,920 employees on board today. 
But based on your work requirements today, are you staffed 
sufficiently to meet the needs of Congress and the needs of the 
public for your unique brand of information dissemination?
    Ms. Vance-Cooks. The mix of the employees within the base 
will change. In fact, it is changing now. It is changing more 
and more towards individuals who have IT experience, Web 
development experience, those kinds of skill sets. So the 
actual number of people will remain the same, around 1,900, but 
the skill sets within it will definitely change to accommodate 
the fact that we are going to become much more digital. We see 
it already.
    Ms. Wasserman Schultz. Thank you.
    Mr. Alexander. Is that all?
    Ms. Wasserman Schultz. I just have one more small one, but 
I don't want to take up the time if there is another member who 
has a question.
    Mr. Alexander. Mr. Bishop.
    Mr. Bishop. I am just happy listening to the great 
information.
    Mr. Alexander. Okay.

                        REPLACEMENT OF SEQUESTER

    Mr. Harris. Just one quickly. You may not know this, 
because you are not high profile, but important with the GPO 
with what it does, so it was lost to me. In the two bills that 
were passed last Congress by the House that delayed 
sequestration what was the effect on GPO under those two pieces 
of legislation passed by the House last Congress? Would the 
sequester have been delayed so that the GPO as well--and again, 
I am going to apologize because you are a lower profile 
organization. So I know what the effect on the Defense 
Department was, but I don't know what it was on the GPO. Does 
any of your staff know?
    Ms. Vance-Cooks. No, I really do not.
    Mr. Harris. So it would have delayed the sequester for the 
GPO?
    Ms. Vance-Cooks. I am not sure.
    Mr. Harris. We would have solved your problem, the House 
has essentially sent something that kind of solves your 
problems for this year as far as you know, the two pieces?
    Ms. Vance-Cooks. We will have to look at the legislation.
    Mr. Harris. Could you do that?
    Ms. Vance-Cooks. And thank you for saying we are not that 
high profile.
    Mr. Harris. That is good sometimes. You stay below fire.
    Ms. Vance-Cooks. We will be happy to respond for the 
record.
    [The information follows:]

    The legislation mentioned as passing the House in the 112th 
Congress appears to have been H.R. 5652, the Sequester 
Replacement Reconciliation Act of 2012, and H.R. 6684, the 
Spending Reduction Act of 2012. While appropriations to the 
Government Printing Office do not appear to be addressed 
specifically in the legislation, the report accompanying H.R. 
5652 indicates that it would have replaced the across-the-board 
sequester.

                            GPO'S FACILITIES

    Ms. Wasserman Schultz. Thank you, Mr. Chairman. Just one 
more quick question about the evolution of the plans or desire 
to replace GPO's aging facilities, which when I first became 
chair was a very high priority for the agency and I am assuming 
you have moved on from replacement and I just want to know if 
you could share with us what you are doing to maximize the 
space that you have and fully utilize it.
    Ms. Vance-Cooks. You are absolutely right and correct when 
you state that it is not a high priority for us. We love that 
building. It is a historical building, it is a landmark and we 
intend to stay there. However, when you go from 6,000 employees 
to less than 1,900 you end up with a lot of space. So we are 
actually trying to rent the space to other agencies that may 
need it. It is a beautiful building and I always tease Mr. Andy 
Sherman behind me even though he is in charge of congressional 
relations because he is sort of like my Re/Max guy and if he 
finds an agency that needs help or needs some kind of space 
then we certainly will talk to them. We currently have four 
renters which contribute about $1.7 million annually to our 
overhead which is great, it helps to pay for it, but we also 
have more space we could lease.
    Mr. Bishop. Would you yield on that?
    Ms. Wasserman Schultz. Just a moment. Would any of your 
ability to lease space to other agencies or acquire other 
tenants, because your tenants aren't private sector tenants----
    Ms. Vance-Cooks. They are Federal agencies, mostly 
legislative branch.
    Ms. Wasserman Schultz [continuing]. They are agencies who 
make lease payments with public dollars. Do you anticipate with 
sequester that those efforts would be stalled?
    Ms. Vance-Cooks. Yes.
    Ms. Wasserman Schultz. Yes?
    Mr. Bishop. Last year you told us that you were becoming 
landlords. Have you increased your number of tenants since you 
were here last year?
    Ms. Vance-Cooks. Yes, last year we had three, today we have 
four.
    Mr. Bishop. Who did you pick up?
    Ms. Vance-Cooks. The U.S. Commission on International 
Religious Freedom. And we actually have three in the pipeline 
who we are talking to but I am not sure what sequestration is 
going to do with them. We will wait.
    Mr. Alexander. Have you had anybody from the private sector 
to inquire about a lease?
    Ms. Vance-Cooks. Yes, but this is a Government building and 
we only want the agencies to be in that building.
    Mr. Alexander. Any other questions? We appreciate you being 
here today. Any other questions will be submitted to you for 
the record.
    Ms. Vance-Cooks. Thank you so much.
    Mr. Alexander. So if there is nothing else, the committee 
will stand in recess until 9:30 tomorrow morning and we will 
hear testimony from the Library of Congress and the 
Congressional Budget Office. Meeting stands adjourned.
    [Questions submitted for the record by Chairman Alexander, 
Mr. Young, and Ranking Member Wasserman Schultz follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                      Wednesday, February 27, 2013.

                          LIBRARY OF CONGRESS

                               WITNESSES

JAMES H. BILLINGTON, THE LIBRARIAN OF CONGRESS
ROBERT DIZARD, JR., DEPUTY LIBRARIAN OF CONGRESS
KAREN KENINGER, DIRECTOR, NATIONAL LIBRARY SERVICE FOR THE BLIND AND 
    PHYSICALLY HANDICAPPED
MARY B. MAZANEC, DIRECTOR CONGRESSIONAL RESEARCH SERVICE
MARIA A. PALLANTE, REGISTER OF COPYRIGHTS

                Opening Statement of Chairman Alexander

    Mr. Alexander. Good morning. The subcommittee will come to 
order. Today we will hear from the Library of Congress and the 
Congressional Budget Office. The Library of Congress is 
requesting $608 million, an increase of 3 percent over the 
current CR, and I want to welcome Dr. Billington to the 
committee this morning, and we want to congratulate you. We 
understand that just recently you celebrated your 25th year 
with the Library of Congress. The committee wants to 
congratulate you and thank you for the work that you do, not 
only with the Library, but with Congress and the Nation.
    Dr. Billington. Thank you, sir.
    Mr. Alexander. We are reminded every day or two from people 
that go into the Library of Congress, how they enjoy it. It is 
a gorgeous building, and the work that goes on there we want to 
recognize and thank you for.
    Ms. Wasserman Schultz.

               Opening Statement of Ms. Wasserman Schultz

    Ms. Wasserman Schultz. Thank you, Chairman Alexander and 
Dr. Billington, for the opportunity to work hand in hand with 
the leader of what I consider to be, I think what all of us 
consider to be Congress' jewel, the Library of Congress, a 
remarkable leader like yourself in your 25th year of service is 
really one of the main reasons that I wanted to and am so glad 
I have been able to come back to the Legislative Branch 
Appropriations Subcommittee. It is so wonderful to have the 
opportunity to interact with you in this setting again, and we 
just so appreciate your continued service.
    Now, your written testimony highlights the difficulties in 
maintaining the operations of the Library in light of the cuts 
of the last several years, and especially as we face the 
prospect of sequestration. Now, my concern is that with 
cultural institutions such as the Library, the impacts of these 
cuts rear their head many years after they actually happen, and 
as you have told us so many times, the cuts that you absorb now 
resonate beyond just the single fiscal year in which they 
occur, and that impacts us anywhere from researchers who might, 
down the road, find incomplete information to Members of 
Congress receiving inadequate services from CRS. Many Members 
of this body often speak of the Founding Fathers and the 
principles of government that they established, and we should 
all be aware of the vision that Thomas Jefferson had for the 
Library of Congress, which is our Nation's oldest cultural 
institution.
    Jefferson argued that there was, ``No subject to which a 
Member of Congress may not have occasion to refer'' as he sold 
his personal library to the Congress, doubling the size of the 
Library after much of the collection had been destroyed by the 
British, and we have come a long way since then, but 
nevertheless, Dr. Billington, your challenge during these 
uncertain budgetary times will be to concisely tell the story 
of the Library and why your services are so critical.
    Now, as you mentioned in your testimony, in your written 
testimony, the Library was able to positively contribute to the 
U.S.-Afghan relationship by giving the Afghan people, for 
example, historical Afghan records that were lost to them 
during the Taliban rule. I saw firsthand during a congressional 
delegation visit to Egypt the dedicated Library of Congress 
staff in that country collecting information that will one day 
help us fully understand the transformations that we are seeing 
in that country.
    During my time as chair of this subcommittee, I pressed you 
to think about what programs and services were priorities, the 
need-to-haves, the gotta-haves versus the nice-to-haves. The 
Library's acquisition policy is a major cost driver for storage 
and preservation and should be looked at with an eye towards 
reducing outyear costs, but cutting at breakneck speed for the 
sake of political gain has caused more harm than any of us 
should feel comfortable inflicting, and I would like us to 
consider, Mr. Chairman, the loss of 24 congressional research 
analysts, which degrades Congress as an institution. As we lose 
staff in our own offices, CRS is needed more than ever for 
analysis of legislation and issues of today.
    Increased copyright backlogs. I was pleased to see that the 
copyright backlog problem that existed a few years ago has been 
cleared out, but those backlogs will begin to mount again with 
cutbacks as a result of the looming sequester, and that will 
impede U.S. commerce. The reduction of 50,000 catalog records 
which impacts local libraries that rely on these for their own 
use.
    Mr. Chairman, my fear is that this subcommittee will have 
more expensive projects in 5 years that are created by the lack 
of investment today in the Library of Congress, and my hope is 
to use the bipartisanship of this subcommittee to protect our 
institutions as the stewards of our branch of government. Thank 
you, Mr. Chairman. I look forward to Dr. Billington's 
testimony.
    Mr. Alexander. Thank you. Mr. Moran, would you like to make 
an opening statement?

                      Opening Remarks of Mr. Moran

    Mr. Moran. I appreciate that, Mr. Chairman, but I think Jim 
knows how strongly I support him and the operations of the 
Library, and I know we share that commitment, so let's hear 
from Dr. Billington, but I appreciate the opportunity.
    Mr. Alexander. Dr. Billington, feel free to introduce any 
staff that you have with you today, and your full testimony 
will be submitted for the record, please summarize it and list 
some of your accomplishments of the past few years.

                   Introduction of Library Leadership

    Dr. Billington. Thank you, Mr. Chairman. This is my Deputy 
Librarian of Congress, Robert Dizard, Jr., and this is Karen 
Keninger, who is the head of the National Library Service for 
the Blind and Physically Handicapped--the first time, I think, 
before this committee--and we particularly welcome her. And we 
have our executive committee and then some here. There is David 
Mao, head of the Law Library of Congress; Mary Mazanec, the 
head of the Congressional Research Service, and her deputy 
Colleen Shogan; we have Roberta Shaffer, our Associate 
Librarian for Library Services; Jeffrey Page, who is the Chief 
Financial Officer, and Maria Pallante is the Register of 
Copyrights, and there, just a second, I have to turn around, 
Lucy Suddreth, Chief of Support Operations, and Jim Gallagher, 
who is our acting head of Office of Strategic Initiatives, and 
Mary Klutts is our Budget Officer, so we have a full array of 
our leadership team here.

               Opening Statement of Librarian of Congress

    And so, Mr. Chairman, Ms. Wasserman Schultz, Mr. Moran, 
members of the subcommittee, I am very happy to appear before 
the subcommittee on behalf of all of us at the Library of 
Congress to talk on the subject of the Library of Congress 
mission and 
budget, and begin, of course, by saying that all of us at the 
Library of Congress, Mr. Chairman, are deeply grateful for you 
and for the committee's support that you have given to the 
Library.
    Now, thanks to that support, that steady support through 
thick and thin over 212 years, the Library of Congress 
acquires, preserves, and makes accessible both the largest, 
most wide-ranging collection of the world's recorded knowledge 
ever assembled anywhere on the planet by any one institution. 
It is also the closest thing there is to a mint record of the 
cultural and intellectual creativity of the American people.

            LIBRARY OF CONGRESS AS DE FACTO NATIONAL LIBRARY

    We provide America with four one-of-a-kind services. First 
of all, as the de facto national library of the United States; 
secondly, as the research arm to the legislative and oversight 
work of the Congress; then as the U.S. Copyright Office for 
innovative creators and for that important part of our economy 
that deals with content; and the national reading resource for 
the blind and physically handicapped.
    The Library supports the entire library system of America 
with its cataloging, its multi-formatted preservation research 
and the free access it provides the American people wherever 
they live and learn with 37 million primary documents of 
American history and culture, complete with clean curatorial 
explanations for both education and inspiration of the American 
people. Last year, the Library provided research and reference 
services to half a million individuals either on site, by 
telephone, or through written correspondence; 1.7 million 
people visited the Library's facilities here; and our massive 
preservation program lengthened the useful life of nearly 6 
million items in our collections.

           SERVICES FOR THE BLIND AND PHYSICALLY HANDICAPPED

    We provided 25 million reading materials to the blind and 
physically handicapped Americans through local libraries around 
the country generated here, 129 educators from 33 States 
attended our summer teacher institutes here, and we reached 
more than 25,000 other teachers the same year through our 
partnered professional development events in 43 States plus the 
District of Columbia.

                       THE U.S. COPYRIGHT OFFICE

    The Library's Copyright Office administers U.S. copyright 
law, publicly documenting the ownership of more than half a 
million American works last year, and it plays, Mr. Chairman, a 
very fundamental role in the $890 billion segment of the U.S. 
economy that produces and distributes content, including all 
kinds of international discussions that are very important.

                   THE CONGRESSIONAL RESEARCH SERVICE

    The Library's Congressional Research Service, as you have 
already indicated, and as has been pointed out, provides 
exclusively to all Members of Congress nonpartisan information, 
analysis, and legislative public policy issues, responding last 
year to more than one million such requests, and the Law 
Library of Congress does additional work directly for the 
Congress.
    In the fiscal 2014 budget request that we will be 
submitting to you later this week, we are seeking only to 
maintain funding levels for current services adjusted for 
inflation, a 2.5 percent increase. We are already doing more 
with less, Mr. Chairman. Since fiscal 2010, the Library has 
sustained a reduction of $52 million, or 8 percent of our base. 
We now have 1,300 fewer staff than 20 years ago, which was 
before we began our massive digitization program. We are asking 
that the Congress help us maintain the Library's core services 
for the good of the Nation now and for the future, even as we 
pass through our economic difficulties.

                          FORT MEADE MODULE 5

    Now, I must especially mention, Mr. Chairman, our need for 
funding Module 5 at Fort Meade, which is in the Architect of 
the Capitol's budget, in order to preserve and store our unique 
and now overflowing collections and to continue to make them 
rapidly accessible for Congress and the American people.
    So, Mr. Chairman, members of this subcommittee, I thank you 
again for your support of the Library and for your 
consideration of our fiscal 2014 request. I would be happy to 
answer questions that you might have.
    [Prepared Statements of Dr. Billington, Maria Pallante and 
Mary Mazanec follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Alexander. Mr. Fortenberry, would you have an opening 
statement that you would like to make?
    Mr. Fortenberry. Mr. Chairman, I will defer on that for a 
moment and then come back to questions, but I want to thank Dr. 
Billington for his outstanding service, but I will come back 
with a few questions momentarily. Thank you.

            SEQUESTRATION AND MANAGING WITH REDUCED FUNDING

    Mr. Alexander. Thank you. Dr. Billington, you highlighted a 
few things that you had done in the past to do more with less. 
With the uncertainty that lies ahead for us financially with 
the sequestration, can you highlight what you and your people 
have done to maybe prepare yourselves for doing even more with 
less?
    Dr. Billington. Yes, sir, Mr. Chairman. I have addressed 
this question in some detail in my longer written statement. 
Assuming the 5.3 percent rate, it would require us to reduce 
this year's budget by more than $31 million. Now, we have 
prepared for it, identifying savings in both pay and nonpay 
categories. Last week, my deputy announced to Library staff and 
I confirmed it in a message through our newsletter, the 
Gazette, that we are expecting four furlough days through the 
remainder of the year, which will account for about 17 percent 
of the reductions required. The rest will have to come from 
nonpay categories, which is a relatively small percent of the 
budget overall since nearly two-thirds of our budget is for 
personnel, and 90 percent of the Congressional Research Service 
is for personnel.
    As indicated in some of the more detailed testimony, some 
of the impacts would include 400,000 or more collection items 
not acquired, which will result in a gap in the collections 
that may never be filled, and the number of books that we are 
able to preserve through mass deacidification, the only mass 
deacidification program of its size and a very important 
program, will be reduced by as much as two-thirds. Binding of 
books will be reduced; basic operational services such as 
security and cleaning will be cut back; and even with all of 
that, CRS will have difficulty maintaining current levels of 
coverage of public policy issues; response times will lengthen; 
and rush requests will be particularly difficult to meet.
    The Copyright Office's registration program will begin 
developing a backlog of copyright claims awaiting processing 
and a related decrease in fee income to support ongoing 
operations. Those two are related. The staff will have to 
curtail participation in some of the international negotiations 
and other policy efforts important to interests of U.S. trade.
    Finally, the National Library for the Blind and Physically 
Handicapped will have to postpone conversion of about 5,000 
legacy titles and decrease production of new titles from the 
expected number of 2,100 to 1,890. This obviously reduces the 
availability of reading material provided to the blind and 
physically handicapped community. So those are some of the 
highlights.
    And of course, any sequestration would come on top of the 8 
percent reduction in our budget since fiscal 2010, so I think 
that is the main outline.
    Mr. Alexander. Ms. Wasserman Schultz.

                     ALTERNATIVES TO 4-DAY CLOSURE

    Ms. Wasserman Schultz. Thank you, Mr. Chairman. Dr. 
Billington, can you just, as we have sequester, sequestration 
looming in a couple of days, your sequestration plan, which is 
good to see that you have been planning and anticipating what 
you would do in the event that it actually happens, but actual 
outright closure of the Library is a pretty drastic step, but I 
know what your cost drivers are. Is there another way that you 
could accomplish the 4 days over in a phased way to prevent 
total closure?
    Dr. Billington. Well, there probably are some other ways, 
but the reason that we have done this was that 3 of those days 
could be attached to what are already holidays, that is to say, 
Memorial Day, July 4th, Labor Day.
    Ms. Wasserman Schultz. Okay.
    Dr. Billington. And there are other reasons for that, but I 
might defer to my deputy who has been working very closely with 
the staff on this matter.
    Mr. Dizard. We felt that attaching to those holidays would 
give the staff a little certainty about closure days, but also 
make it significantly easier for us to manage. I understand 
your point, it is not ideal to close the institution. We also 
have talked to the unions about that. I would say this is still 
a plan. If the sequester happens, we have requirements to 
consult with unions and with staff further, so we fully 
understand your point.
    I will say a tangential impact of closing for 3 days is the 
opportunity to save some hours from the U.S. Capitol Police, 
which we are required to reduce through sequestration. If we 
close for 3 days, it could mean that we would be able to keep 
some entrances or exits open for the rest of the year. So that 
was another consideration.

               BASELINE REDUCTIONS AND WEB SITE SHUTDOWN

    Ms. Wasserman Schultz. Okay. Now, we talked about this 
yesterday with some of the other agencies, but if sequestration 
is not turned off, then, you know, we are talking about 
baseline reductions here, so you have got 4 days in your plan 
now, or 3 full days of closure and then a fourth day, but how 
do you anticipate dealing with the reduction in the baseline in 
2014 and 2015, and then the other thing is that why is it 
necessary to shut the Web site down on the days that the 
Library is closed as well?
    Dr. Billington. Well, I think, for Copyright purposes and 
for CRS and Law Library purposes we would have to have some 
special arrangement to keep those things open.
    Mr. Dizard. We originally thought about possibly shutting 
the Web site down because it required staff to be there, but we 
realized for business purposes and public service reasons we 
would probably keep them open and have relatively small crews 
come in to man them. They would make up a furlough day on 
another day.
    Ms. Wasserman Schultz. Including Thomas?
    Mr. Dizard. Yes. And I would just say on the long-term 
impacts, in 2014 and beyond, as Dr. Billington said, two-thirds 
of our budget being personnel----
    Ms. Wasserman Schultz [continuing]. Right.
    Mr. Dizard. The long-term impacts are inevitably going to 
fall on people, and you mentioned acquisitions and you 
mentioned preservation. We are trying to avoid damage to those 
that is going to be irreversible. So, unfortunately, it does, 
over time, eventually get to people.
    Ms. Wasserman Schultz. Manifests itself in layoffs or 
attrition.
    Mr. Dizard. We are hoping not layoffs.
    Ms. Wasserman Schultz. Right.
    Mr. Dizard. We hope it will be through attrition. We did a 
buyout 2 years ago, but I do not think there is a pool there to 
make that effective today.
    Ms. Wasserman Schultz. I have other questions, Mr. 
Chairman, but they can wait.
    Mr. Alexander. By the way, members will be called on in the 
order of seniority or either in the order in which you appeared 
in the committee room. We will try to hold our questions to 5 
minutes within reason, and we will have as many rounds of 
questions as the committee feels necessary to get your 
questions answered. Mr. Moran.

                   CONGRESSIONAL USAGE OF THE LIBRARY

    Mr. Moran. Thanks very much, Mr. Chairman. I would like to 
get some sense of the congressional usage of the Library of 
Congress, particularly Congressional Research Service. Where is 
most of the request? Where is the focus that you find in terms 
of demand from the Congress for additional information for 
insight in particular issues? Have you kind of itemized that so 
we get a sense of which committees and what topics are using up 
most of your resources?
    Dr. Billington. Well, I think Dr. Mazanec, who is the 
Director of the Congressional Research Service, ought to 
respond to that directly.
    Ms. Mazanec. Thank you for that question. First, we do 
include this information in our annual report to the Congress. 
We serve 100 percent of Member offices and 96 percent of 
committees in any given year. However, all individual 
congressional requests to CRS are held in strict confidence, so 
I cannot speak to demands from the individual offices or 
committees. In fiscal 2012 we had close to 700,000 interactions 
with Congress. Of those, over 70,000 were directed requests for 
analysis, additional information, and research. We wrote over 
500 new reports and we updated approximately 2,700 reports.
    Mr. Moran. These are impressive numbers, but they are just 
numbers. I am trying to get a sense of what, where the demand 
is coming from?
    Ms. Mazanec. Well, the demand actually parallels the issues 
that Congress is actively working on. So lately, it has been 
budget sequestration, the deficit, homeland security, and 
cybersecurity. Health care has also been very active. A lot of 
the social policy issues, including immigration, Medicaid, 
Medicare are all very hot topics.
    Mr. Moran. What, for example, might be the top two or three 
reports that the Members of Congress would have asked for?
    Ms. Mazanec. Some of the most viewed CRS reports on our 
CRS.gov Web site in recent weeks have focused on budget 
sequestration, the legal issues surrounding the federal assault 
weapons ban, and the Violence Against Women Act.
    Mr. Moran. No, just--I know that you do not, that you do a 
lot of individual reports, but there are--I think the majority 
of the reports are the same report that you may update a little 
bit, but you give it to committees and the individual Members. 
What is the demand specifically?
    Ms. Mazanec. What I can do is we can actually look at that 
and try to give you a more specific answer. I do not want to 
even guess at this point.
    [Information provided for the record follows:]

    Recently, CRS has assisted in the policy debate surrounding several 
passed bills of particular significance, including the Budget Control 
Act, the American Taxpayer Relief Act, and the Violence Against Women 
Act. CRS analysts and attorneys provided research and information at 
all stages of the legislative process, including committee mark-ups and 
floor debate.

    Mr. Moran. Really?
    Ms. Mazanec. These are some of the areas that we get a lot 
of questions about, and I would assume that we would see 
requests for our reports in addition to more targeted 
information, but can I get back to you on that?
    Mr. Moran. I was just trying to get a sense of what impact 
it might have on the legislative process if there is a cutback 
in personnel, particularly if it becomes, as Ms. Wasserman 
Schultz suggested, perhaps a longer term reduction in capacity, 
I would like to get a sense of what the impact would be. 
Obviously, we are concerned about the people who visit the 
Library of Congress, we are concerned about the integrity of 
the quantity and particularly the quality of the collection, 
but also of the ability to respond to the Congress itself in 
terms of information.
    [Additional information provided for the record follows:]

    Fiscal constraints have resulted in reductions to staff size, 
research materials access, and investments in infrastructure. Specific 
cuts have been made after careful consideration and with the intent of 
minimizing, to the extent possible, any potential impact to Members and 
their staff. However, with a tighter budget, CRS has reduced the number 
of analysts and attorneys on staff, which necessarily results in fewer 
authoritative research products for Congress, and longer wait times for 
custom requests.

                     REQUESTS FROM OTHER COUNTRIES

    The other thing, Dr. Billington, that I was interested in, 
a lot of increasingly in a globalized world, we are getting a 
great many requests from people in other countries, and I was 
stunned to realize, I have known it for some years now, but it 
is stunning, you have more works of Russian literature, for 
example, than you can find in all of Russia. The libraries in 
Moscow are a lesser resource than is our own Library of 
Congress, and a lot of--you digitized and translated so many of 
these works of literature throughout human civilization. What 
is the greatest demand in terms of that accessibility from 
people in foreign lands? It used to be, I was shocked when I 
was on this subcommittee previously, Mr. Chairman, to find one 
of the greatest demands was coming from Iran for our works of 
western literature, which I thought was kind of interesting and 
revealing. Where is the demand now, if you would not mind 
sharing it?

                         WORLD DIGITAL LIBRARY

    Dr. Billington. Well, the best way we can measure foreign 
demand directly, first of all, is through our privately funded 
world digital library, where we are putting online, and with 
expert curatorial comment in seven languages, the basic 
historical and cultural documents with curatorial comment, 
translated into these multiple languages. This is very new in 
terms of numbers, but it is very interesting to note that 
Spanish language usage globally is greater than English 
language usage. For the Arab countries, we have 177,000 users. 
This is still very small in terms of the amount of material we 
have, but these documents are of extremely high quality, very 
high resolution. We have 177,000 distinct users in the Arab 
world, 122,000 in Iran, and I could go over others. This is----
    Mr. Moran. Well, are you saying--I just want to make sure, 
of the 177,000 from the Arab--of course, Iran is not an Arab 
country, it is a Persian.
    Dr. Billington. No, I was saying----
    Mr. Moran. Okay. So those are cumulative, 122 is not a 
subset of the 177?
    Dr. Billington. No, no, no, that is separate. That is a 
separate figure for Iran and the Arab countries.
    Mr. Moran. Okay.
    Dr. Billington. Now we have very active exchanges. Our 
exchanges with Iran have greatly increased, which is 
interesting because we send them American materials and they 
send us a great deal of their material. In some areas, we have 
the biggest collection in the world, but almost invariably--
Russia is an example, but so is Chinese, Japanese, Korean--we 
have the biggest collection of their works and records outside 
of those countries themselves. I do not think we have more than 
the Russians do, but what we have is a very unique collection 
outside of the countries where Russian is the spoken language. 
So the Library of Congress is a world library; probably a 
little more than half of the books of the 34, 35 million books 
and printed materials we have are in languages other than 
English, so it really is a world library.

                         UNIVERSAL COLLECTIONS

    The differential between what we have and what anybody else 
has, frankly, is increasing, because purchases of these things 
by other libraries have never been at a high level and the 
amount of exchange we do with thousands of institutions around 
the world means that we are exchanging U.S. Government 
publications for their materials, so we get a continuous flow. 
This is analog materials. We are getting materials from all 
over the world and as I say--the Library really is an 
important, unique resource because we live in an increasingly 
knowledge-dependent world. Leadership, the economy, all kinds 
of important uses for the future depend on having a rich and 
continuous flow, and that is why acquisitions is such a 
priority, even though we now are cutting acquisitions rather 
than personnel because personnel is already stretched so 
heavily.

                     IRRECOVERABLE COLLECTION GAPS

    Acquisitions is fundamental to everything else we do 
because, if you do not have the material, and nobody else is 
likely to have it, you permanently eliminate marginal 
materials. Who would have thought years ago that we would have 
demand for collection materials about Kosovo, about Chechnya, 
about Burundi, about places that are not the normal collections 
of other libraries. It is very hard to cut acquisitions, but we 
nevertheless must give priority to personnel. We have a very 
interesting expanding presence, in fact, repatriation to many 
countries that do not have good materials. This is of great 
benefit to American foreign policy, and I think it is something 
that is winning a lot of friends for America, and, of course, 
doing a lot for our ability to understand these cultures in 
addition to the enormous usage that is already made of our 
national collection.
    Mr. Moran. Thank you, Dr. Billington. Thank you, Mr. 
Chairman.
    Mr. Alexander. We have asked the Members to hold their 
questions to 5 minutes, but we need to hold our answers to 5 
minutes. Mr. Fortenberry.
    Mr. Fortenberry. Well, the Doctor is a huge resource. It is 
hard to hold all that in. Thank you again, Dr. Billington, for 
your very capable and outstanding leadership of what I think is 
an institution that is a hidden gem in America. We have got two 
principles in tension here, as you know. One is to do more with 
less, to be smart about budgets--we cannot sustain our current 
trajectory--yet at the same time to deliver smart and effective 
government services, and your niche in that space I think is 
extraordinary in terms of what you deliver, in terms of the 
impact of what you do, not only regarding the preservation of 
our culture and heritage, but as you have just stated, even 
affecting the international climate for growing awareness of 
knowledge as well as preservation of past traditions, so I want 
to thank you for that.
    I want to tell you a quick story as well. I noticed tonight 
that you have a display, an exhibition on the Civil War. I 
recently was able to look at your exhibit that displayed the 
contents of Abraham Lincoln's pockets on the night he was 
assassinated. I was so fascinated by that, particularly the 
point that he had a $5 confederate note in his pocket. Now, 
maybe it is a small point of trivia, but it fascinated me so 
much so that I went out and bought a $5 confederate note to add 
to my own little meager collection of Civil War artifacts. But 
I think it is a demonstration of the type of unique service 
that you render to the country in preserving not only that 
which is grand, in terms of knowledge and the progress of 
learning, but that which is small, but in some ways, represents 
something very significant. So I want to thank you again for 
your creativity, your unique leadership.

               TENSION BETWEEN CUTS AND OPTIMAL SERVICES

    With that said, let me go back to the central point of 
doing more with less, holding in creative tension seemingly 
opposite missions of doing more with less, being accountable to 
budgetary constraints, but also delivering that smart level of 
service that you do. There was a question raised earlier as to 
what might be irrecoverable in terms of gaps in collections if 
that right balance between those two principles is not found. 
Can you give some specific examples of that?
    Dr. Billington. Well, if you have a periodical that you 
have been collecting for 100 years or 50 years, and you miss a 
year, you will never recover it because you have to double the 
appropriation to make up for another year, which is not likely 
in the current budget climate. And you do not just diminish it 
by one-fiftieth, you diminish its utility, particularly to the 
Congress, which has to be up to date, by about half. So 
acquisitions are significantly diminished; you can cut back, 
and that is what we are projecting for the first year, but you 
get beyond that, and you really are cutting into our ability to 
deal with the future in an increasingly globally, interrelated 
world, particularly economically and in terms of security.

             COLLECTIONS UNIQUELY RELEVANT TO LARGER WORLD

    If you want specific examples, you could consider one role 
the Library plays. There is this general point that the world 
is exploding and there are recorded conversations about 
everything. There are very few secrets in the world. The only 
piece of paper that the
9/11 Commission found in the U.S. Government, created in the 
U.S. Government, that described the scenario that occurred on 
9/11 before it happened, was a report by a small division of 
the Library of Congress, the Federal Research Division, which 
does contract work for the executive branch of the government. 
This piece was in a very obscure Arabic publication that is a 
provincial publication. We have the only copy anybody knew 
about anywhere, and we reproduced this scenario. Obviously it 
was not specific in terms of where and when, but it described 
the criterion for this act of terrorism. That was revealed in a 
small provincial publication which was incorporated into this 
Federal Research Division report.
    So these are the kinds of things that you have a reasonable 
chance of finding in this extremely talkative world in the 
Library of Congress. I think that is pretty dramatic.

                     FEE SERVICES VS. FREE SERVICES

    Mr. Fortenberry. Thank you. If I could interject one more 
thing if I have time, Mr. Chairman. Yesterday we heard from the 
director of the Government Accountability Office, and he spoke 
about agencies that already have Federal authority to set fees, 
even increase fees based upon the usage of their product. Is 
that in the realm of possibility? I do not know your fee 
structure, if it is simply wide open and you just simply 
provide the service, or are there higher levels of service in 
which you charge? Are those types of adjustments under 
consideration?
    Dr. Billington. Well, it depends on what you mean. We have 
the Federal Research Division that I just mentioned, which is 
paid to do research for executive branch agencies, including 
classified work. However, once you introduce fee for service as 
a principle, you create a subtle prejudice in favor of the 
person who is paying a fee for services instead of using a free 
public good since the Library has the support of Congress of 
the United States.
    Mr. Fortenberry. So you want to keep it as a library, that 
is what you are saying?
    Dr. Billington. People are free to use the Library, that is 
the thing, it is a free resource. Making the public more fully 
aware of the vast resources that we have to offer is certainly 
what we are trying to do with our online presence.
    Mr. Fortenberry. So you have fees for intergovernmental 
contracting, I think that is what you are saying, but for 
general access of general collections there are no?
    Dr. Billington. The Library staff, which is funded by the 
Congress of the United States, is available to the people of 
the United States, to businesses, and to anybody else who wants 
to make use of it, and we are working to train the new 
successor generation who we call knowledge navigators who will 
be both experts in the field and be able to navigate through 
this tsunami of material that is coming in. In terms of the 
number of distinct users, use is greatly multiplied by the new 
social media, and we are very active in analyzing that, too. Is 
that just bulk material of minimal value or is it an expression 
of ideas and events that will be of permanent value?
    We are knowledge navigators for everybody, but we do not 
want to divert our services to commercial uses. Other executive 
branch agencies that make transfer payments for select services 
are an appropriate market. It may be very legitimate for other 
libraries to operate more broadly on a fee-for-service basis, 
but that has never been the operating principle of the Library 
of Congress.
    Mr. Fortenberry. Thank you. Thank you, Mr. Chairman.
    Mr. Alexander. Mr. Valadao.

           MISSION CRITICAL AND NON-MISSION CRITICAL SERVICES

    Mr. Valadao. Thank you, Mr. Chairman. You referenced 
``mission critical service'' throughout your statement. In the 
opinion of the Library of Congress, what constitutes a 
``mission critical service'' and what does not?
    Dr. Billington. Sir, I am sorry?
    Mr. Valadao. Mission critical services, you mentioned that 
in your statement. I am assuming you read the statement you 
presented to us. What is an example of a ``mission critical 
service'' that you mentioned in your statement?
    Dr. Billington. The Library's mission critical services are 
to acquire, preserve, and make maximally accessible the widest 
possible collection of the world's knowledge and the closest 
thing we have to a mint record of American private sector 
creativity, largely through copyright deposit. Also critical to 
our mission is to sustain as nearly universal a collection as 
possible for future generations and for needs that we cannot 
possibly anticipate.
    Mr. Valadao. What is not mission critical?
    Dr. Billington. Sir?
    Mr. Valadao. What is not a mission critical? What could you 
cut, or not do?
    Dr. Billington. What is something we are cutting? We are 
slimming down across the board. In some agencies the mission 
critical work is made up of a lot of encapsulated services that 
do not bear any relationship to the other. In the Library's 
case, all services depend on across-the-board talent, a variety 
of talents, that are mutually reinforcing. So it is hard to 
single out any of the units whose heads are represented here 
and say, well, we will just cut or eliminate that one.
    Of course, maintaining services to Congress is our first 
priority, and within the service to the broader American 
people, we have really, in effect, defined that to be 
education, the promotion of learning and research, everything 
from overcoming illiteracy to the highest type of advanced 
research. The two fringes of that are funded primarily with 
private money. For example, we now have a new program for 
awarding prizes and gathering in best practices to promote 
reading and overcome illiteracy. That program is privately 
funded, and the advanced researchers that we subsidize, we are 
doing that with private money. The core of it and the most 
important part for the country, not just for the Library, is 
our K-12 problem in this country. That would be the priority 
now, however, certain supporting programs we could cut back on. 
But we typically use private sources to support services that 
are not mission critical. They support the main mission, 
however it does not save appropriated funding to eliminate 
them.
    We have to minimize the loss of personnel at all costs, but 
I cannot give you a candidate for a service to eliminate. We 
just have to slim everything down. For instance, we will cut by 
probably two-thirds our mass deacidification program, the only 
mass deacidification that is being done of paper-based 
collection items in America. So that is cutting down the 
lifespan of books, but that is what we will have to do.
    Mr. Valadao. That is all right. Thank you.
    Mr. Alexander. Mr. Harris.

                   ACTUAL VS. BASE BUDGET REDUCTIONS

    Mr. Harris. Thank you very much. This will be very brief. 
In your testimony, and they are just technical questions, you 
refer to budget reductions of the past 2 years. Is that 
compared to the base budget when you talk about budget 
reductions or are those actual dollar reductions?
    Mr. Dizard. They are actual dollar.
    Mr. Harris. Okay, and so what would the actual--because you 
have over the last 5 years the total appropriation going from 
613.5 to 629.2, so what were they in the 2 years before? If you 
do not have it in front of you, you can just get it to me.
    Mr. Dizard. Okay, we can supply that for the record.
    [Information provided for the record follows:]

         FISCAL 2008-FISCAL 2012 LIBRARY OF CONGRESS SPENDING PLAN, SUMMARY OF CHANGE BY APPROPRIATIONS
                                              (Dollars in millions)
----------------------------------------------------------------------------------------------------------------
                                                                                         2008-2012    2008-2012
         Appropriation              2008       2009       2010       2011       2012       Change     Change (%)
----------------------------------------------------------------------------------------------------------------
LC, S&E........................     $394.8     $419.0     $446.1     $438.1     $420.1        $25.3          6.4
Copyright......................       49.4       51.6       55.5       54.4       51.6          2.2          4.5
CRS............................      102.4      107.3      112.5      111.0      106.8          4.4          4.3
BBPH...........................       66.9       68.8       70.2       68.0       50.7        -16.2        -24.2
    Total......................      613.5      646.8      684.3      671.5      629.2         15.7          2.6
----------------------------------------------------------------------------------------------------------------

    Mr. Harris. And on page 6, your testimony of 36 percent 
reduction in CRS expenditures and 18 percent reduction in 
research materials, are those from base budget or actual?
    Mr. Dizard. It is actual.
    Mr. Harris. Okay, that is it.
    Dr. Billington. The 36 percent is in the area of 
professional development.
    Mr. Harris. Right.
    Dr. Billington. The 24 percent represents analysts and 
attorneys.
    Mr. Harris. No, thank you. Thank you, Mr. Chairman.
    Mr. Alexander. Mr. Bishop.

               IMPACT OF NOT FUNDING FORT MEADE MODULE 5

    Mr. Bishop. Thank you very much. Welcome to the Library of 
Congress team. I have got a question that I want to ask 
regarding the Module 5 at Fort Meade. With the 1,250 new books 
coming to you every day and Congress not having yet provided 
funding for the construction of Module 5 at Fort Meade, how are 
you coping with your storage problem?
    Mr. Dizard. I can answer this one, Mr. Bishop. We have a 
plan underway to move 800,000 volumes from Capitol Hill to our 
Landover annex, which is not an ideal option for us, because it 
is really not a good preservation facility at all. We are also 
moving approximately 200,000 items to a NARA facility in 
Illinois. These are temporary measures. They are not long-term. 
We are hoping to have the Module 5 funded. That is what we are 
doing temporarily as well as trying to consolidate space on 
Capitol Hill as best we can for collections.

          UNLOCKING CELL PHONES AND ADMINISTRATIVE RULEMAKING

    Mr. Bishop. Thank you. Under Section 1201 of Title 17 of 
the United States Code, relative to copyrights, I think the 
Librarian has the authority to designate certain classes of 
works as exempt from the prohibition against circumvention. I 
guess you know where I am going with that.
    Mr. Dizard. Right.
    Mr. Bishop. Having to do with your October 26th final rule 
of exemptions which no longer includes unlocking cell phones. 
The unlocking of the cell phone is the process of circumventing 
the software on the phone that limits that phone to being used 
only with a specific cell phone service carrier, which means 
that the consumer is effectively precluded even though he may 
have purchased a phone and paid for it, and then, of course, is 
limited in his or her capacity to use that. Can you explain 
your rationale for for no longer allowing the consumer to be 
able to choose the carrier that he or she would like to use 
with their own particular cell phone?
    Dr. Billington. Well, on that, I have accepted the 
recommendations of the Register of Copyrights, so I think she 
can probably explain it more succinctly, and directly.
    Ms. Pallante. Thank you for the question. So the Library, 
neither the Librarian nor the Register has the power to undo 
what Congress has done. What Congress did was pass the Digital 
Millennium Copyright Act----
    Mr. Bishop. Right.
    Ms. Pallante [continuing]. In 1998 which said no 
circumvention ever. However, we will allow for a process, a 
rulemaking by which in limited circumstances, based on evidence 
and hearings and written commentary and research and not 
creating new law, you can make exceptions.
    Mr. Bishop. Right.
    Ms. Pallante. So two times previously, consumers were able 
to come into those proceedings and make a case for unlocking 
cell phones. What happened eventually was that the market 
adjusted, which I think was one of Congress' intents when 
passing the procedure, and companies began to offer unlocked 
cell phones in the marketplace in response.
    So this time around we had no record to work with after a 
year of hearings, administrative process under the APA and the 
Copyright Act. So the short answer is we did not have the 
authority to make that exception. You are probably reading a 
lot about this in the press, and what I would say is that the 
people that are writing about it were not parties to the 
proceeding, so it is almost like people are reading about a 
court opinion and saying I do not like that outcome, and I 
would really like the court to change it, even though they were 
not actually part of the proceeding, if that is helpful.
    Mr. Bishop. Well, the rules that were already in effect 
prior to the October rule that was put into effect allow for--
--
    Ms. Pallante. It did, yes, because the market was different 
3 years ago, and one of the clear rules that Congress put into 
the statute was that this proceeding is de novo, you cannot 
take into account the prior rulemaking. It is like it never 
happened.
    Mr. Bishop. So that is on us.
    Ms. Pallante. It is. And if I may just say on that last 
point, that is a critical comment because I think one of the 
other intents of Congress is that this would serve as a bit of 
a barometer for things that are really properly legislative and 
not for an administrative rulemaking.
    Mr. Bishop. Thank you very much for that explanation.
    Ms. Pallante. You are welcome.

       SEQUESTRATION IMPACTS ON BLIND AND PHYSICALLY HANDICAPPED

    Mr. Bishop. My other question has to do with the Library 
for the Blind, and the vision impaired. This is a very, very 
sensitive and unique community, and I would like for you to 
tell the committee how you are going to assure that that 
segment of our population will be able to have access to the 
resources and the information that the Library of Congress has 
been able to provide over the years in light of sequester and 
with the budget reductions.
    Mr. Dizard. Congressman, Karen Keninger, our relatively new 
director of the National Library Service for the Blind and 
Physically Handicapped is here, so I would just like to 
introduce her, then she can very capably respond to your 
question.
    Mr. Bishop. Thank you, thank you.
    Ms. Keninger. Thank you, Congressman. That is obviously an 
excellent question. We have been looking at what we can do with 
regard to the sequestration if it happens, and, unfortunately, 
the answer is that the bulk of our funding goes into the 
materials that we send out to the people in the field, to our 
network of libraries--books, magazines, machines, Braille, and 
talking books; and that is where the cuts are probably going to 
have to come.
    We plan to do 2,100 new titles in audio and 500 new titles 
in Braille in a year, and we also have planned to convert 5,000 
of the 35,000 or so books that we have on analogue tape that we 
do not have yet in the digital format. We want to convert those 
to the digital format, and we will have to cut back on all 
three of those areas if we are sequestered.
    Mr. Bishop. My reason for asking the question is because of 
the unique population that is served there that is almost in a 
``helpless'' position. Wouldn't it be in the public interest to 
establish a priority so that the weight of the cuts would not 
necessarily fall equally on that particular segment of the 
population that use that because it is so vital? Rather than 
have the sequester or whatever the reductions have to be fall 
on that segment of the vision impaired population that depends 
so much for those resources, perhaps somewhere else in the 
Library's budget can be cut a little heavier to allow for the 
continuance of one Library for the Blind?
    Ms. Keninger. The National Library Service has an 
appropriation of its own, and we certainly would like to see 
that remain as it is. It is a separate line item.
    Mr. Dizard. That is more directed to Dr. Billington and me, 
and I will say point noted. We understand your point there.
    Mr. Alexander. We are going to move through a second round 
of questions real quickly. Ms. Wasserman Schultz.

                       TELECOMMUTING PLAN IN CRS

    Ms. Wasserman Schultz. Thank you, and I am going to ask it 
quickly. I have several, but I will submit those for the 
record, but one of the ones that I would like a response for 
the record on is to Ms. Mazanec. We went through a bit of a 
struggle with the previous administration at CRS on the 
telecommuting process, and eventually the subcommittee 
essentially forced CRS to come up with a telecommuting plan, 
and I would like you to respond for the record and to me 
directly on how that is going.
    Ms. Mazanec. It is going well. We will give you more 
details.
    Ms. Wasserman Schultz. I would like to hear it from the 
perspective of your employees as well.
    [Information provided for the record follows:]

    The telework program at CRS is working is well. The terms 
of the three year telework agreement that CRS management 
reached with the Congressional Research Employees Association 
(CREA) on March 26, 2010, were applied to non-bargaining unit 
employees as well to ensure that all eligible CRS employees 
were able to enjoy the benefits of the program. The telework 
agreement with CREA has been extended until March 26, 2014, and 
its terms will continue to be applied to non-bargaining unit 
employees.
    At the present time, approximately 51% of CRS staff who are 
eligible, or 264 CRS employees, have been approved for 
telework. Of that number, 21 participate in telework two-days 
per week. The vast majority of the remaining CRS staff are 
either not eligible to participate in telework (e.g., managers 
and supervisors), or have not requested telework. While there 
were initially some technology challenges, CRS management has 
worked to ensure that the telework program provides 
flexibilities for employees while ensuring that CRS can 
continue to meet its mission to serve the Congress with timely 
and authoritative analysis, research, and information. In the 
future, CRS hopes to upgrade equipment so that remote meeting 
capabilities are possible for teleworkers. Staff members, both 
bargaining unit and non-bargaining unit employees appear to be 
very pleased with the program. This accounts for why the 
telework agreement was extended for an additional year without 
a request by CREA to renegotiate its terms. CRS has received 
positive feedback from CREA regarding employee satisfaction 
with the effectiveness of the telework program. All indications 
are that staff members are appreciative of the additional 
workplace flexibility and that they wish it to continue. We 
believe that the telework program provides work/life 
flexibility and has a positive impact on employee morale. For 
inclement weather or other types of urgent circumstances, CRS 
follows Library of Congress policy and uses our existing 
episodic off-site work policy as set forth in the Collective 
Bargaining Agreement, to approve off-site work for staff 
needing to complete an essential project or work assignment.

                 SEQUESTER IMPACT ON YOUNG READERS ROOM

    Dr. Billington, just checking on the Young Readers Room, 
and, you know, all politics is local and parochial. How would 
the sequester affect the hours of the or even the existence of 
the Young Readers Room if at all?
    Dr. Billington. Well, it certainly will not affect the 
existence of it, and I should not think much the hours because 
we have people working there, of course.
    Ms. Wasserman Schultz. Right.
    Dr. Billington No, I mean, that is----
    Ms. Wasserman Schultz. Good, good. I just want to make sure 
just, you know, it is personal.

                   ACCESS ISSUES WITH TWITTER ARCHIVE

    I want to ask you about the deal with Twitter because--
which is a remarkable deal to archive the Nation's tweets for 
posterity. I mean, that is one of the many unique things that 
the Library does, and I do not think people realize but are 
necessary for future generation of researchers. I mean, but 
they have got to be able to access the billions of tweets. So 
there was a recent news article in Business Insider that 
highlighted issues flagged by the Library and researchers' 
ability to search the vast database for scholarly work, and so 
the article said that among the first 4 years of tweets, it 
could take 24 hours to search. Is it cost prohibitive to 
improve the search capabilities?
    Dr. Billington. I will let Mr. Dizard answer that. I will 
just say what we have been doing is trying to assess what the 
intrinsic value of a lot of this material is, when you reduce 
it to 140 characters. The big question that emerges, from the 
point of view of future scholarly usage, is whether this is 
important if it remains as bulk data that gives you some sort 
of quantitative measurements that may mean very little because 
it is so vast. Or is it material that uniquely expresses the 
fundamental ideas and thinking of the American people and of 
the creative community in some ways? Our processes have been 
narrowed down. Initially we said it could only be used in house 
because outside access would involve enormous expense. But I 
will refer to Bob Dizard because he has been presiding over 
these discussions.
    Ms. Wasserman Schultz. Thank you.
    Mr. Dizard. Right now we have 233 billion tweets. Just like 
for any collection, the first priority is to acquire and to 
preserve. That is not difficult from a technology point of 
view, it is not expensive. We estimate we spent about $14,000 
in bringing those in. When you talk about access right now, it 
is cost prohibitive. If somebody came in and said can I have 
this hour of this day, we could give it to them. It could be 
hundreds of millions of tweets. It is not meaningful. So the 
access has to be both meaningful and cost-effective, and for 
meaningful----
    Ms. Wasserman Schultz. You need a searchable database?
    Mr. Dizard. You need searchable, some way to filter 
probably by time period. So the 24 hours of searching was 
talking about 20 billion tweets from 2006 to 2010 using our 
current capacity.What we are focusing now on--we put a white 
paper out publicly on this, and we have gotten interest from 
technology companies--we are just trying to, literally asking 
them to, help us in making this archive available in some 
meaningful way.
    Ms. Wasserman Schultz. Mr. Chairman, I just wanted to ask 
that for the record because it is an innovative, important 
issue, and, you know, a whole resource of information that 
hopefully we will have an opportunity to be able to access in a 
meaningful way in the future. Thank you.

                            Closing Remarks

    Mr. Alexander. Okay. And we have some members that have 
other committee hearings to attend.
    Dr. Billington, we appreciate you being with us here today. 
Thank you for the work that you all do, and we will see you 
later this evening.
    [Questions submitted for the record from Chairman Alexander 
and Ranking Member Wasserman Schultz follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                      Wednesday, February 27, 2013.

                      CONGRESSIONAL BUDGET OFFICE

                                WITNESS

DOUGLAS W. ELMENDORF, DIRECTOR, CONGRESSIONAL BUDGET OFFICE

        Opening Statement--Chairman Alexander and Other Members

    Mr. Alexander. Today we are going to hear the testimony 
from the Congressional Budget Office. The CBO is requesting $45 
million for fiscal year 2014, 3.7 percent over the current CR. 
And of course we all know that the financial picture does not 
look too good, so we are struggling with that. We appreciate 
you being here today. We look forward to hearing your 
testimony.
    Ms. Wasserman Schultz.
    Ms. Wasserman Schultz. Thank you, Mr. Chairman.
    It is good to see you, Dr. Elmendorf. I had the pleasure of 
interacting with you during my absence on the committee, when I 
was the Budget Committee in the 112th Congress, and it gave me 
a tremendous appreciation of the scope and breadth of the work 
of CBO and the expertise that you provide us with. So thank you 
so much, to you and to your staff.
    You know, you know more than most that we are operating in 
a time of great uncertainty with the prospect of sequestration 
the day after tomorrow. In fact, the impact of the sequester is 
an appropriate topic for discussion today, as CBO, along with 
other agencies yourself, face a 5 percent, roughly, decrease on 
March 1st. And I am looking forward to hearing about the impact 
that the sequester has, particularly not just on your own 
agency, but on the economy in general.
    And lastly, I want to express appreciation to your staff, 
because Congress has passed significant budget impasse 
legislation that impacts the projections that your agency 
produces. Your agency, in particular, has folks who toil 
anonymously and valiantly and really provide a tremendous 
service. So if you could thank them for us----
    Dr. Elmendorf. I will.
    Ms. Wasserman Schultz [continuing]. Because we do not get 
to always do that ourselves.
    Thank you, Mr. Chairman. I look forward to Dr. Elmendorf's 
testimony.
    Mr. Alexander. Mr. Moran.
    Mr. Moran. We will hear from Doug, and then I will have 
some questions.
    Mr. Alexander. Okay. Mr. Bishop, do you want to wait?
    Mr. Bishop. I will wait.
    Mr. Alexander. Feel free to introduce any of your staff 
that you might have, and your entire statement will be in the 
record. We look forward to hearing your testimony.

                    Opening Statement--Dr. Elmendorf

    Dr. Elmendorf. Thank you very much, Mr. Chairman, 
Congresswoman, members of the committee. I want to introduce 
Bob Sunshine, who is our Deputy Director; Joe Evans, our Chief 
Financial Officer; Stephanie Ruiz, who is our Deputy Chief 
Administrative Officer and heads up our Human Resources Unit; 
Deborah Kilroe, who handles our communications; and Sandy 
Davis, who coordinates our legislative affairs. And we are all 
happy to be here today and have the opportunity to talk about 
our budget request.
    You and we both face the challenge of trying to plan for 
fiscal year 2014 when the funding for 2013 is still up in the 
air. As requested, our testimony focuses on 2014, but we are 
happy to answer any questions you have about the impact of 
sequestration or other issues related to our 2013 operations. 
As you know, CBO's mission is to provide the Congress with 
budget and economic information that is objective and 
nonpartisan, that draws on the best new evidence as well as the 
lessons of experience, that is timely, and that is clearly 
presented and explained.
    We are proud of our success in doing that for 38 years, but 
we are always looking for ways to do even better. We are 
proposing a budget for fiscal year 2014 that would stabilize 
our staff at 235 full-time equivalent positions. That would be 
about 7 percent less than the number funded in 2010, and in 
line with the number funded between 2004 and 2008. Such a 
budget also would enable us to catch up on some critical 
purchases of information technology and other items that we 
need to defer this year under the funding provided in the 
continuing resolution. Spending on non-pay items we proposed 
for next year would still be 15 percent below what we spent on 
average in 2008 through 2012.
    Let me just show you, pass out figures. These are from the 
budget request, but just so you have them in front of you as I 
continue talking.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Dr. Elmendorf. If you look at the top figure, figure 1 
shows our staffing from 2002 through the level we propose for 
next year. As you can see in that figure, our authorized 
staffing peaked at 254 FTEs in 2010 after the Congress approved 
significant increases in our budget, primarily to enhance our 
ability to analyze potential changes in healthcare policy while 
maintaining the capacity to provide cost estimates and reports 
on a full range of other topics. The temporarily higher 
staffing enabled us to analyze particularly complex issues and 
to provide substantially more estimates and reports to the 
Congress. We achieved significant expansions or improvements in 
our work on health care and financial analysis, the effects of 
the budget on the economy and on jobs, on options for changing 
mandatory spending in other areas.
    However, constraints on CBO's funding and of course on 
discretionary appropriations as a whole caused our staffing to 
shrink in 2011, 2012, and this year, 2013. Figure 2 at the 
bottom of the page shows that our funding in 2013 under the CR, 
$44.1 million on an annual basis, is nearly 6 percent below our 
funding in 2010. That cut, combined with small gains in average 
pay and rising costs of benefits and other items during the 
past 3 years, has completely reversed the increase in staffing 
that had been set in motion, as you can see back in the top 
panel in figure 1.
    Our request for $45.7 million for 2014 represents an 
increase of $1.6 million or 3.7 percent from the funding we are 
receiving under the CR for this year. With the requested 
funding our small agency could provide a large amount of budget 
and economic information, including our regular reports on the 
economic and budget outlook over the next 10 years and the long 
run; roughly 500 formal cost estimates; thousands of 
preliminary informal estimates for committees as they develop 
legislation; about 150 scorekeeping tabulations for the 
Appropriations committees; and roughly 80 analytic reports and 
other publications generally prepared in response to requests 
from the chairmen and the ranking members of key committees.
    However, we expect that even that output would fall 
considerably short of congressional requests, despite 
extraordinary efforts by our very talented and skilled staff. 
We cannot currently respond to all of the requests we receive 
for estimates and other analyses. If, because of the tight 
budget constraints that we know you face, the funding we 
receive for next year is less than we have requested, then we 
would need to shrink further. For example, if our appropriation 
for next year equaled the amount provided by the CR for this 
year, we would need to reduce our staffing because costs per 
person are increasing and purchases of computers and other 
items cannot continue to be deferred. Specifically, under that 
scenario, we would finish next year with only about 220 full-
time equivalent staff rather than the 235 we requested. That 
would make CBO smaller than it has been for any sustained 
period in at least 15 years.
    Although we would consult with committees and congressional 
leadership in order to minimize the impact on the Congress, 
that further decline in our staffing from the current level 
would inevitably reduce the number and extent of estimates and 
other analyses that we could provide. Our written testimony 
lists some specific products that we might limit, delay, or 
defer indefinitely.
    In sum, CBO has been shrinking for the past 3 years and we 
now have noticeably less capacity to provide information to 
Congress than we did in 2010. Our proposed budget for next year 
represents the amount that we believe will be necessary to 
avoid a further cut in the budget and economic analysis we 
provide. On behalf of all of us at CBO, we very much appreciate 
your support of our work in this difficult budget environment 
and we look forward to continuing to serve the Congress as it 
makes decisions on the critical issues facing our country. 
Thank you.
    [The prepared statement of Dr. Elmendorf follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Alexander. I was going to ask you about sequestration, 
but we have had enough of that, haven't we?
    Ms. Wasserman Schultz.

                      SEQUESTRATION IMPACT ON JOBS

    Ms. Wasserman Schultz. Thank you, Mr. Chairman. I only have 
one question, because I think Dr. Elmendorf's testimony on the 
impact of the sequestration and the recent year budget cuts 
have had on his agency's ability to serve Congress, I mean, I 
think it is hard to think of an agency in the legislative 
branch that is more critical in challenging economic times that 
we give the ability to do the work that we need them to do, so 
we can make the most informed decision.
    So, Dr. Elmendorf, I want to ask you a substantive 
question. During your testimony in front of the House Budget 
Committee it was reported that you said the across-the-board 
spending cuts scheduled to take place this Friday would 
eliminate 750,000 jobs in this country in 2013. Can you 
elaborate on that assessment a bit? And what about in 2014, and 
2015, if we allow sequester to force us into long-term cuts? Do 
you anticipate the economy continuing to shed jobs in the 
future years if we do not stave off sequestration?
    Dr. Elmendorf. So, Congresswoman, we have estimated that 
the total amount of fiscal tightening occurring this year will 
reduce the rate of economic growth over the course of 2013 by 
about 1.5 percent. So we are projecting growth of 1.5 percent 
roughly in real GDP. We think it would be 1.5 percentage points 
faster were it not for the fiscal tightening. That tightening 
arises partly from the increases in taxes, the expiration of 
the payroll tax cut, and the higher tax rates on higher income 
people, and partly from the sequestration cuts that are about 
to take effect.
    For the sequestration part alone, we think that those cuts 
will reduce government spending and household spending in ways 
that would take about 0.6 of a percent off the level of GDP at 
the end of this year and reduce the level of employment at the 
end of this year by about 750,000 full-time equivalent jobs.
    That occurs basically because when the government is 
spending less money over a short period of time with the 
economy in the fairly weak state it is in, and with the Federal 
Reserve really unable to provide much more direct stimulus 
itself, the withdrawal of Federal spending or, as I said as 
well, the increase in taxes, take money out of the spending 
stream, essentially, and reduce the demand for business 
services.
    At the same time, of course, if one allows the debt to rise 
inexorably, that has very large economic effects in the medium 
term and long term. But the tightening we think matters a lot 
this year, and our view about that is not idiosyncratic with 
us. I think a wide number of private forecasters have weighed 
in with estimates that are similar to ours. We have not done 
estimates of this particular effect beyond this year, so I do 
not know what those effects would be.
    Ms. Wasserman Schultz. So if we replace the sequester with 
targeted spending cuts and closure of tax loopholes and took a 
balanced approach to deficit reduction, what would be the 
difference compared to just the straight impact of 
sequestration? Would you anticipate the same impact on jobs and 
the speed or slowness of our recovery?
    Dr. Elmendorf. Yes. So we think if the sequester were taken 
away and a comparable amount of fiscal tightening was put in 
place after this year, then we think that would add about 0.6 
of a percentage point. The GDP growth this year would add about 
750,000 jobs by the fourth quarter of this year.
    The precise effects in the following years would depend on 
the nature of the other policy changes that were made and would 
depend on the timing of those policy changes, but as long as 
the same amount of deficit reduction was achieved so that the 
Federal debt by some year in the future was no different 
because of the sort of swap you are discussing, I think, as 
long as that level of debt was the same in the future, then 
economic output and income could be the same from that point 
forward in the future. It is the transition path from here to 
there that would vary depending on just the changes----

          RECOVERY USING PURELY CUTS ONLY VERSUS BALANCED MIX

    Ms. Wasserman Schultz. And what is your view on the impact 
on the recovery if you take a purely cuts-only approach versus 
a more balanced mix of spending cuts and revenue?
    Dr. Elmendorf. We do not have a good general answer for 
that question. It depends on specifics. When we have done 
analyses before on alternative policies for spurring economic 
growth, some of the policies with the largest bang for the 
buck, if you will, have been changes in government spending and 
some have been changes in taxes. It depends mostly on who ends 
up with the money and how much of it is spent in the short 
term. So changes in policy that have a budget cost of a dollar 
that lead to a dollar's change in spending have the biggest 
effect on the economy. Changes in government policy where there 
is a dollar of change in the budget there is less than a dollar 
that is spent because people maybe save the money, that does 
not buy much food in the short term. Again, in the long term, 
things are quite different, but in the short term economic 
situation that we find ourselves in, it is mostly a matter of 
how much the money gets spent by the government, or by 
households, or by businesses.
    Ms. Wasserman Schultz. Thank you.
    That is all, Mr. Chairman.
    Mr. Alexander. Mr. Moran.
    Mr. Moran. Thank you, Mr. Chairman.

                  NO MONEY FOR DISCRETIONARY SPENDING

    Dr. Elmendorf, I appreciate your service and the service 
that CBO provides the Congress, because you enable us to make 
more informed judgments. So I really do not have any problem 
with your budget request, and to the extent I could make up for 
the sequester and increase it, I would do so. But that is not a 
possibility. The sequester is going to take place. Now, it may 
very well be sustained for some time to come.
    But what I would like to ask you to kind of refresh my 
memory, at what point, assuming that there is no change to the 
structure of Social Security and Medicare, and even Medicaid, 
and at traditional interest rates, at what point does total 
revenue equal total expenditures devoted to those categories 
alone? In other words, no money for discretionary spending?
    Dr. Elmendorf. So, Congressman, I brought my other notebook 
today.
    Mr. Moran. Okay.
    Dr. Elmendorf. About budget and economic outlook. But I 
believe that spending on Social Security and the major 
healthcare programs and net interest together would start to 
exceed total revenues by some point later in the coming decade. 
I do not know exactly when. We can look that up.
    Mr. Moran. Okay. It is the next few years, but it is taking 
majority of it now. So unless there is new revenue coming in, 
or a change in the structure of those programs, then there will 
be no money for discretionary programs.
    Dr. Elmendorf. Yes, I mean, of course the Federal 
Government can borrow money, but there will be no money coming 
in, in regular receipts, at that point, yes. I think that is 
right, Congressman.

                      INTEREST RATES AND PAYMENTS

    Mr. Moran. Now, assuming that QE2 is eased out, that 
interest rates at some point have got to go back to their 
normal equilibrium, how much in interest are you projecting 
within the short term? You must have these numbers at the top 
of your head.
    Ms. Wasserman Schultz. Note to self: Bring both books.
    Dr. Elmendorf. I usually bring one book.
    Mr. Moran. Because they are about 7 percent or so now, are 
they not, of the budget?
    Dr. Elmendorf. We project that interest rates, which are, 
as you know, extremely low right now, will return to more 
normal levels within several years. And that increase in 
interest rates, combined with the tremendous amount of 
outstanding government debt that we have, leads to a real surge 
in interest payments, so that by the end of the decade that 
these projections for interest payments would be nearly the 
largest share of GDP that they have been in 50 years. They are 
about $200 billion today, and they would be more than $800 
billion by the end of the decade.
    Mr. Moran. So by the end of the decade interest payments 
alone would be $800 billion. So that will be about 14 percent 
or so of the budget. It will be a little more than half what it 
is now. And the so-called entitlement programs, they are going 
to represent--do you have that in your handy notes there--they 
are going to represent more than 75 percent of the budget, 
close to, some people say, close to 100 percent of the budget.
    Dr. Elmendorf. So the mandatory spending category 
projection, which is Social Security, and the healthcare 
programs, and a number of means-tested programs, and other 
programs, that mandatory spending is and will be about two-
thirds of total Federal outlays. But that is the part that is 
growing, as you know, and under current law, discretionary 
spending would fall to a lower share of the economy than it has 
been at any point in 50 years, as far back as we have been 
collecting numbers on that basis.
    Mr. Moran. I think that is pretty much at that level now. I 
am just trying to figure out in the long term since we have 
you, you know, it is a little like you get together with your 
classmates and you ask the lawyers for free legal advice and 
the docs for free medical advice. It seems to me that this is 
more important to us than the actual budget itself, to get this 
insight. So there really is no alternative but to increase 
revenue or to restructure some of the so-called entitlement 
programs. That would be a conclusion of the numbers that you 
have in front of you.
    Dr. Elmendorf. I think that is correct, Congressman. Of 
course, the correct level of discretionary spending is a matter 
of judgment for you and your colleagues and that can be moved 
up or down, but given how low it is already on track to be 
relative to decades of our historical experience, and given the 
remaining gap between spending and revenue, it is hard to see 
my way of putting a debt on a sustainable path that does not 
involve increases in taxes on a broad group of Americans or 
cuts in spending programs.

     BALANCING THE BUDGET AT THE EXPENSE OF DISCRETIONARY PROGRAMS

    Mr. Moran. Increases on the middle class, in other words, 
perhaps more than the 2 percent.
    Dr. Elmendorf. Yes, Congressman, I think that is right.
    Mr. Moran. So what I am getting at is, and I appreciate the 
chairman's indulgence here, what I am getting at, if you were 
to eliminate the discretionary, or try to balance the budget at 
the expense of the discretionary programs, which is what we are 
trying to do now, has there been any analysis of what the long-
term impact will be of reduced investments in physical 
infrastructure, in the human infrastructure, say education, 
training, and particularly in the research and innovation? In 
other words, actually you can say most of the innovative 
aspects of our growth periods have come from basic research and 
originally generated by the Federal Government, whether it be 
the Internet or GPS or et cetera. You could go all the way back 
to Alexander Graham Bell and his Federal grant.
    So has there been any analysis of what the impact of the 
squeezing out of the discretionary investment portion of the 
budget would cost?
    Dr. Elmendorf. We are doing work right now, Congressman, on 
both Federal investments and on Federal policies to spur 
innovation. And there is some overlap, of course, on those 
topics, as you say. About half of non-defense discretionary 
spending can be viewed as an investment either in physical 
capital, like highways, or what economists call human capital, 
education and training for people. Almost half of non-defense 
discretionary spending can be invested in one of those sorts. 
And we are trying now to assemble the evidence on the impact of 
that investment on economic growth on incomes over time. As you 
know, certain aspects of that investment have been absolutely 
critical to fostering economic growth. Other parts of the 
investment have had fairly low returns because of not being 
well-targeted investments.
    So it is difficult, I think, to make broad assessments. The 
CBO has looked at the topic before. There has not been a sort 
of single number that has come out of that as the return, but 
we are digging at that again right now. I think you are right 
that the path of discretionary spending under even the basic 
caps of the 2010 law, and even more so under the reduced cap 
level that would occur under current law, that part of the 
Federal budget is being squeezed in a historically tight way, 
and there will be consequences, we expect, for those 
investments, and thus for the economy in the future.
    Mr. Moran. Well, I think that analysis would inform all of 
current debate, and I appreciate the fact that you are pursuing 
it. And we would love to see it as soon as it is done.
    Thanks, Mr. Chairman.
    Mr. Alexander. Mr. Harris.

               SPENDING CONTROLS VERSUS BALANCED APPROACH

    Mr. Harris. Thank you. Thank you very much for being here 
today. Let me just follow up on a couple of things. With 
regards to the effect of spending controls versus a quote, 
``balanced approach,'' do I take it you are agnostic on that, 
on the effect, that you believe that it could, in fact, be 
exactly the same effect?
    Dr. Elmendorf. So we are agnostic on the differences when 
stated in that general sense. For specific sets of policies we 
have done analyses now for a number of years on different 
specific policies----
    Mr. Harris. Let me ask you very specifically then. Does it 
make a difference whether you increase a tax rate or you 
increase taxes by quote, ``closing loopholes''? I mean, if the 
same dollar is taxed, does it appear to make a major 
difference?
    Dr. Elmendorf. It can make a substantial difference. It 
depends, again, on just what is done, but in general, raising 
tax rates on the return to work, or the return to saving, will 
tend to reduce the amount of work or the amount of saving 
itself. Broadening the tax base by taking away some loophole 
may or may not have that sort of effect--depends on what is 
done. In some cases, broadening the tax base, taking out a so-
called loophole, can reduce an economic distortion. In other 
cases, though, it can amount to imposing a tax on work and 
saving----
    Mr. Harris. For capital investments, for instance, that 
might impact negative.
    Dr. Elmendorf. Yes.
    Mr. Harris. That is what I gathered. Your numbers that go 
from, you know, our current interest, which I guess is 
somewhere around $230 billion, $240 billion a year, up to $800 
billion by the end of the decade, is the assumption of a glide 
path to balance at any point or is the current budgetary 
assumptions--I mean, do you assume that sometime in the future 
our budget will balance, or are you assuming it will never 
balance?
    Dr. Elmendorf. Our projections follow current law. So under 
current law, balance is not achieved.
    Mr. Harris. Okay.
    Dr. Elmendorf. In fact, debt starts to rise again as a 
share of the economy by the end of the coming decade.
    Mr. Harris. So given that, and the fact that we are unclear 
whether spending control versus taxes, then the discussion 
really revolves around what size of government spending 
relation to GDP you are going to have, basically, because there 
are two separate paths. If you control spending you are going 
to bring down the government-to-GDP ratio; if you do it by tax 
increases, you are going to maintain or it could increase 
depending on what your spending path is.
    Dr. Elmendorf. So as you know, right, the amount of 
government borrowing is really the gap between spending and 
taxes, and that gap can be narrowed through reductions in 
spending or increases in revenues, and those different ways of 
narrowing the gap can have different economic effects. And for 
specific policies we do estimates of how those policies matter. 
But I am trying very carefully to avoid general statements 
about how changing spending or changing taxes is good or bad 
because it depends on what taxes you are changing and, as this 
discussion suggests, on what kind of spending you are changing.

                           CBO PAY INCREASES

    Mr. Harris. Thank you. Two very brief questions here. Your 
testimony says there were small increases in average pay 
between 2010 and 2013 in CBO. Now, between 2010 and 2012, the 
average Federal employee got 6 percent increase in pay. Is that 
similar to the increases that you have within CBO between 2010 
and 2012, or you can get me that information.
    Dr. Elmendorf. I am not sure. I think that is roughly 
right, but I think we would have to check.
    Mr. Harris. Because although we hear that there have been 
no pay increases, and your testimony is there actually have 
been average pay increases.
    Dr. Elmendorf. Yes, that is right, Congressman.

                              SGR SCORING

    Mr. Harris. Thanks. The last thing of particular interest 
to me because I am a physician is that this change in the SGR 
scoring that occurred, this phenomenal change between November 
and February. In 4 short months it went from $244 billion 10-
year cost to $138 billion. Now, I am just intrigued by this. 
Can you give me any insight into how we could have been so far 
wrong in November, or how we could be so far wrong now? Because 
one of those two is, you know, does the truth lie somewhere in 
between, or do you believe this last estimate is a good, firm 
estimate?
    Dr. Elmendorf. So every time we give the Congress an 
estimate we aim to make that our best current estimate. What 
happened in this particular case is that we brought down the 
projected path of Medicare spending, leaving aside the SGR 
issue. Just in general, it looked to us after the past few 
years of slow cost growth in Medicare that the more accurate 
projection of future Medicare spending would be a lower path. 
And we have done this now for the last few years with lower 
growth observed in the Medicare program and in other parts of 
the healthcare system--we brought down the projected growth in 
Medicare spending, in Part A for hospitals and Part B for 
doctors and Part D for drugs.
    What that means then is that the SGR, which is meant to be 
a restraint on that, has less restraining to do, in a sense, so 
to reach the SGR target relative to this new baseline, there is 
less tightening, less reduction in payments that would be 
accomplished by the SGR. And therefore, loosening the 
constraints of the SGR is not as costly as otherwise because 
there is less going on.
    So it looks very large for the SGR effect because it 
amounts--you know, we took down spending a little bit in a way, 
but that is all--but since the SGR is trying to achieve 
something relative to that basic projection, that little 
reduction in the baseline ended up being a very large amount.
    Mr. Harris. Ten years out. And that is exactly my point, 
because I guess what the estimate is based on is that the 
latest current trend in the decrease and the increase in 
healthcare spending is a long-term trend and not similar to 
other short-term trends. So it depends on what two data points. 
If you use the last few years, yes, it appears worse, but we 
saw the same thing in the early 1990s, as I recall as well.
    Dr. Elmendorf. Yes. So we have not assumed that this 
slowdown will last forever. We have assumed it will last 
somewhat longer. It seems to have begun. We think that part of 
the slowdown in growth is due to the recession and the loss of 
wealth and slow income growth, but we think that a substantial 
part of the slowdown is not just recession related. We can see 
this in all three main parts of Medicare. We see this in 
Medicaid. We see this in the private healthcare system. It 
seems to have begun before the recession. So something else 
seems to be going on to us, but what is very unclear is how 
long that will last.
    Relative to what we projected in the spring of 2010, actual 
Medicare and Medicaid spending in 2012, we are about 5 percent 
less than we thought. Over the course of the past few years we 
have therefore marked down spending in 2020 by about 15 percent 
to both programs. So we have extrapolated the slowdown to some 
extent, but we do not assume it will last at this very low 
level of growth indefinitely. We are trying to give you 
projections that are in the middle of a very wide distribution 
of possible outcomes.
    Mr. Harris. I like your projections.
    Thank you very much, Mr. Chair.
    Mr. Alexander. Mr. Fortenberry.

                             FISCAL POLICY

    Mr. Fortenberry. Thank you, Mr. Chairman.
    Welcome, Dr. Elmendorf. You wanted to talk about your 
budget, but that is not what we want to talk about.
    Dr. Elmendorf. I did, but okay.
    Mr. Fortenberry. A couple of quick points. One is, you 
mentioned that the effect of increased taxes and these possible 
spending reductions would have about a negative 1.5 effect, or 
negative multiplier, I guess, if you will, on the economy. I 
think that is an accurate statement based upon some 
international experience and recent data that I saw in that 
regard. But you did underemphasize the impact on long-term 
economic well-being by taking short-term measures to actually 
move us onto a better trajectory towards fiscal sustainability. 
So you do also have international models out there that are 
showing that, yes, short-term multiplier effects are more 
negative with cuts than originally anticipated, but long-term 
impacts measured by other forms of economic well-being are 
substantially better.
    Dr. Elmendorf. Congressman, you are absolutely right. I do 
not think we have written a paragraph about the short-term 
effects of fiscal policy in the last 4 years that I have been 
at CBO without also mentioning in that paragraph or the next 
one that there are very important medium-term and long-term 
effects of fiscal policy as well. And everything that we have 
done about different ways of spurring the economy in the short 
run through lower taxes or higher spending has emphasized that 
unless those changes are offset by other changes later in this 
decade that the economy will be weaker than otherwise.
    We released together with this report, our outlook, 
released a few weeks ago. We released another report that 
looked at alternative paths for the deficit. And the ones that 
have lower taxes and higher spending in the short term were 
good in the short term but were bad in the long term. And we 
emphasized both those points in presenting that information.
    Mr. Fortenberry. So it is a philosophical question as to 
how you are going to take your bitter medicine.
    Dr. Elmendorf. So I think that is partly true, Congressman. 
But also there is a question about what the right timing of 
deficit reduction is. And when we have written reports about 
that, of course, we do not make policy recommendations, but we 
have written about a number of criteria that you and your 
colleagues could apply, and there are tradeoffs in most of 
those criteria. And the tradeoff in the timing of deficit 
reduction is that the quicker that changes take effect, the 
less time that households and businesses, state and local 
governments have to react, and the bigger the hit on the 
economy at the point when it is already only growing slowly and 
the Fed cannot do much more. On the other hand, the longer you 
wait the more the debt accumulates and probably the more doubt 
there would be about whether those later reductions would 
actually take effect. And I am simply quoting to you things we 
have written on many, many times about that kind of tradeoff.
    Mr. Fortenberry. It is a fair point.
    Dr. Elmendorf. And I think that is up to you and your 
colleagues to decide.

                       FRAMEWORK OF CBO ANALYSIS

    Mr. Fortenberry. Let me ask you a couple other questions 
that relate to the framework for your analysis. Go back and 
trace the history of why you do 10-year projections. This is 
very confusing when you try to--the media reports on something 
that we are pulling out of our data here, but it is not 
relatable to ordinary life when you are looking at 1-year types 
of impacts. So explain the history of why that framework is 
used. Is it still appropriate? Would you recommend changes to 
the types of analysis that you undertake?
    There used to be a phrase around here that we needed more 
dynamic scoring models built in. When you were answering Mr. 
Moran's question, you came, seems to me, to be dangerously 
close to the whole concept of dynamic scoring by talking about 
a decline in the investment that certain types of spending 
actually mean. So I would like your perspective on that and 
then I want to conclude.
    Dr. Elmendorf. Okay, so you raised two different issues, I 
think. One is the timeframe and the other was what sorts of 
behavioral responses that should be taken into account.
    Mr. Fortenberry. Both go to the underlying set of working 
premises that set up your analytical framework.
    Dr. Elmendorf. For many years I think CBO's baseline 
projections focused on 5-year periods, then there was a point 
maybe 15 years or so ago when this horizon was pushed out to 10 
years. I think that was in response to interest from the 
Congress in seeing how policies that were being set in motion 
would affect the budget, not just over the next 5 years, but 
beyond that. I think in particular, at the time, there were 
questions about balancing the budget a certain number of years 
into the future, and to understand whether policies would do 
that, you or your colleagues, or our predecessors wanted to see 
budget projections that went out that far. So I think there is 
a very strong interest in our showing projections 10 years 
ahead.
    In fact, there has been growing interest in the last 4 
years that I have been at CBO in projections beyond the decade, 
and we have emphasized over and over again that our 
projections, and you know this well, Congressman, our 
projections are very uncertain for this year and more so for 5 
years, and even more so for 10 years and far more beyond that. 
On the other hand, the Congress, I think, is legitimately 
interested in how policies that are in place today will unfold 
over long periods of time, or how changes in policies put in 
place today might change things in the long term.
    Right now, for example, the Social Security eligibility age 
is in the process of being moved up in the way that was set in 
motion in the 1980s. So we try in some circumstances to provide 
some rough sense of what happens over the longer term, even 
beyond the 10 years, but I do not think it would be at all 
practical for us to do regular estimates with this level of 
detail.
    On the other hand, I think if we were to pull back and do 
fewer than 10 years, it would deprive you and your colleagues 
of important information about not just what is happening right 
in the near term, but what the trends look like beyond that. 
So, for example, this report shows over the next 5 years debt 
is falling relative to the size of the economy, but then it 
turns around after that. And it falls for a while in part 
because of the discretionary spending caps and the improvement 
in the economy we project, which brings down spending on things 
that tend to go up in recessions. But the underlying force of 
the population aging and expansion of the healthcare programs 
and rising healthcare costs are still there. They only show 
through in the last 5 years.
    Mr. Fortenberry. Rising interest rates.
    Dr. Elmendorf. It has the interest rates and all the things 
you would miss if we cut this off at 5 years.
    Now, on the question of dynamic scoring----
    Mr. Fortenberry. You are not locked into that by some 
directive of law. You are doing it in response to a general 
need as you perceive it.
    Dr. Elmendorf. Yes. The truth is, I do not know if the law 
specifies that or not.
    Mr. Sunshine. It would be in consultation with the Budget 
Committees and what kind of time frame they want their budget 
resolution to span.
    Dr. Elmendorf. On the question of dynamic scoring, our cost 
estimates for legislation incorporate almost all of the 
behavioral responses by households, businesses, by physicians, 
what have you, that we can incorporate. The thing that we do 
not incorporate in our regular estimates are behavioral 
responses that would change the size of the overall economy. So 
changes in labor supply would change the total amount of work 
done and the total income in the economy. And, we do not 
incorporate those basically because for almost every one of the 
thousands of proposals we look at, the overall economic effects 
would be very small, and would be very, very hard to estimate. 
So it just is not practical for us to incorporate those kinds 
of broader responses in the day-to-day work that we do.
    However, we do a lot of analysis, separate from our regular 
cost estimates, of the economic effects of changes in budget 
policy. We do this every year in the analysis of the 
President's budget where we do--the first thing we provide to 
the appropriators, in fact, is an estimate of the President's 
policies by using our view of how programs work and so on, but 
relative to our basic economic forecast. But a few weeks later 
we follow it up with a report on how the President's policies 
would change the economy, and we take account of short-term 
stimulus effects, but also changes in tax rates, changes in the 
composition of the tax base, changes in the amount of 
borrowing, and we show you what effect the budget would have on 
the economy, and then we say, in fact, that those economic 
effects would feed back and make the budget effects bigger or 
smaller than they would look without those effects.
    We have done this for a collection of policies, extension 
of expiring tax provisions. We have done a number of rounds now 
over the last 4 years of looking at how those changes in policy 
would have changed the economy. So it is not practical or 
useful for you for us to do this--to try to do this for every 
one of the literally thousands of proposals that we provide at 
least an informal estimate for. But for big changes in policy, 
big changes in the deficit, big changes in the tax code, we 
have done a lot of work building models and having them 
scrutinized by outside experts so we can give you a sense of 
the economic effects. And we hope that you are interested in 
that and we want to provide that to you.
    Mr. Fortenberry. Thank you.
    Mr. Alexander. Mr. Moran.

                    BUDGET SCOPE AND RELATED MATTERS

    Mr. Moran. Thanks very much, Mr. Chairman, and I want to 
build off the excellent question of Mr. Fortenberry in terms of 
the budget scope and related matters. I am glad you are 
enabling us to get into this. This is one of the opportunities 
the Leg Branch presents that other subcommittees might not.
    First of all, I object very strongly to making decisions on 
a 10-year outlook because the implication is that you know with 
the same kind of precision in the ninth and tenth year what the 
effect is going to be in the fourth and fifth year, and you do 
not. So you wind up getting very flabby estimates. If it was 
for a 5-year period, we would be, I think, far more disciplined 
and with a much higher level of predictability the impact of 
decisions we would make now. Giving us a 10-year outlook is 
useful, but having decision making based upon a 10-year 
timeframe I just do not think is responsible.
    But what I wanted to ask you about, your role, your 
principal role, of course, is to be reactive, to score what 
decisions we make. But in the course of that you have to have 
your own judgments, your own opinions. I mean, Douglas Holtz-
Eakin had all kinds of, you know, opinions once he was released 
from his prior job.
    We are faced with the sequester tomorrow, and then the 
appropriation bills. All of us will have to be deciding over 
the next 3 weeks, and then it will probably be extended. But we 
have got to decide, if we were given flexibility, how we should 
put this budget together. We all can agree on one thing: The 
way we are doing it right now with the sequester is the 
stupidest way, just cutting everything equally. I mean, that is 
embarrassing. But the administration, obviously, does not want 
to own the cuts. Nor does, frankly, the leadership in either 
party of the Congress want to own the cuts.
    But I think the appropriators at some point are going to 
have to own these cuts, these decisions in terms of what should 
be cut and where we should be even investing more money. You 
know, defense, put more money into cyber, but some of these 
weapons programs that are already questionable, it may be more 
expendable. Can you give us some sense of what you would do if 
you were an appropriator in terms of what--I mean, should we be 
trying to push regular appropriation bills so that we at least 
give the agencies the ability to operate responsibly with their 
programs? Should we try to get those appropriation bills done? 
And, you know, what would be some of the priorities that you 
would use if you were released? Now, we are just going to 
pretend in this room. We are not going to hold you responsible. 
Is this really on TV? Must be one of the obscure stations.
    Mr. Fortenberry. Top ratings.
    Mr. Moran. If he is honest, it will be even higher rated.
    Doug, how do you respond to that?
    Dr. Elmendorf. So, Congressman, my own personal views about 
policy do not and should not matter to you. The whole way the 
CBO is run is for us to give you and your colleagues a sense of 
the consequences of different courses of action you might take. 
But ultimately which course you choose depends on your value 
judgments, acting on behalf of us as your constituents. It is 
your value judgments representing us----
    Mr. Moran. That is all well and good, but we need to make 
informed judgments, and you have been looking at these numbers.
    Dr. Elmendorf. Yes.
    Mr. Moran. And you just told us about some of these 
programs have some real big payoff in the long run. Why would 
we be cutting research and innovation the same level we are 
cutting programs that are pure expenditures with no long-term 
payoff?
    Dr. Elmendorf. So that is why we are doing the analysis 
that I discussed, we are trying to give you a better sense 
about what the long-term economic payoff will be of particular 
types of spending the government does. And we are working on 
that. And when we wrote last fall about various criteria that 
you might use in assessing budget policy, we talked about the 
effects on medium-term and long-term economic growth and we 
talked about the effects of taxes and providing incentives, and 
we talked about the effects of government spending. And we have 
models that quantify the effects of changes in taxes and we are 
working to build models that quantify the effects of certain 
types of changes in government spending.
    I think there are also other criteria. It can matter to you 
who gets certain benefits----
    Mr. Moran. You are giving me a very generalized answer. You 
are kind of squirming out of this, Dr. Elmendorf, and I 
understand why you are trying to do that.
    Dr. Elmendorf. You are asking me a question that I am paid 
not to answer.
    One thing I will say is that it is very difficult to run an 
organization without knowing what one's funding level is at 
this moment, and without knowing what it will be 6 months from 
now. CBO is obviously one of the smallest, simplest parts of 
the government, and we have a great deal of difficulty in 
knowing what decisions to make, what projects to do, whom to 
hire or not hire without knowing what our funding--whether next 
year we want to have 235 people or 220 people.
    I cannot imagine how hard that is for people who are 
running larger, more complicated parts of the budget. I think 
there is no doubt that you would have a more efficient 
government, a better-run government if people trying to manage 
those agencies had a greater sense of what their funding would 
be further down the road than they do.

                    RESTRUCTURE ENTITLEMENT PROGRAMS

    Mr. Moran. Okay, well, that makes sense. And if you indulge 
me, Mr. Chairman, I would like to just keep pushing just a 
little bit more here.
    But would you not agree, I will try this approach, that 
entitlement programs are not sustainable because at some point 
they, plus interest on the debt which we have ascertained, is 
going to squeeze out all discretionary programs. So if these 
discretionary programs give us the biggest bang for the buck in 
terms of long-term payoff, research, innovation, education, and 
so on, physical infrastructure, do we not have to restructure 
our entitlement programs sooner than is currently anticipated?
    Dr. Elmendorf. Putting the budget on a sustainable path 
will require either significant cuts in benefit programs that 
aid a broad group of Americans, or significant increases in 
taxes on a broad group of Americans, or both. The advantage of 
your making decisions soon is that then those actual changes in 
policy can occur on a gradual basis that give people time to 
plan and adjust without having the debt rise to a more 
dangerous level.

                             INCREASE TAXES

    Mr. Moran. Let me try just one more question. Is it 
possible to fund the government by only increasing taxes on the 
top 2 percent? Does the middle class have to pay more than they 
are paying if we are going to have a stable budget?
    Dr. Elmendorf. To put the budget on a sustainable path, I 
think that people who consider themselves to be in the middle 
class will need to pay higher taxes, or receive less in 
benefits and services, or both. Yes, Congressman.
    Mr. Moran. Okay, well, we got something out of that.
    Dr. Elmendorf. I do not think that is novel.
    Mr. Moran. No, it is not novel. I just wanted you to say 
it. I mean, when we say it nobody pays attention. If we can 
say, well, Elmendorf said that, well, maybe it is true. Okay.
    Thanks, Mr. Chairman.
    Mr. Alexander. By the way, he does not use the word 
entitlement. It is mandatory or benefits.
    Dr. Elmendorf. Yes, Congressman. That is right.
    Mr. Moran. Yeah, I noticed that.

                              ENTITLEMENT

    Mr. Alexander. I do not like the word entitlement because 
somehow the public is led to believe that they are entitled to 
all of these benefits that are out there today, and I have a 
problem with that.
    Mr. Harris. Dr. Harris.
    Mr. Harris. I am fine.
    Mr. Alexander. Mr. Fortenberry.
    Mr. Fortenberry. I also have a problem with the word 
entitlement for another reason, because people who have set 
aside savings for their entire life as a guarantee for 
retirement income security, as well as healthcare security, 
should not be stigmatized by it as though they are receiving 
something that was not their due. Now, it is our problem and 
the previous generation of lawmakers' problems who did not set 
up the actuarial tables correctly to make these programs 
sustainable in the future. But I agree with your assessment for 
a little bit different reason.
    Mr. Fortenberry. That was not my question.
    Mr. Alexander. My argument is that we all pay into Social 
Security. We all pay into Medicare. One could argue that at 
some point I am entitled to at least some of that back. But 
some of these other benefits, they are just gifts from the 
taxpayers. But all of a sudden the society has gotten to 
believe that we are entitled to a big portion of that, and I 
think that is what is giving us the problem.
    Mr. Fortenberry. Some distinctions are in order.
    Dr. Elmendorf. I will quickly point on the actuarial 
tables, a decade from now there will be almost 40 percent more 
people eligible for Social Security and Medicare than are 
eligible today. The retirement of the baby boom generation is 
just putting incredible pressure on those programs. Each of 
those individuals paid in what they paid in over their lives, 
but because the total number of people who will be eligible for 
these programs is rising so rapidly over the coming decade, 
that is the most important factor driving up the costs of 
Social Security and Medicare over the next 10 years.
    Mr. Alexander. Well, then let me ask a question in relation 
to what Mr. Fortenberry just talked about with actuaries. If in 
1935 Social Security, actuarially, if we had followed what was 
intended all those years, it would probably be sound, wouldn't 
it, and Medicare the same. I do not think President Johnson 
when he signed Medicare into law, saw to 2013 or 2014 that we 
would be buying some of the medical equipment in that program, 
and I do not think actuarially it was ever set up to be 
spending outrageous like we are doing.
    Dr. Elmendorf. You are right that the growth in the cost of 
health care was not anticipated at that point and it is a 
reminder about the uncertainty about these long-term 
projections. Forty-five years ago or so, when Medicare was 
established, people did not have any idea really of what health 
care would constitute today, and that is a caution about our 
projections 45 years from now. But the program was set up in 
Medicare so that there was, as you know, beneficiaries, 
prospective beneficiaries pay some payroll tax, when they 
become beneficiaries they pay some premiums, but a large part 
of the program is funded through general revenues, and even the 
parts that are funded through a payroll tax, the amounts that 
were paid in, in the payroll tax 10, 20, 30 years ago went to 
pay benefits 10, 20, 30 years ago in terms of the overall 
government budget. So there is still the problem that when 
people retire in large numbers, as they are now, there will be 
a lot of pressure for spending from those programs.
    Mr. Moran. Mr. Chairman, could I ask, I am told that 
somebody at my age in mid-60s will have paid into the system 
about $120,000 into Medicare, but on average I would draw out 
about $370,000. Are those numbers roughly accurate?
    Dr. Elmendorf. I think they are in the right ballpark, 
Congressman. We have not done those calculations ourselves. I 
have seen them in other places and I think they do correctly 
reflect the fact that payroll taxes and premiums do not begin 
to cover all of the cost of Medicare. And on top of that, the 
fact that the cost of benefits today is much larger than the 
amounts that were paid in the past.
    Mr. Moran. Excuse me, Jeff, I did not want to sidetrack 
what you were questioning.
    Mr. Fortenberry. That is a reasonable point and we talked 
about that personally before. It is a powerful statistic.
    I did have just one other brief question, Mr. Chairman.
    Mr. Alexander. Sure.

                          PRIORITIZE REQUESTS

    Mr. Fortenberry. Can you explain how you prioritize 
requests from individual Congress Members? And then what is 
your relationship, overlap, areas of redundancy potentially 
with the Joint Committee on Taxation, Congressional Research 
Service? We have had requests before, and I think we have sent 
them to you, and basically the door was shut. So would you 
explain that?
    Dr. Elmendorf. Yes. We work primarily for the committees, 
meaning for the chairman and ranking member of committees, and 
also for the House and Senate leadership. And when we can, when 
we have enough resources, we will also look at requests from 
individual Members, but the unfortunate truth is that does not 
happen very often. And I do apologize, and I spend some time 
apologizing. But when the committee is working on some 
direction, the committee staff--again, meaning really the staff 
of the chairman or the ranking member--inundate us often with a 
range of alternative proposals that they are trying to explore 
the effects of, and we follow, and we do what they want.
    Mr. Fortenberry. Okay, well, that solves that mystery. I do 
not like it, but it solves the mystery.
    Dr. Elmendorf. In terms of the other agencies, I think 
there is not much overlap. We hope that we are providing 
complementary services to you. The staff of the Joint Committee 
on Taxation, as you know, does the estimates of the effects of 
changes in the tax code on the budget. When you get from us 
sometimes an estimate of the overall budget package, so for 
example, what you got from us on January 1st, there were lines 
of the overall table that came from our analysts and there were 
lines that came from the analysts at JCT who had done the 
estimates of the tax provisions. They separately published 
tables of their provisions.
    So when you see estimates from us that include tax 
provisions, those are not something different than we have done 
from them. It is our incorporating their estimates to give you 
a sense of the overall budget effects of a package. On some 
issues we work very closely with them, so in our work over the 
past 4 years on this large expansion of health insurance 
subsidies those are estimates that we do just hand in glove 
with them, and when you see work from us it will always say CBO 
and the staff of the Joint Committee on Taxation jointly 
estimate this. That is not a duplication. That is just because 
of the complexity of those issues. There are certain things, 
data sets that they have and data sets that we have, that we 
meld together.
    I think for CRS, and to some extent for GAO, we talk with 
them and we learn from them sometimes. And I hope they learn 
things from talking with us sometimes. So the analysts in our 
shop who work on certain programs and know the analysts in 
other places and try to learn from each other, but those other 
agencies are not doing budget estimates of the sort that we do. 
And similarly, we cannot provide all of the information they 
provide.
    So I will give you one example recently. Senator Sessions, 
who is the ranking member, of course, of the Budget Committee, 
who we work for quite a bit, is very interested in the growth 
of means-tested programs over time. He has made requests to us 
and to the Congressional Research Service. They have tried to 
catalogue and explain the huge number of programs and how they 
work in a way that does not play to our strengths, but we have 
provided him with estimates of the growth of those programs 
over time and the factors that have driven the change in 
budgetary costs, which plays to our strengths. And I have not 
asked him directly, but I hope, I think, from his perspective 
that these are complementary sources of information.
    The only specific thing I know with overlap is that GAO 
does some long-term budget projections. I actually think that 
is quite useful for you. This is a very uncertain business, and 
it is an issue of tremendous importance to the country, and the 
fact that there are a few people there who are trying to do the 
same thing that some of us are doing. I think that actually 
helps give you a little stronger base to draw on. It is the 
only specific thing I know of where we sort of overlap.
    Another example, I think, of complementarity is with the 
Recovery Act. We did estimates of the budgetary costs of the 
act. We have been asked to do, in law, reports on the economic 
effects. GAO has been monitoring, I think, auditing the sort of 
use of those funds. Those are just different sorts of roles for 
us and for them.
    Mr. Fortenberry. I raised this question yesterday with the 
GAO. They have a report on government agency redundancy and 
potential areas that could be considered for consolidation as 
well as areas of revenue enhancement that are already in law. 
But I could not get a very specific number as to what that 
would mean in terms of budgetary impact, tens of billions of 
dollars, which we had a conversation about. Some people have 
interpreted that if everything was implemented in their report 
on the government duplication, it might save $200 billion, up 
to $600 billion. So put yourself in the office of a Member of 
Congress, where you have got very limited staff to deal with 
these things, and we are trying to pull piece pieces of 
information that are relevant that actually mean things that 
could become policy. And that is why it is hard to figure out 
who is the best place to go to for what.
    Dr. Elmendorf. I think, basically, for budget estimates, 
for analysis of the budget, for economic analysis, I hope you 
would turn to us. But I think the work the other agencies do is 
very important for you, but fills a complementary role. And if 
there are places where you think there is overlap in what you 
are hearing or where you think there are gaps, then I hope you 
would just call me, call Gene Dodaro, and say hey, what are you 
guys up to? And we can make sure. But we do talk on a regular 
basis, and we try to avoid that.
    I think Gene feels like, and his folks feel just like we 
feel. We take our stewardship of the funding you give us very 
seriously. I mean, we are very intent on giving you the best 
possible information that we can, most valuable to you, and 
that is what we get up every morning to try to do, sir.
    Mr. Alexander. Okay, if there are no other questions, Dr. 
Elmendorf, thank you for your testimony today. Thank you for 
being here. Thank you for your service. We appreciate your 
response.
    Dr. Elmendorf. Thank you, Mr. Chairman. Thank you all very 
much.
    Mr. Alexander. We stand adjourned.
    [Questions submitted for the record from Mr. Young and 
Ranking Member Wasserman Schultz follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                            Tuesday, March 5, 2013.

                        ARCHITECT OF THE CAPITOL

                               WITNESSES

HON. STEPHEN T. AYERS, FAIA, LEED AP, ARCHITECT OF THE CAPITOL

                 Chairman Alexander's Opening Statement

    Mr. Alexander. Good morning to everyone. The committee will 
come to order. Today we will hear from the Honorable Stephen 
Ayers, Architect of the Capitol. Good morning to you.
    Mr. Ayers. Good morning.
    Mr. Alexander. The fiscal year 2014 request of $605 million 
excluding the Senate items represents a $105 million or 21 
percent increase over the current CR. When adding the impact of 
the sequestration, the request equates to $130 million, or a 
27.6 percent increase.
    Now, we understand the importance of maintaining and 
preserving the buildings of the Capitol; however, considering 
the economic challenges and the uncertainties we face, 
increases of this magnitude are not going to be sustainable. We 
look forward to working with you to try to figure out how we 
move through the year.
    I would like to take just a minute to discuss the 
rehabilitation of the Capitol dome. We all agree the Capitol 
dome is the most dramatic, inspiring symbol of our democracy 
and our Nation. Mr. Ayers, you stated that, in regards to the 
restoration of the dome, none of our work is more important. I 
agree, and the Speaker has made it clear that we would like to 
see all of those needs met.
    Under the leadership of Chairman Rogers, we are bringing to 
the House floor on Thursday a continuing resolution to fund the 
government for the remainder of the fiscal year. While we very 
much would like to have provided additional funding of the $61 
million to proceed with the next phase, unfortunately the 
current budget climate will not permit that; however, we have 
been able to include provisions allowing the Architect of the 
Capitol to move forward with existing available funds. I 
realize this will require some puts and takes. In other words, 
some projects will be deferred perhaps. We look forward to 
working with you to accomplish some of these goals.
    Ms. Debbie Wasserman Schultz. Good morning.
    Ms. Wasserman Schultz. Thank you, Mr. Chairman. Good 
morning.
    Good morning.
    Mr. Ayers. Good morning.

         Opening Statement of Ranking Member Wasserman Schultz

    Ms. Wasserman Schultz. I join the chairman in welcoming you 
as the Architect of the Capitol, and I note that you are 
requesting $681.7 million in fiscal year 2014, which is a 19.4 
percent increase if we include Senate items. Without the Senate 
items you are requesting $605.2 million, or a 21.2 percent 
increase.
    I do not envy your job, Mr. Ayers. You have laid out a 
convincing case to fund 17 construction projects in your budget 
request, 15 of which are classified as immediate in nature, 
with 2 in the high urgency category. Having spent a lot of time 
with you for 4 years, I am really familiar with the 
prioritization process that you go through on those projects 
and what the facilities needs are of the Capitol complex. Given 
that Congress just reduced your fiscal year 2013 appropriation 
by 5 percent by allowing sequestration to go into effect, we 
have already unnecessarily made your job even harder.
    Fiscal realities aside, your job is to manage the condition 
of these buildings, and that means making a case for critical 
funding. It is now up to the subcommittee to prioritize these 
investments, and this while maintaining the operations of the 
House and the capacity at both GAO and CBO.
    My sympathies go to the chairman, who has to rob Peter to 
pay Paul among these legislative branch agencies. In all 
seriousness, my hope is that we can work with you, Mr. Ayers, 
to fund the highest-priority projects during these tight 
budgetary years and continue to save for larger rehabilitation 
projects through the House Historic Trust Fund. Unfortunately, 
that is an area that creates even more expensive projects in 
the future due to the continued degradation of facilities.
    Mr. Chairman, we should be under no illusion that we are 
actually saving any money by putting off the facilities 
projects that are really in desperate need of repair, 
upgrading, and rehabilitation. We are just costing ourselves 
more money down the road by deciding not to spend resources on 
these problems now, and that is why we will all be feeling the 
pain from sequestration many years down the line.
    Let me conclude by mentioning the $15.9 million request for 
phase IIB of the dome restoration Mr. Chairman just mentioned. 
This multiyear project to restore our Nation's symbol of 
democracy is the epitome of why we must see ourselves as 
stewards who should strive to leave this institution and its 
facilities better than we found them. And I am sure that many 
of you, like me, saw the recent film Lincoln. It was a best 
picture nominee about our 16th President. President Lincoln saw 
completing this dome that we now sit under as a sign of future 
hope for a Union in the midst of chaos. The dome was completed 
in 1866, and the Union survived.
    For what it is worth, Mr. Chairman, I remember walking into 
that movie believing that our two parties in Congress could not 
be more polarized. I walked out feeling chastened that our 
problems pale in comparison to those times.
    We can channel President Lincoln as we ensure the dome is 
restored to her former glory and work together to replace 
sequester with a balanced approach so we can avoid compromising 
our future. Thank you, Mr. Chairman.
    I look forward to your testimony, Mr. Ayers.
    Mr. Ayers. Thank you.
    Mr. Alexander. Mr. Moran, would you have an opening 
statement?
    Mr. Moran. Thank you, Mr. Alexander. No, I don't have an 
opening statement other than to put myself on record.
    I certainly understand all the pressures that you are under 
as a subcommittee chair for discretionary account, but my 
sympathies would be with the Senate-passed level. I think that 
is a more appropriate level, and it was about $580 million. 
But, you know, we will see how this works itself out, 
particularly this week, and I have some questions of the 
Architect after he makes a statement.
    Thank you, Mr. Chairman.
    Mr. Alexander. Mr. Ayers, before you introduce any of your 
staff members, if you would like, we would like to express our 
committee's deepest condolences to the loss of your budget 
officer Ms. Lauri Smith. We understand that she was valuable, 
and we will miss her.
    Your testimony will be on the record, but if you want to 
summarize it, feel free to do so. You may proceed.

                        Ayers Opening Statement

    Mr. Ayers. Thank you, Mr. Chairman. And good morning, 
everyone. And welcome back to the subcommittee, Ms. Wasserman 
Schultz, and welcome back, Mr. Moran, as well. Looking forward 
to working with you, and thank you for the opportunity to 
testify today.
    The fiscal climate has continued to present the country and 
the Congress with serious challenges, and with these challenges 
in mind, we have crafted our fiscal year 2014 budget request to 
focus limited resources on the highest priorities and to 
address the growing backlog of deferred maintenance projects.
    The fiscal climate has also brought about some good 
leadership and innovative and creative thinking for us. It has 
led us to ask some great what-if questions. For example, what 
if we decided, as part of the refrigeration plant 
revitalization project, to relocate two chillers instead of 
replacing them. That saved us over $800,000. That is really 
good thinking.
    What if we decided to renegotiate the interest rates on our 
energy savings performance contracts and get them from around 7 
percent to around 4 percent? That saved us over $20 million in 
future payments.
    What if we renegotiated our lease payments on several of 
our warehouses and other spaces, and got out of lease payments 
at $60 a square foot, and entered into leases at $11 a square 
foot? That is really creative thinking.
    And these examples, Mr. Chairman, and others represent good 
thinking, and I am so proud of the team that is behind me and 
the entire team of folks in this organization that are thinking 
outside of the box during these challenging times and finding 
ways to save money.
    Competition for Federal dollars has been even more pressing 
with the implementation of sequestration, and to ensure that we 
were prepared for these budget cuts, last October we began 
extensive planning, set aside funds, and slowed our overall 
spending. We took these proactive steps to minimize the impact 
of sequestration on AOC employees and operations, as well as 
the services we provide clients and visitors to the Capitol.
    We have several large projects in our 2013 budget request 
that is before the committee now: Phase II of the Capitol dome 
restoration, which we spoke of; the Cannon Building renewal; 
and the Capitol power plant refrigeration plant revitalization 
project, and we look forward to continuing to work with the 
subcommittee on those projects.
    Another major effort under way for us is the installation 
of a cogeneration plant at the power plant. This is vitally 
important for the long-term heating capacity at the plant. It 
also enables us to stop using coal and will save considerable 
energy and considerable money into the future.
    One emerging area, Mr. Chairman, of considerable concern to 
us is the serious deterioration of stone on many of the 
buildings that make up the Capitol complex. Age, weather, and 
environmental factors have taken a serious toll on our 
buildings' exteriors as well as other masonry features. We 
conducted condition assessments of many of these wonderful 
buildings, and the results confirm that there is severe 
deterioration on many of those buildings that needs to be 
addressed at some point in the near future. And in our 2014 
budget request, you will see the leading edge of this important 
initiative for us, including money requested to begin repairing 
and preserving the stone on the Capitol Building as well as the 
Russell Senate Office Building.
    Mr. Chairman, our basic mission is to care for and preserve 
these wonderful historic treasures that have been entrusted to 
our care. The ongoing deferred maintenance issues as well as 
the new and emerging issues I spoke about regarding stone will 
continue to pose substantial challenges for us and the 
subcommittee in an austere budget environment. Again, our staff 
has just done a tremendous job doing more with less and 
thinking creatively and outside the box to successfully save 
money and get our mission done in such challenging times. I 
would like to thank my colleagues for going above and beyond 
what is expected of them every day.
    I would also be remiss if I didn't thank the Congress and 
this subcommittee for their continued support and investment in 
our efforts, and I look forward to our continuing collaboration 
addressing these challenges that we both face.
    And that concludes my statement, and I would be happy to 
answer any questions you may have.
    [The prepared statement of Stephen Ayers follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Alexander. I agree with what Ms. Wasserman Schultz said 
about the fact that we can't argue that we are saving money 
when, in fact, it is going to cost more if we delay a project. 
I think she will agree with me that is a weak argument when you 
have a bunch of mad folks and you are in a town hall meeting 
trying to explain why there is a need to spend money, you know, 
so we just sometimes idle back and refuse to talk about it.

                            DOME RESTORATION

    Help me understand why your projected costs of renovating 
the dome have risen in the last 3 years about 32 percent, and 
we know that inflation has not been anywhere close to that 
number. So can you help us understand why that projected cost 
continues to go up so drastically?
    Mr. Ayers. That is a great question. You know, the 
renovation of the dome really goes back to 1990, and in October 
of that year, there was a very significant water leak through 
the outer dome, through the inner dome, right into the rotunda. 
From there our efforts began; to study and evaluate what the 
problems and issues with the Capitol dome were, and it took us 
some 10 years of study and evaluation to really understand 
that.
    Back then, I think our initial estimate for repairing the 
dome was $45 million, and that is nowhere close to the $125 
million we think it will take today. And you are right, that is 
not inflation, it is really poor estimating techniques, in my 
view. I look at that estimate, and it had 3 percent contingency 
for doing a job as massive as that, and 3 percent is nowhere 
the kind of contingency you need. It is more like 20 percent 
when you begin to uncover the kind of damage that is out there.
    We also found that those initial estimates didn't comply 
with code. They significantly underestimated the level of 
complexity and contingency, and didn't adequately cover the 
scope of work that is necessary. We are quite confident today, 
through a series of cost estimates and independent reviews of 
that cost estimate, that we have got the right scope of work 
and the right number.
    Mr. Alexander. Ms. Wasserman Schultz.
    Ms. Wasserman Schultz. Actually just to ensure that Mr. 
Bishop--he has to leave for MILCON at 10:30, so you can skip 
me, and I will go after him.
    Mr. Alexander. Okay.
    Mr. Bishop. Thank you very much.
    Thank you, Mr. Architect.
    I think you indicated that the longer we delay the 
projects, the more difficult and the more costly they are going 
to be to repair. You did give us an example when you mentioned 
the Cannon Building.

                ACCESSIBILITY TO CONGRESSIONAL BUILDINGS

    Last October, the Office of Compliance released a report 
that said that the sidewalks around all three office buildings 
were not in compliance with ADA. During the 111th Congress, 
there were 154 access barriers to individuals with disabilities 
among the three buildings, as well as 93 percent of the curb 
ramps not in ADA compliance.
    What efforts have been made to address this situation? Will 
sequestration hinder these efforts to bring the Capitol into 
compliance with ADA?
    Mr. Ayers. Thank you, Mr. Bishop. The report that you spoke 
of, I think, came out this fall regarding ADA barriers that 
were around the House office buildings. In that report they 
pointed out about 270 issues with sidewalks and curb ramps, and 
to date we have fixed 50 of those.
    We have another 50 that we don't think are correct, and we 
are negotiating with the Office of Compliance now, and we are 
in the process of planning and executing the rest of those. 
Most of them are, generally speaking, maintenance issues. If 
you are familiar with a curb cut, you know they have little 
bumps on the curb cuts. You have seen those little red portions 
that are in the curb cuts surrounding the Capitol campus. Some 
of those deficiencies or rather some of the bumps are worn 
down, so we have to replace those. Some of the caulking around 
some of those things, curb cuts, need to be worked on. So most 
of those things are just maintenance items. They are not 
serious access barriers to our buildings, I am quite confident 
of that, and we have got them well under control.
    And I don't think, to answer the second part of your 
question, that sequestration will affect our ability to execute 
those maintenance items at all.
    Mr. Bishop. Okay, very good.
    I believe in the draft of the CR, you are provided with 
some additional authority to transfer funds for completion of 
the Capitol dome. How will it impact your operations overall if 
you have got to transfer money from one account to the other, 
from some accounts to other accounts?
    Mr. Ayers. So in any fiscal year we are essentially 
appropriated operations money; that is, money to pay people and 
money to buy supplies and materials. And then on top of that we 
have capital projects, capital with an A, and so we will take 
money from the capital side of our appropriation and focus it 
on the highest priority, which we think is the dome today. So 
there will be other projects that are in our budget that won't 
be able to be done, and we will focus our available resources 
on the Capitol dome, among others.
    Mr. Bishop. Thank you very much.
    Mr. Alexander. I guess we will go back to Ms. Wasserman 
Schultz.
    Ms. Wasserman Schultz. Oh, thank you. Okay.
    Mr. Alexander. We are going in the order that the members 
came into the room.
    Ms. Wasserman Schultz. Thank you very much, Mr. Chairman.

                      CANNON BUILDING RESTORATION

    It is sort of hard to know where to begin because this is a 
very frustrating situation to find ourselves in. I want to just 
talk to you about the House Historic Building Trust Fund. Can 
you just give us a general update on the plans as they are 
proceeding for rehabilitating the Cannon House Office Building; 
and, namely, what will the restoration consist of? And you 
requested $70 million for this fiscal year for the Historic 
Buildings Trust Fund. What impacts would it have on the Cannon 
restoration progress if we do not appropriate that amount or 
even any amount? What is the minimum? I know you are going to 
hesitate to give me a minimum, but what is the minimum that we 
have to add to the Historic Preservation Trust Fund for Cannon 
to proceed on the schedule we need it to?
    Mr. Ayers. So with regards to our progress to date, we have 
finished our planning, which really defines the scope of the 
project. After planning we go into schematic design, design 
development, and then construction documents, and then 
construction. That is kind of how any major project is phased.
    So we are finished with the planning. We are in the midst 
of schematic design now. At the end of schematic design, 
essentially that project is locked down, and the rest is 
execution. So our ability to change and add, or correct, or 
revise really ends in the next few months. After that it is 
locked down, and we begin to execute the work. So that is where 
we are in terms of phasing.
    The swing space we will use is in the O'Neill Building, so 
the O'Neill Building work is coming along under a GSA contract 
well. I think the base building will be done this month, or by 
April. Then we will go into the installation of furniture and 
fit-out that space, and it should be ready sometime late summer 
to begin to occupy, if that is what we intend to do.
    The Cannon Building is laid out in five or six phases. The 
first phase will start in late 2014 or sometime in 2015, and 
that phase is simply doing mechanical and electrical work in 
the building to enable us to move people out one wing at a 
time. The first move-out really won't start until the 2016 
congressional move cycle, and then the second move-out will be 
on the 2018 congressional move cycle, and then the 2020, and 
then the 2022 move cycle. So every 2 years is how we plan to do 
that.
    In terms of the $70 million that is in our budget request 
just this year, of course when we do any major construction 
project, we would rather have all of the construction money up 
front. We don't think that is possible. That is, of course, why 
the Congress set up the Historic Building Trust Fund. And we 
have laid out a process from now through 2025 for us to stay on 
that schedule, which I have spoken about, doing the first move-
out in the 2016 congressional move cycle. And starting in 2014, 
it is $70 million a year all the way through 2025, and that is 
the minimum. If we don't get $70 million, we cannot stay on 
that schedule.
    Ms. Wasserman Schultz. So we have got to stay on pace in 
the Historic Preservation Trust Fund, or if we don't, then the 
project will be delayed?
    Mr. Ayers. Yes.
    Ms. Wasserman Schultz. Okay. And get more expensive.
    Mr. Ayers. Yes.
    Ms. Wasserman Schultz. And cause us more problems because 
the more the building deteriorates, the tougher it is for us to 
function.
    Mr. Ayers. And maintain it day to day.

                       RAYBURN GARAGE RENOVATION

    Ms. Wasserman Schultz. And maintain it day to day.
    I have a few different questions, but I will ask the major 
ones right now, Mr. Chairman.
    Your budget request for the Rayburn garage asks for $32 
million for rehabilitation, and, you know, we know that that is 
becoming a dire situation, at least from my recollection, and 
that is just phase 1. The total projected cost is $120 million.
    Given the budgetary climate, given the sequester and the 
possibility of this being the new baseline, what can we do? 
What can be done? What happens if you can't secure funding for 
the Rayburn garage rehabilitation? I mean, what can you do to 
maintain the current state of the garage, and is its use 
jeopardized?
    Mr. Ayers. You are right, we have broken that into four 
phases. I think the total cost is about $120 million. I think 
there are a couple of options. We can begin to take it from 
four phases to five phases, or six phases, seven phases, and 
break it into smaller pieces to begin to address it. I think 
that is a viable option.
    I think, secondly, our maintenance team is doing a good job 
staying up with the most urgent problem areas today. We can 
certainly close sections off that pose an imminent threat to 
collapse or falling concrete. So I think that is an option as 
well.
    Ms. Wasserman Schultz. But no way to run a rodeo, Mr. 
Chairman.
    I have other questions, but I will save them.
    Mr. Alexander. All right. Mr. Moran.

                           REDUCING OVERTIME

    Mr. Moran. Thank you, Mr. Chairman.
    I noticed that in determining how you are going to address 
the sequester, Mr. Ayers, you cut 72,000 overtime hours. That 
is out of how many overtime hours did you include in your 
budget do you have to pay for? What is the total number of 
overtime hours?
    Mr. Ayers. That is a great question and one I was hoping 
someone would ask, because we have made great strides.
    Mr. Moran. I did not mean to set you up; I just was 
curious.
    Mr. Ayers. I am glad that you did.
    Mr. Moran. All right.
    Mr. Ayers. You know, for a number of years----
    Mr. Moran. I am glad it is a softball question.
    Mr. Ayers. The Architect of the Capitol has expended almost 
300,000 hours of overtime consistently for about 10 years, and 
we decided a year and a half or, 2 years ago, that we really 
need to make strides in finding a different model to conduct 
our business. That is not sustainable. And in 2 years we have 
been able to get that number in half to about 150-, 175,000 
hours of overtime in any given year. So our current budget has 
about 150,000 hours of overtime.
    Mr. Moran. So you have budgeted----
    Mr. Ayers. We cut it in half.
    Mr. Moran. In the fiscal year 2013 budget, you have got 
150,000 hours of overtime. That is part of the budget request?
    Mr. Ayers. Correct.
    Mr. Moran. Okay. Why would you have that much overtime? I 
mean, I know why people would request it, because what is it, 
time and a half?
    Mr. Ayers. Correct.
    Mr. Moran. Time and a half. So there obviously would be a 
substantial incentive to want to be compensated for overtime, 
and that would significantly increase their compensation. But 
is it because you do not have enough staff, or that some staff 
just have to work 16 hours to do their project? I mean, do you 
have any quantification of the cost of this 300,000 overtime 
hours, for example, in prior years? Do you have any dollar 
numbers that are associated with that?
    Mr. Ayers. That is about $10 million.
    Mr. Moran. About $10 million in additional personnel costs 
because of the overtime.
    Is this something you got into, Debbie? Am I getting into 
an area you have already covered?
    Ms. Wasserman Schultz. No.
    Mr. Moran. Oh, okay. Good.
    Ms. Wasserman Schultz. Just listening.
    Mr. Moran. Okay. So we now have budgeted for 150,000 
overtime hours. Normally when you are putting together a 
budget, the management would try to figure out how can I put 
this under regular hours to avoid time and a half. In other 
words, the compensation going to some members is going to be 
fairly high. Is this management staff that is getting the 
overtime primarily, or is this the, you know, maintenance staff 
at lower salaries?
    Mr. Ayers. It is a little bit of both. And I think we have 
made, you know, great progress going from 300,000 hours to 
about 150,000 hours. So that represents changing schedules. 
Someone that would normally work on a Saturday on overtime, we 
have changed that shift not to work Monday through Friday now, 
but to work Tuesday through Saturday, and that eliminates that 
overtime.
    Mr. Moran. Good for you.
    Mr. Ayers. I think there is still more work that needs to 
be done there, but, you know, overtime is not going to go to 
zero.
    Mr. Moran. No.
    Mr. Ayers. With the number of special events and security 
events that we have around the Capitol, those things just have 
to be done on overtime. It doesn't make sense to hire people.
    Mr. Moran. I can just imagine, you know, a Hill article 
pointing out somebody in your office, you know, making $200,000 
a year or something because of overtime. I mean, that happens 
with public safety people, and then everybody goes ballistic. 
So it is something that we want to keep track of.

                          CAPITOL POWER PLANT

    With regard to the Capitol power plant, because of the 
Nationals stadium and all of the development around Nationals 
stadium, which is contiguous to the power plant, that land has 
become extraordinarily valuable. We have got a power plant 
sitting on it. Kind of like the power plant on the Potomac 
River, you know, most expensive, valuable property, and we have 
got a big coal-fired power plant.
    Now, it is no longer a coal-fired power plant, and a lot of 
the credit goes to Ms. Wasserman Schultz that you are using 
gas-fired now, and you are going to go to cogeneration, but it 
is still--and I understand one of the problems if you were to 
sell the property is you are going to have a lot of hazardous 
material, I assume, because of the coal burning.
    But it is really not the best location for a power plant, 
and I was told by some people in the city that there have been 
efforts in the past to simply replace it with other sources of 
power, which could be done at an extraordinary savings; if you 
were to just use other power sources, that is hundreds of 
millions of dollars that could be saved over time. Have you 
looked into that as an option?
    Mr. Ayers. So certainly we have, and we agree with you 
that, you know, having a power plant right in the heart of the 
city is not the best thing. But we engaged the National Academy 
of Sciences and brought in a series of experts to help us 
figure out what is the best long-term energy source for the 
Capitol complex; what do we need to do to ensure that we are 
doing the right thing to provide steam and chilled water to the 
Capitol complex, because we purchase electricity.
    Mr. Moran. I understand that you purchase electricity.
    Mr. Ayers. Right.
    Mr. Moran. It is not electricity, it is not the heating, it 
is not the lighting, it is the air conditioning. That is what 
it basically does.
    Mr. Ayers. Air conditioning and heating.
    Mr. Moran. Well, does it provide all of the heating for the 
Capitol complex? That is where we get all of our heating?
    Mr. Ayers. Yes.
    Mr. Moran. All of our heating and all of our air 
conditioning is coming from that?
    Mr. Ayers. Yes.
    Mr. Moran. Do you have a financial analysis of the 
alternative if we use a conventional commercial source?
    Mr. Ayers. Well, you know, that really just became cost 
prohibitive, because we would have to replace that some other 
way. We did a quick economic analysis of what it would cost if 
we shut the plant down, and instead of doing--making steam to 
heat centrally, which is the most efficient, and we do it at 
each individual building, what would that cost us? And it was 
just an astronomical number that none of us could come up with.
    Similarly, we looked at making chilled water that we use to 
air condition the buildings. What if we stopped that at the 
plant, and we did it in each individual building? The numbers 
just are so astronomical that it wasn't worth investing any 
time to further look at that.
    Mr. Moran. Right.
    Now, what do all the private-sector buildings all around 
it, who are charging now extraordinary amounts per square foot 
because that land has become so valuable contiguous to the 
power plant--where do they get their heating and cooling from?
    Mr. Ayers. Many of them make it themselves in their own 
individual buildings.
    Mr. Moran. Really?
    Mr. Ayers. Absolutely.
    Mr. Moran. What is that brand new residential facility? Are 
they doing it?
    Mr. Ayers. Capitol View, I think it is.
    Mr. Moran. Okay. They make it in their own individual 
building?
    Mr. Ayers. Uh-huh.
    Mr. Moran. Really? And the Fairchild Building?
    Mr. Ayers. Yes.
    Ms. Wasserman Schultz. Would the gentleman yield?
    Mr. Moran. Yeah, I would like to. I am just curious.
    Ms. Wasserman Schultz. So the study that you did to see 
whether we could eliminate the power plant and do it in each 
building was part of the whole process we went through with the 
switch to natural gas, and wasn't one of the conclusions that 
it was so expensive because of the age of our building, our 
facilities, and that to--I mean, if it were a brand new 
building, or if you were building it from scratch, it would be 
more cost effective, but because what we would have to do to 
the facilities, it makes it cost prohibitive?
    Mr. Ayers. Absolutely.
    Ms. Wasserman Schultz. Yield back.
    Mr. Ayers. A completely new distribution system, a 
completely new----
    Ms. Wasserman Schultz. In a 100-year-old, 75-year-old, 50-
year-old building?
    Mr. Ayers. Right, right. And it takes significant space 
that you have to find other places to put people and equipment. 
But certainly making steam and making chilled water in what we 
call a district system centrally and distribute that out, just 
as GSA does for GSA buildings, virtually every college campus 
does, is the most efficient and economical way to do it. Our 
energy costs would significantly increase by putting that 
capacity in each individual building. It would not necessarily 
save money.
    Mr. Moran. That is fascinating. I am familiar with the 
history, and I know Ms. Wasserman Schultz is. It was Senator 
Byrd who insisted that it be coal fired for a few jobs and a 
lot of coal from West Virginia, but I am glad we have moved 
beyond that.
    I just have one last question, Mr. Chairman, if I could ask 
it. We discontinued the House page program. What are we doing 
with the House page dormitory since, ironically, that is one of 
the few buildings that actually passes the Facility Condition 
Index and nobody is using it?
    Mr. Ayers. It is currently vacant, and we are simply 
maintaining that. There are no current uses for that, to my 
knowledge.
    Mr. Moran. Okay. All right. I guess that takes up my time. 
Thank you, Mr. Chairman.
    Mr. Alexander. Mr. Valadao.
    Mr. Valadao. I was interested in the page program.
    Mr. Alexander. Well, I would like to hear more about the 
building. I don't know the size of it. I know what it was used 
for, but are there any ideas about its usefulness?
    Mr. Ayers. For the page school you are speaking of?
    Mr. Alexander. Yes.
    Mr. Ayers. We currently don't have any plans to use that 
space. I think it really is a matter before the House Office 
Building Commission of what is the best use for that space.
    Mr. Valadao. In regards to the power plant, when was it 
constructed?
    Mr. Ayers. 1910.
    Mr. Valadao. 1910. I assume it was probably fairly 
inefficient when it was a coal-fired plant?
    Mr. Ayers. It certainly was. It has been added to a number 
of times.
    Mr. Valadao. When you converted it to natural gas did it 
become more cost efficient?
    Mr. Ayers. Absolutely.
    Mr. Valadao. In what ways?
    Mr. Ayers. You know, from the natural gas perspective, we 
use natural gas to boil water to make steam to heat our 
buildings. So today we use about 92 or 93 percent natural gas 
as our fuel source, and the rest is between coal and fuel oil, 
and the cogeneration system that we are designing and will soon 
start construction of really gets us to 100 percent natural gas 
use, with fuel oil as a backup, and gets us completely off 
coal.
    Mr. Valadao. In regards to the chilled water and everything 
else used that connects to the buildings, if you were to 
relocate, the distance, the plumbing, etc., I assume it would 
be costly given the age of the facility?
    Mr. Ayers. Absolutely.
    Mr. Valadao. That puts us in a tough spot, thank you.

                          U.S. BOTANIC GARDEN

    Mr. Alexander. Mr. Ayers, the Botanic Garden is always an 
easy target. A lot of people visit that in a year. Can you give 
us an idea as it relates to some of the other sites well 
visited, the difference in maintaining, costwise maintaining, 
the Botanic Garden versus some of the other sites?
    Mr. Ayers. Certainly, Mr. Chairman. You know, that is such 
an important building for us. It really dates back to our 
original founding where George Washington himself promoted the 
value of plants, horticulture, and botany in our society. It is 
still an important mission for us today to educate the public 
and Members about the importance of plants in our society. And 
they are not becoming any less important, that is certainly for 
sure. So we take very seriously that mission to educate and 
inform and inspire people about botany and plants.
    We get about one million visitors a year to that facility. 
At the Capitol, we get about 2.3 million visitors a year to the 
Capitol Building, so an enormous number of people come through 
there to learn about the value of plants.
    The plants that you see there are not necessarily grown 
there. To create such a beautiful display of plants really 
takes 25 acres, 25 miles from here, to grow and cultivate the 
beautiful specimens that you see there that are brought in to 
put on display and then taken back out and refurbished. So it 
is really not just what you see here, but there is a tale 
behind that that really makes the whole thing work. So it is 
quite an expensive endeavor.
    Mr. Alexander. And that facility is where?
    Mr. Ayers. It is in Blue Plains, so it is several miles 
from here down on the Potomac River.
    Mr. Alexander. Is it open to the public?
    Mr. Ayers. It is open to the public 1 day a year, where the 
garden has 1 day that you register, and we bring people and 
show them all of the behind-the-scenes work of how we grow and 
propagate the beautiful plants that are there.
    Mr. Moran. That is a lot of fertilizer in Blue Plains for 
those plants. I do not mean to interrupt you, Mr. Chairman. I 
am just wondering, are you using that fertilizer? Are you 
treating it with the sewage plant?
    Ms. Wasserman Schultz. No, we are using it here.
    Mr. Ayers. Blue Plains is a water treatment facility.
    Mr. Alexander. I was wondering if that is what he was 
getting at.
    Ms. Wasserman Schultz. He wouldn't go there, but I did.
    Mr. Ayers. We don't use the product coming out of the water 
treatment facility to fertilize our plants there, but we get 
other benefits.
    Mr. Alexander. He wasn't thinking about the water treatment 
facility either.
    Ms. Wasserman Schultz.
    Ms. Wasserman Schultz. You took the words right out of my 
mouth with the Botanic Garden. My family is among the 1 million 
visitors. My children's favorite place in the Capitol complex, 
really in all of Washington, is the Botanic Garden besides the 
Young Readers Room at the Library of Congress.
    And, Mr. Chairman, maybe you and I could host an event at 
the Botanic Garden to just--the only time I think Members 
really go to the Botanic Garden is when they are first elected, 
and that reception during the orientation week is held for them 
there, and then maybe some of them never go again. But it is an 
incredibly beautiful place. I mean, I have been over every 
scrap and inch of the gardens with my children, including my 
son, who really, even though he is 13, still gets a charge out 
of seeing all the neat and cool plants that--you know, even 
though we live in Florida, and we have exposure to a lot of 
different types of botany, still gets excited about the unique 
plants that he can see there.
    And I think it is an inspirational place, and it would be 
good, just like with the printing, with GPO, you know when GPO 
is an inviting target because it seems like a waste of money to 
be spending resources on printing, and we know that underneath 
the surface of what it is called is an important role for both 
of those facilities. So just a suggestion.
    And just the only other question I have left, Mr. Chairman, 
is just on the storage module for the Library. You listed it as 
an immediate need, and it is the only new construction on your 
project list, so how did it get an immediate needs rating 
through your facility assessment process?
    Mr. Ayers. The primary reason that that has risen to the 
top is the safety component of that project.
    Ms. Wasserman Schultz. Okay.
    Mr. Ayers. So you might not think that building a new 
building for the Library has a safety component, but the reason 
that we need to build that new building is there are books on 
the floor in the library stacks. That is a safety problem. The 
Office of Compliance has really brought it to our attention and 
is urging us to fix that issue.
    Ms. Wasserman Schultz. Thank you, Mr. Chairman.
    Mr. Alexander. Going back to something Mr. Moran talked 
about a minute ago, who goes out and measures the bumps in the 
sidewalk you were talking about?
    Mr. Ayers. The Office of Compliance does.
    Mr. Alexander. I guess the bumps are to keep the wheelchair 
from sliding off?
    Mr. Ayers. The bumps certainly help from a slip, trip, and 
fall perspective, but the bumps also are for the blind. So a 
blind person with a walking stick will feel those bumps and 
know this is where they can enter and exit from the sidewalk or 
from the street.

                              SUMMERHOUSE

    Mr. Alexander. Mr. Moran, do you have another question?
    Mr. Moran. Yeah, just a couple quick ones. First of all, I 
betray my ignorance. What is the summerhouse? Is this something 
that is available to us that we are not taking advantage of? 
What is the summerhouse? Is this one of those Senators' perks 
that they don't share with the House, or what is it? Do you 
know, Mr. Chairman, what the summerhouse is?
    Mr. Alexander. No.
    Mr. Moran. It is in the worst condition of any building on 
campus apparently, at least it was last year. Now it is the 
second worst next to the Senate underground garage. Frankly, 
the Senate underground garage is their problem.
    Mr. Alexander. I have been up there before.
    Mr. Ayers. It is on the northwest part of Capitol grounds 
of Capitol Square. It is sometimes referred to as the Grotto. 
It is this little brick structure.
    Mr. Moran. Oh, when I was single up here on the Hill as a 
staff guy, I used to go down there all the time.
    Mr. Ayers. It is a great place for dates.
    Mr. Moran. Oh, a great spot. Oh, that is deteriorating? 
What is going on there? It is just stone. What is the problem?
    Mr. Ayers. So it is, you know, from 1879 or 1880, Frederick 
Law Olmsted designed and built that himself. You know, you can 
imagine the summers in the Capitol Building without air 
conditioning.
    Mr. Moran. Yeah.
    Mr. Ayers. And this was a place for Members to come out of 
the Capitol and find a place for some shade, a little water, 
and a place to cool off and a place of respite, and----
    Mr. Moran. I get all that. What is the problem with it? Why 
is it in the worst condition?
    Mr. Ayers. It is severely deteriorated. It has not been 
maintained over time. There has been, trees have grown in.
    Mr. Moran. Really? Okay. All right. Well, I know what it is 
now, and I am glad the chairman has taken advantage of it.
    Ms. Wasserman Schultz. How much would it be to restore it?
    Mr. Ayers. I think that is in our current budget at $2.2 
million.
    Mr. Moran. Gee. All right. The Rayburn House Building is 
considered in poor condition now. It was not until this year. 
That is where our offices are for the most part. Why is it in 
such poor condition? Is it all because of the garage?
    Mr. Ayers. Most of it is because of the garage. That really 
is what kicked it over into poor condition; this $120 million 
of deferred maintenance.
    Mr. Moran. Okay. All right. Fine. Can I ask one little 
question? I got a new office now, I have moved into Barney 
Frank's old office, and our only view is of the courtyard. The 
courtyard has all this pond scum on it, now it is not a 
particularly attractive thing. You leave that water in there, 
do you, for structural reasons to fester and so on until the 
spring?
    Mr. Ayers. Well, it certainly should not have scum and 
other festering things in it, and it sounds like something we 
need to get cleaned up.
    Mr. Moran. Well, you do not have to, and you do not have to 
do it personally, but, you know, I was just curious why it is 
so unattractive right now. Okay.
    Mr. Ayers. Thank you.
    Mr. Moran. Fine. Thank you, Mr. Chairman.
    Mr. Alexander. I guess I was mistaken when I said I know 
what the summerhouse is. I was thinking of the place out, I 
guess it would be in the northeast of town where Lincoln spent 
so much time when he was President. What is the name of that 
place out there? It is the original site of the first veterans 
cemetery; is that correct?
    Mr. Ayers. I do not know where that is.
    Mr. Moran. That is that old soldiers home, yeah.
    Mr. Alexander. The old soldiers home.
    Mr. Ayers. Okay, the old soldiers home, sure. Yeah, the 
summerhouse is just a very short walk from the Capitol 
building. It is on Capitol Square. You do not even cross 
Constitution Avenue.
    Mr. Moran. It is a misnomer to call it a house really.
    Mr. Ayers. It is, yes. It is often called the Grotto.
    Mr. Alexander. Any other questions?
    Mr. Moran. No. I see Debbie has a picture of it which is a 
very attractive picture. That is the nicest picture of it I 
have seen.
    Ms. Wasserman Schultz. Yeah, I was going to say that 
picture does not do justice to how poor the shape is.
    Mr. Moran. Oh, that is a Google picture?
    Ms. Wasserman Schultz. Yes.
    Mr. Moran. Thanks very much, Mr. Ayers. Thank you, Mr. 
Chairman.
    Mr. Ayers, we appreciate your being here today and your 
discussions. Thank you.
    Mr. Ayers. Thank you.
    Ms. Wasserman Schultz. Thank you.
    Mr. Moran. Thank you.
    [Questions submitted for the Record by Chairman Alexander 
and ranking member Wasserman Schultz follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                            Tuesday, March 5, 2013.

                      OPEN WORLD LEADERSHIP CENTER

                               WITNESSES

JOHN O'KEEFE, EXECUTIVE DIRECTOR
JANE SARGUS, DEPUTY EXECUTIVE DIRECTOR
MAURA SHELDEN, PUBLIC AFFAIRS OFFICER
TAMMY BELDEN, FINANCIAL MANAGEMENT CONSULTANT
TAMARA DAVIS, BROOKINGS LEGIS FELLOW

                            Opening Remarks

    Mr. Alexander. At this time we will hear testimony from the 
Open World Leadership Center. The center is requesting $10 
million for fiscal year 2014, the same amount that is in the 
current CR. We welcome former Ambassador John O'Keefe, the 
executive director of the center, and we look forward to 
hearing your testimony. Ms. Wasserman Schultz, do you have an 
opening statement?
    Ms. Wasserman Schultz. I do.
    Welcome back, Mr. O'Keefe. The Open World Leadership 
Center's request of $10 million is equal to the fiscal year 
2012 level, which is somewhat surprising, given the fiscal 
difficulties that we are having. We just heard, Ambassador 
O'Keefe, a few minutes ago from the Architect of the Capitol on 
the critical needs projects for the Capitol and House office 
buildings that we are going to have trouble funding in the 
upcoming fiscal year. You know, our difficulty on this 
subcommittee is to prioritize these essential projects, and 
Open World, given its odd fit in the legislative branch, 
presents a major challenge for us. Also, there are 90 programs 
that fund activities in Russia similar to Open World funded 
through the State Department.
    Now, I have listened to the many supporters of Open World 
speak of the unique role that you serve in bringing judges and 
lawmakers from Russia and other countries in the Eastern Bloc 
to the United States, promote interaction between our countries 
with the goal of strengthening democratic principles, and those 
are very worthwhile goals, but in the smallest appropriations 
bill, particularly in the midst of sequestration on top of 
that, it is even more difficult to find whatever scraps are 
left on the table for a program like this one, in my opinion.
    With those concerns in mind, I have always pushed Open 
World to increase its fund-raising from nongovernmental 
sources. Given the uncertainty in Federal appropriations, 
private funds may provide you more of a stable funding source.
    That being said, Ambassador O'Keefe, I do thank you for the 
important work that you do, and I look forward to your 
testimony and an update on your fund-raising results, and we 
will have other questions for you throughout the hearing.
    Mr. Alexander. Mr. Moran, do you have an opening statement?
    Mr. Moran. Thank you, Chairman Alexander. This was a 
program that was envisioned by people such as Senator Ted 
Stevens and others, had bipartisan support when it was 
established, Senator Inouye was a big supporter of it, and it 
brings to this country thousands of people who are considered 
future leaders, with a particular emphasis upon the judiciary, 
which is one of the most fallible aspects of the governments 
from which the people come, and it has had a lot of results. 
The results are not immediate, they are long term in terms of 
orienting people toward how a fair and just judicial system 
operates under democratic governance, and it is a program that 
for unique reasons was established in coordination with the 
Library of Congress using Jim Billington's expertise, and $10 
million seems a lot in a small appropriations bill, but it is 
kind of a pittance in terms of what it produces, and so I am a 
supporter of Open World, as other Members of the Congress are 
on both sides of the aisle, so I just want to put that out 
there. Ms. Wasserman Schultz and I have some disagreement, and 
both of us agree to disagree on this.
    Ms. Wasserman Schultz. We do.
    Mr. Moran. Thank you, Mr. Chairman.
    Mr. Alexander. Mr. O'Keefe, if you want to introduce your 
staff, feel free to do so. Your entire statement will be in the 
record, but if you would summarize your remarks, we would 
appreciate it, and welcome to the committee.

                  Open Statement by Ambassador O'Keefe

    Mr. O'Keefe. Thank you, Mr. Chairman, and it is my 
particular pleasure to have to my left our financial management 
officer and the deputy of Open World, Jane Sargus, Maura 
Shelden, who does our public affairs programming, cultural 
affairs programming and relations with the board, Tammy Belden, 
who is the person who makes sure that we do not pay anybody who 
should not be paid and keeps very careful track of our grantees 
and our accounting, and Tamara Davis, who is a Brookings Fellow 
with us through August, who is also doing some of the 
congressional relations work. So thank you, Mr. Chairman.
    Chairman Alexander, Ranking Member Wasserman Schultz, 
members of the Subcommittee, I appreciate your giving me time 
to address the Subcommittee on the value of the Open World 
Leadership Center. You have a challenging task in sorting out 
priorities for 2014. Before I begin, I just wanted to relay to 
you something that the Librarian of Congress, our founding 
chairman, mentioned at our annual board meeting last month. 
``The Open World target is young and emerging. Their influence 
is not visible, but it is happening, from the periphery in, 
from below, not above. Open World is a model for how you 
structure an exchange program that can be effective with 
emerging countries.''

            OPEN WORLD AS AN ASSET, RESOURCE AND INVESTMENT

    The question before you is why fund the Open World program 
when there are demands from so many parts of the legislative 
branch for each marginal dollar? The answer is that for Members 
of Congress, Open World is a resource, an asset, and an 
investment. As a resource, we directly connect Members of 
Congress and your constituents to rising leaders, bringing the 
world to your doorstep. 83 percent of our delegates meet with 
Members or staff. We have helped create or sustain 
partnerships, 54 this past year alone for people and 
organizations in your districts. Demand from your constituents 
for our program is three and sometimes four times the supply.
    As an asset, our extensive network of hosting organizations 
and 20,000 alumni throughout Eurasia allows us to start 
programs quickly and effectively. At the request of Members of 
Congress, this year we will expand to Egypt, Mongolia, Turkey, 
and, with board approval, Kosovo at no additional cost or 
request. These programs are low cost with clear objectives and 
produce measurable results.
    Issues that are critical to Members inspire our 
programming, from Egyptian jurists whom Judge Cristol from 
Miami will welcome next month and whose institution may help 
sustain a path to stability in a critical region to a central 
Asian legislator writing a Constitution partially modeled on 
his Open World experience in Montana, and his relation with 
that state's Senate leader.
    Crucial to the success of the program are the 7,200 
families who have home hosted delegates in 2,200 communities in 
all 50 States. As an investment, every delegation is an 
investment in America's future. The United States cannot simply 
expect to have friends the world over when we need them without 
cultivating those friendships. By creating and sustaining 
lasting partnerships, Open World cultivates a sense of shared 
purpose, a commonality. Our placement in the legislative branch 
keeps us above the often necessary disputes that strain 
executive branch relations with the country. We keep our 
connections.

                 OPEN WORLD FUNDING EXPENDED IN THE US

    Keep in mind also that 80 percent of our funds are spent in 
the U.S., much of it at the local level, just where we want our 
investment to go. Extraordinary Americans in Lincoln, St. 
Petersburg, Columbus or Arlington create effective programs and 
provide enthusiastic hosting that harnesses the power of local 
communities to build enduring relationships. We offer 
extraordinary bang for the buck.
    There are 246 exchange programs in the executive branch 
scattered through 63 departments and agencies with a total 
funding of $1.8 billion. Congress has Open World, with funding 
at 0.005 percent of the executive. A drop.

OPEN WORLD'S UNIQUE ABILITY TO FUNCTION WHERE OTHER USG AGENCIES CANNOT

    Open World has the ability to function where it is 
difficult to reach the people of a particular country. Its 
alumni undertake grass-roots activities that have far-reaching 
effects. Our home hosts and our partners in communities in 
every state open the eyes of our delegates that no amount of 
foreign assistance training can do and at a fraction of the 
cost. We leverage the power of representative government, of 
you, and the communities you represent to effect basic change 
that ultimately benefits our country.
    So why fund Open World? Because we work, because we are 
your instrument, and because we fill a critical niche that the 
executive branch cannot duplicate. The U.S. Ambassador to 
Russia, Michael McFaul, wrote to me last week, quote, ``As I 
travel throughout the regions in Russia, I find that in every 
community I visit, the Open World alumni are the most 
enthusiastic, the most engaged, and the most committed to 
working with the United States in a variety of important 
areas.''
    Thank you very much, and our founding chairman has joined 
us, Dr. Billington. Thank you, sir.
    [The statement of Ambassador O'Keefe follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                PRIVATE FUNDING AND OUTSIDE FUNDRAISING

    Mr. Alexander. Sir, Ms. Wasserman Schultz said something 
about private donations. In 2012 a Washington Post article 
reported that a wealthy Russian Senator had committed to a 
donation of more than a million dollars to the program. Can you 
tell us if that commitment was ever fulfilled and, if so, how 
was the money used and have you had other donations of that 
magnitude?
    Amb. O'Keefe. Yes, sir. He originally committed $450,000 to 
us, and he delivered $150,000 a year for 3 years, starting in 
2008, and then he was very pleased with the way it worked, so 
he added in another $550,000 I believe.
    Ms. Sargus. $600,000 for 4 more years.
    Amb. O'Keefe. $600,000 for 4 more years.
    Ms. Sargus. Starting in 2012.
    Amb. O'Keefe. He represents the Republic of Buryatia, which 
is a primarily Buddhist republic bordered by Mongolia on one 
side and Lake Baikal on the other. So the programming is 
devoted to that republic, and in fact we have a group arriving 
on June 12th. So, yes, he has delivered and he has kept that 
commitment, so we have been very pleased to work with the ERA 
Foundation.
    Mr. Alexander. Ms. Wasserman Schultz.
    Ms. Wasserman Schultz. Thank you, Mr. Chairman. Ambassador 
O'Keefe, I want to continue the conversation about your outside 
fund-raising. During the--it looks like your direct donations 
went up to $388.5 thousand in fiscal year 2011 and went down to 
$325.5 thousand in fiscal year 2012. Most of your donations 
around $2 million, though, are in-kind contributions, and with 
all due respect, that is a typical trick that agencies use or 
organizations use to make it appear as though their private 
donations are larger than they really are. So can you describe 
what your in-kind contributions are and please be clear with 
the subcommittee on what your actual cash private donations 
are.
    Amb. O'Keefe. Yes, ma'am. The in-kind contributions are the 
ones that are provided to us by the host organizations. They 
home host the delegations: It saves us on hotel bills and they 
provide the meals or a majority of the meals, so we do not have 
to pay for that. They also provide transport, and these 
organizations also donate their time, and so when we ask for 
them to report at the end of every grant cycle, they report 
those items. Ms. Sargus actually tracks them and knows the 
accounting much better, so if you wanted to add anything to 
that part of it.
    Ms. Sargus. Well, in-kind describes costs that are not 
covered by appropriated money, as you know.
    Ms. Wasserman Schultz. Right.
    Ms. Sargus. So we use the volunteers service hours, and 
there is a kind of a template.
    Ms. Wasserman Schultz. Let me just give you more clarity on 
why I am asking about them. Because counting in-kind 
contributions toward your private fund-raising total presumes 
that you would have been appropriated those funds if--and that 
you are saving us money from attracting those in-kind 
contributions. We would not have funded those items, so----
    Amb. O'Keefe. Yes, ma'am.
    Ms. Wasserman Schultz [continuing]. Including them in the 
total is not entirely accurate.
    Amb. O'Keefe. I understand what you are saying. The net 
effect, obviously, is that we would not have gotten more money 
from the Subcommittee and from the full Committee, but what it 
does allow us to do is leverage the money that you do provide 
us so we can bring more people. If we did not get in kind, if 
we had to do hotels and we had to pay the organizations for 
organizing, then it would be fewer people, less of a program, 
and to get to the point of your question, how much are we 
really getting in terms of cash in hand.
    Ms. Wasserman Schultz. Yes.
    Amb. O'Keefe. And that amount for 2012 is an estimated 
$825,000, which is about 8.25 percent of the total.
    Ms. Wasserman Schultz. Are you still employing a fund-
raising contractor as you were in 2010?
    Amb. O'Keefe. No, ma'am. In 2010, 2009, 2010 we had 
substantially more appropriated funds. When the appropriation 
went down, we dropped the contractor.

                     EXPANDING DEVELOPMENT EFFORTS

    Ms. Wasserman Schultz. My recollection is that we directed 
you in the report language to hire a development director, a 
fund-raising contractor, and I am not sure why you would make 
that decision. The first thing to go should not be the only 
individual that is going to help you attract more private 
donations and ultimately make it more challenging for us to 
continue to fund you. As I said in my opening statement, 
private fund-raising should be a high priority for you, 
especially given our budget uncertainty. Without a fund-raising 
contractor, without someone whose job it is in your 
organization to raise private funds, I do not know how you are 
going to really significantly expand your ability to do that.
    Now, Dr. Billington, who helped obviously conceive and 
start Open World, has been an incredibly successful fund-raiser 
for the Library. Have you talked with him or the Library staff 
on how to improve your fund-raising? And do you have a plan, a 
written plan to expand your fund-raising that is from private 
sources?
    Amb. O'Keefe. To answer the first question, yes, Dr. 
Billington has been involved in making requests.
    Ms. Wasserman Schultz. So what is preventing you from going 
beyond the very limited amount of private funds you are able to 
secure?
    Amb. O'Keefe. The ability for foundations to fund new 
programs shrank considerably starting in 2009 because obviously 
their portfolios took a hit, and so they were not funding many 
new initiatives--they were continuing programs that they had, 
and when we went to them and said we have got this great 
program, they would say, look, we are just sticking with what 
we have right now because our income is shrinking, and so that 
was a stone wall we hit.
    The other efforts that we have made have also come up dry, 
and we do not have a written plan. We will have one at your 
request, but not just because you requested it because I think 
it is a good idea, too.
    Ms. Wasserman Schultz. Okay. I mean, it is hard for me to 
understand. I mean, it is 2013 and we have been having this 
conversation for 5 years, and you do not have a written plan 
when that has been a directive and a goal that was firmly 
established that Open World should be working towards. How do 
you work towards that? You had a private fund-raiser. How do 
you work towards that without a plan? You are only just now 
realizing that that is a good idea? This is unfathomable to me.
    Amb. O'Keefe. I would say that the contractor did provide 
us a plan, and we went out and did all those things. Perhaps it 
would be better described to refurbish and in view of the plan 
we have----

                       OPEN WORLD PROGRAM RESULTS

    Ms. Wasserman Schultz. You know, I have struggled to see 
what the tangible results are from the Open World program, even 
though I know it has some general value, as do all of these 
programs, but what is the $10 million worth of value that we 
get from Open World? And is it more--why, as a subcommittee, 
should we believe that it is more important to fund Open World 
than it is to fund Dr. Billington's new storage facility which 
costs $5 million and has been identified by the Architect of 
the Capitol as an immediate need and that we are likely not 
going to be able to fund?
    Amb. O'Keefe. For the $10 million that the Congress is 
spending on the program, as I said, we are an asset, a 
resource, and an investment. The statement that Ambassador 
McFaul sent to me, understand that in Russia he travels all 
around, and there are lots, as you point out, over 90 exchange 
programs in Russia. Why is it that the ones that are ready to 
engage with the United States are the Open World alumni? And 
this is in the regions of Russia. It is not in the center where 
a lot of the problems in terms of relations exist. So that is a 
very powerful statement about what this $10 million has done, 
and if you do compare it to that $1.8 billion in the executive 
branch, we are quite effective and we are quite a bargain. We 
have in our performance plan----
    Ms. Wasserman Schultz. With all due respect, a statement 
from the United States Ambassador to Russia is not empirical 
evidence that we are getting $10 million worth of value out of 
the Open World program. Do you have any way, anyplace to point 
to tangible results that are based on the goals of the Open 
World program that are the equivalent of $10 million, a $10 
million expenditure?

         OPEN WORLD'S STRATEGIC PLANS AND PERFORMANCE MEASURES

    Amb. O'Keefe. In our strategic plan we have a number of 
performance measures, and one of them is the view of the 
participants on how successful the program is, and that runs at 
well over 95 percent. The number of partnerships sustained or 
created, we have created a number of those, and those sister 
cities, those judge-to-judge programs, the programs dealing 
with adoption and with adoptive children and taking care of 
them, trafficking in persons, they all have an effect. We also 
track how many projects our alumni undertake. There is some 
sort of technical ones we have in here that are not of great 
interest to you. So at any rate, I would say that when you look 
at exchange programs, the results tend to be delayed in a 
sense.
    Ms. Wasserman Schultz. Ambassador, can I just ask you one 
final question?
    Amb. O'Keefe. Yes.
    Ms. Wasserman Schultz. Would it be your assessment that the 
relationship between the United States and Russia has improved 
or deteriorated over the last several years?
    Amb. O'Keefe. I would say it has deteriorated.
    Ms. Wasserman Schultz. Well, is there anything you can 
point to in Open World that has contributed to the improvement 
of the relationship between Russia and the United States? I 
have not been able to find it. I am the kind of lawmaker that 
would like to find it in my heart to think this is a worthwhile 
program in this budget, but--in this bill. I have consistently 
said that it is a square peg in a round hole and belongs in the 
Department of State. I know Dr. Billington and you do not want 
it to get swallowed up, but unless you can point to me--in my 
opinion, unless you can point to some tangible value, actual 
results, not the opinions of the people who are coming here 
from Russia who really enjoy the program and say they get a lot 
out of it. I mean, I am sure the people coming from Russia that 
get to travel to the United States and spend a lot of time with 
our people would have a 95 percent feeling about the enjoyment 
they got out of that program, but that is not tangible results.
    Amb. O'Keefe. I would just give you one example. There are 
others. One of our alumni who is the chair of the Duma 
Committee on the Affairs of Family, Women and Children within 
the past 2 weeks at great personal and professional risk, stood 
up and said up to 300 adopted children die in Russia each year 
and practically no one has faced criminal prosecution over the 
deaths. So as a result of her actions, a working group was set 
up to monitor these investigations. So why is this the result? 
What the Russian Duma has been doing, as you know, has been 
passing these laws that frankly hurt the children of Russia.
    Ms. Wasserman Schultz. And you attribute her participation 
in Open World to her being willing to stand up and say that?
    Amb. O'Keefe. I think so.
    Ms. Wasserman Schultz. Is that your opinion or did she tell 
you that?
    Amb. O'Keefe. No, she did not tell me that.
    Ms. Wasserman Schultz. I mean, I am sorry, there is just a 
tremendous amount of subjectivity in the assessment and 
analysis of the effectiveness of this program.
    I am finished, Mr. Chairman. Now for the opposite point of 
view.
    Mr. Alexander. Mr. Moran.

                        THE CASE FOR OPEN WORLD

    Mr. Moran. Yeah, yeah. You know, tradesmen do not make good 
statesmen, and too often, I think, when we put together a 
budget we look for quantifiable measurements when we are really 
looking toward qualitative factors. The relationship with 
Russia is an extraordinarily important one. This is difficult 
because we are within a foot of each other, Ms. Wasserman 
Schultz. Russia is not going to go away. It is never going to 
be a small enough country population wise or economically wise 
that we can ignore it. We have to deal with Russia. We have to 
deal with Putin. Putin has simply absconded billions of 
dollars. I figure he is worth $15 billion, and now that he is 
President again, he will be worth much more. It is a corrupt 
economy, its judicial system is not working for the benefit of 
the people. The people do not trust the judicial system, and 
when a foreigner is involved, like Mr. Magnitsky and others, it 
too often results in a political verdict that punishes 
Americans. And yet we are going to be trading with Russia. We 
are going to be increasing trade with Russia. They have 
extraordinarily large sources of natural resources, and they 
play a major factor in trade with our allies, and the Russian 
people deserve and need our involvement, it seems to me. I 
mean, we cannot ignore them. We have to be integrally involved 
in the evolution of that country. We cannot just turn our back 
and pretend they do not exist and that we do not need to be 
involved.
    So what do we do? Well, the programs within our State 
Department because they are part of our State Department do not 
have the credibility, the relationships that we need for them 
to have to be able to work most effectively in turning that 
country towards democracy and justice. So we look to other ways 
of doing it.
    Now, back a generation ago we would do a lot of the stuff 
that worked in our interest behind the scenes. Our intelligence 
agency was involved. We had this--at one point during the Cold 
War we had this massive collection, I think it was the Franklin 
book collection, a massive collection of Western literature, 
and we made it all available. People never knew it was the CIA 
sponsoring it, but that is what we were trying to do, to get to 
the hearts and minds of the people. It is now housed at the 
Library of Congress. In addition to that collection being 
housed at the Library of Congress along with the millions and 
millions of other books, we have a national asset, perhaps our 
most potent asset. We have an internationally recognized expert 
more so in Russia than here on Russian literature, history, and 
culture. Dr. Billington can go virtually anyplace in Russia, 
and anyone that is well read and cosmopolitan in their approach 
knows exactly who he is and respects him. They do not see him 
as part of the U.S. Government with all the baggage that brings 
with it. They see him as someone who loves Russia and its 
people and its history so much that he has devoted his life to 
it. So he has immediate entre. So how do we use that for these 
wider purposes of trying to get fair trade laws, trying to help 
our businesses that need to engage with Russian businesses? How 
do we stop the loss of billions of dollars of trade that is 
going to other countries today? It is going to, you know, China 
and Brazil and other countries in South America and Asia, all 
kinds of countries. We have better products, less expensive. We 
cannot trade with Russia, and so billions of dollars is being 
lost in trade. Economic opportunities, and there are also 
social opportunities. We have so much to gain from Russian 
literature. I mean, Anna Karenina is probably one of the 
greatest books written, not to mention all the other books by 
Dostoevsky, Tolstoy, Solzenitzyn, et cetera. So all of this we 
can benefit and yet we do not have the entre we need. And so we 
came up, a number of people, and Senator Stevens was one of 
those that led the effort, to use the greatest asset we have, 
which happens to be Dr. Billington, and he has got other people 
in his coterie, if you will, to enable them to have a program 
to go around the government, to find future leaders, to get 
them into the United States, to develop relationships because, 
as you know better than anyone, Ms. Wasserman Schultz, all 
politics is not just local, it is personal. All politics 
revolves around personal relationships, and I know how 
vigorously you are nodding your head, you chair the DNC. You 
are more aware of that than anyone. So we need to develop 
personal relationships with Americans, regular Americans, not 
somebody tagged with, you know, the Bush administration, the 
Obama administration or any other administration, regular 
Americans who have personal relationships with future Russian 
leaders, to influence their ideas, their ability to express 
those ideas which are consistent with our values and 
principles, and that is what this program was all about. That 
is why Dave Price, who heads the Democracy Partnership, he is 
cochair, that is why he is so wedded to this, because he goes 
around the world, he goes into, you know, Russia and other 
countries, and he meets with these people, and he is embraced. 
Now, the people that are part of the government, you know, 
bureaucracy, it makes them a little nervous, but they 
immediately embrace people that are associated with programs 
like this, and I think this is a relatively small investment, 
and that is absolutely what it is, an investment to develop a 
foundation of future leaders that is going to pay off in the 
long run. It is going to pay off in greater prospect of peace 
and ensure that there will not be the use of nuclear weapons, 
which is certainly still a possibility, but it is going to pay 
off in economic trade in the tens of billions of dollars that 
we, that can go into our economy if we can trade with them.
    I know I am out of time now, but we just passed this 
legislation, and, you know, the Magnitsky bill is a very 
difficult piece of legislation. Now, when they cut off 
adoptions for American families, that was a reflection of the 
deteriorated relationship, but the statement they made about 
this Texas family, you know, being responsible for the death of 
an adopted child, they just refuted it, and my understanding, 
and this can be checked out, is one of the reasons why we had a 
few people, spokespeople say, wait a minute, let's look into 
this, a few contacts in Russia that we could get to to say, 
look at all of the facts before you use that as a reason to 
legislate this policy that is going to further deteriorate our 
relationship with the United States. That is why I think for a 
small amount of money this is the kind of program, a pittance 
of what we put in the State Department, that can be far more 
effective in the long run than what we are able to do today 
with the bureaucratic machinery at the State Department.
    So that is why I support this, and why I think we, it 
behooves our government to use one of the best assets we have, 
which is Dr. Billington, in improving our relationship with 
Russia. So that is my statement. I do not have any questions. I 
have enough--although I will say there was just a GAO report, 
and that GAO report came up with some very positive 
conclusions, and I hope that maybe you will ask, Mr. Chairman, 
because my time is up, about the conclusions of the GAO report 
of the Open World program.
    Thank you, Mr. Chairman. Thanks for all that time, but I 
tried to lay it out there where I sit since Ms. Wasserman 
Schultz has been doing that for the last couple of years as 
well.
    Mr. Alexander. There is that fund-raiser you are looking 
for.
    Amb. O'Keefe. Two of them.
    Mr. Alexander. Any more questions?

                            CLOSING REMARKS

    Ms. Wasserman Schultz. I do not have any more questions, 
Mr. Chairman, but Mr. Moran makes an eloquent case for the 
reason that we should have Open World. I agree, for what the 
goals of Open World are, it is a small amount of money. It is 
not a small amount of money in the legislative branch 
appropriations bill because we have many important priorities 
that are within the purview of this committee's 
responsibilities, which are not primarily programmatic but are 
extremely important that we just over the last several hearings 
have gotten the full measure of the challenges that we have in 
funding those priorities, and with $1.8 billion, billion being 
spent on exchange programs alone in Russia and a relationship 
that is deteriorating, not improving, $10 million and the 
stress that it puts on this bill rather than it being in a 
different bill in the appropriation, in the overall 
appropriations process like the State Department, whether it is 
through pass-through funding or finding another way to shrink 
the amount of stress that Open World puts on this bill and that 
it prevents us from doing other things I think does not make 
sense nor have I seen evidence of the tangible results that 
come from the expenditure of the funds. We do ask for the 
tangible results and we hold other programs accountable. We 
have not had the same accountability on this program, and I 
think we need to come to some meeting of the minds on the 
appropriate placement of Open World in the legislative branch 
bill and the amount of funding, public funds it should receive 
if it remains in this bill or if there is a more appropriate 
way to fund it so that we relieve the stress on the legislative 
branch overall appropriations and the allocation that we get 
and make sure that the laudable goals of Open World are able to 
be achieved, and that your fund-raising, actual cash fund-
raising without in-kinds that I do not believe count is 
aggressive and improved, and lastly I will say that I have well 
known tremendous respect for Dr. Billington and am very 
familiar with his expertise. I would argue that we have his 
expertise and his entre to Russia with or without Open World. 
Thank you.
    Mr. Alexander. Okay. Mr. Ambassador, we appreciate your 
presence here today and your testimony. There are no other 
questions, so the committee will stand adjourned. Thank you.
    Amb. O'Keefe. Thank you, sir.
    [Questions submitted for the record by Chairman Alexander 
follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                           Tuesday, March 19, 2013.

                     U.S. HOUSE OF REPRESENTATIVES

                               WITNESSES

HON. DANIEL J. STRODEL, CHIEF ADMINISTRATIVE OFFICER, OFFICE OF THE 
    CHIEF ADMINISTRATIVE OFFICER
HON. KAREN L. HAAS, CLERK, OFFICE OF THE CLERK OF THE HOUSE OF 
    REPRESENTATIVES
HON. PAUL D. IRVING, SERGEANT AT ARMS, OFFICE OF THE SERGEANT AT ARMS
KERRY W. KIRCHER, GENERAL COUNSEL, OFFICE OF GENERAL COUNSEL
SANDRA STROKOFF, LEGISLATIVE COUNSEL, OFFICE OF THE LEGISLATIVE COUNSEL
RALPH W. SEEP, LAW REVISION COUNSEL, OFFICE OF THE LAW REVISION COUNSEL
THERESA M. GRAFENSTINE, INSPECTOR GENERAL, OFFICE OF INSPECTOR GENERAL

                       Opening Remarks--Chairman

    Mr. Alexander. The committee will come to order. Today we 
will receive testimony from the officers of the House of 
Representatives, the Honorable Dan Strodel, Chief 
Administrative Officer; the Honorable Karen Haas, the Clerk of 
the House; and the Honorable Paul Irving, the Sergeant At Arms. 
Also in attendance are Ms. Grafenstine, the Inspector General; 
Mr. Kircher, General Counsel.
    Ms. Strokoff, Legislative Counsel, and Mr. Seep, Law 
Revision Counsel. And we are pleased to welcome all of you here 
today.
    The fiscal year 2014 budget request that we will consider 
is $1.2 billion, the same level as provided in the continuing 
resolution through March of this year. We have reduced the 
House appropriations by over $135 million, or 10.5 percent 
since January 2011. Due to the sequestration, we must reduce 
the appropriations for the House by another $62 million. In 
total, the officers of the House comprise of 13 percent of the 
appropriations for the House. It is a small portion of the 
budget, but extremely important. And as we move through the 
hearing today, we are looking forward to highlighting the past 
efforts and focusing on where we can go in the future.
    With that, the ranking member, Ms. Debra Wasserman Schultz.

                    Opening Remarks--Ranking Member

    Ms. Wasserman Schultz. Thank you, Mr. Chairman. And I join 
you in welcoming the officers of the House and the 
representatives that are here from other offices. Mr. Chairman, 
this hearing is one of the Legislative Branch Subcommittee's 
most important, as we provide oversight to our very own 
institution. It reaffirms that we must hold ourselves 
accountable as we provide rigorous oversight of the House in a 
transparent manner. Though we may disagree on the priorities of 
funding in the House, but I know all Members want the 
operations of the House offices to meet the highest standards. 
If you have been in any of our subcommittee hearings this year, 
you know I believe that sequestration is an irresponsible way 
to budget. It targets discretionary spending, which is the 
smallest component of the annual budget, in an unnecessary, 
across the board, meat axe approach. And we are seeing the 
effects of that in our very own offices. At a time when most 
Members of this body are representing newly-formed 
congressional districts, with a need to open new offices or 
move to new locations, we find ourselves with an 8.2 percent 
decrease in the very operating budgets that support constituent 
services, our most important function. That is in addition to 
the 11.4 percent in cuts we have seen over the last 2 fiscal 
years. So nearly a 20 percent cut since 2010.
    And yet the House makes the fiscally irresponsible decision 
to spend up to $3 million to defend the Defense of Marriage 
Act. These are scarce resources that would be better spent 
providing constituents with better access to their 
Representatives rather than on hiring outside counsel to defend 
an act that has been found unconstitutional in no less than 
eight Federal courts. The political gamesmanship on DOMA has 
gone on for far too long, and at far too great a cost. 
Fortunately, the Supreme Court will hear the case of Windsor v. 
The United States later this month. And I am hopeful and 
confident that they will agree with the lower courts and rule 
that DOMA is unconstitutional so that we can move on to the 
business of using all of our limited resources to fund the core 
operations of the House.
    In light of these lean budgetary times, there are many 
other important issues that we have yet to face. To that end, I 
am increasingly concerned that our ability to recruit and 
retain high quality staff is diminishing as compensation and 
benefits decrease. We have to come together and promote 
initiatives that improve the quality of life in the House of 
Representatives.
    The three officers here today oversee programs that are 
essential to that quality of life, such as food services, 
employment counsel, and security. I am sure Mr. Strodel 
remembers our plight to improve the food choices and prices in 
the House cafeterias, which is important to constituents who 
come here and purchase food and have to function while they are 
visiting the Capitol. Being priced out of being able to 
actually eat a high quality meal should not be one of the 
challenges that they face.
    And Mr. Chairman, lastly, I just think it can't be stressed 
enough how important it is that we take care of our staff, that 
we make sure that working here is a high quality experience, 
and that we recognize that the more that we rob Peter to pay 
Paul, the more that we make pennywise and pound foolish 
decisions, the tougher it is for us to compete not only with 
the private sector, but with other Federal agencies who are 
offering better benefits, offering better pay, and who we will 
lose out to when it comes to the competitive nature of hiring 
the best potential public servants. And I think that would be a 
disservice, is a disservice to our constituents.
    Thank you, Mr. Chairman. I look forward to hearing the 
testimony.

          Opening Remarks of the Chief Administrative Officer

    Mr. Alexander. Thank you. In the past years we have all 
worked together to reduce your operating budgets by 11 percent. 
We appreciate that. Your entire testimony will be in the record 
today. But if you will summarize your testimony, we will begin, 
and look forward to your testimony. We will start with Mr. 
Strodel.
    Mr. Strodel. Well, good morning, Chairman Alexander and 
Ranking Member Wasserman Schultz. Thank you for the hearing. 
Thank you for inviting me. It is an honor to be sitting here 
with my colleagues, the Clerk of the House, Karen Haas; and the 
Sergeant at Arms, Paul Irving. And I will briefly summarize.

                    CHANGES TO THE 2013 HOUSE BUDGET

    As you mentioned, Mr. Chairman, the full testimony has been 
submitted for the record. But, right off the bat, I just want 
to address the overall House budget, because in addition to 
preparing the CAO budget each October, the CAO works with House 
officers, House officials, and other offices within the House 
to formulate the House-wide budget request. In January of this 
year, we submitted the House fiscal year 2014 budget request to 
the OMB on behalf of the House. The request was flat with the 
fiscal year 2013 continuing appropriations resolution. 
Obviously, the budget request was submitted prior to the March 
1 effective date of sequestration. I have been directed that 
the House intends to operate under the reductions consistent 
with the sequestration order, and that the Committee on House 
Administration has notified Members accordingly.

               THE CHIEF ADMINISTRATIVE OFFICER'S BUDGET

    As it relates to the CAO budget, Mr. Chair and Ranking 
Member Wasserman Schultz, the past 3 years have been a very, 
very challenging fiscal environment. It is no secret. But we 
began, and I think Ms. Wasserman Schultz, you used a percentage 
of 20 percent reduction, and that is about what we had as well 
within CAO. And that is not something to say, okay, we are 
going to cut 20 percent. Where is my 20 percent? You can't take 
a meat axe to do this, you have to be strategic. You have to 
use not just cuts, but strategic management approaches. And 
that is what we have tried to do, as well with my colleagues 
here, is to have nonpersonnel and, if need be, personnel 
reductions implemented in a coordinated, strategic way.

                      THREE BUDGETARY INITIATIVES

    So 2 years ago--well, almost 2 years ago we started three 
things. Number one, we did a major reorganization within CAO. 
We also started a disciplined budget management approach called 
zero-based budgeting, which again brings a disciplined 
approach. You look at everything you do, why it is required, 
what is the service being delivered, and what is the value 
being added. And that was helpful to us. We were able to 
collapse certain functions and make efficiencies, reduce 
contractor support, and so on. But to live in this environment 
for an extended period of time for these past 2 years, and then 
in the outyears that are coming, 2014 and 2015, you have to 
look down the road and say what is the future going to be like? 
How can we implement this in this particular area with having a 
minimal impact on the Member community?
    Our existence is in support of these House offices, of your 
office and your staff. And we can't lose sight of that to 
protect our budget or create a separate bureaucracy. We are 
here to deliver value. And that is our bottom line. The 
challenge is to be able to provide continuing services 
effectively, and yet do more with less. I can't stress enough 
how challenging it is. We have had to look at House-wide 
initiatives and ways to reduce costs to us, but also costs to 
the Member offices. And particularly as it relates to seemingly 
minor things like subscriptions, whether it is National Journal 
or the CQ Roll Call, we have been able to use enterprise 
solutions to reduce costs to the Member offices and still 
provide that service. So those are the types of things that we 
continue to look at.

       INFORMATION TECHNOLOGY--CURRENT PROGRAMS AND FUTURE PLANS

    And finally, what I would like to talk about a little bit, 
because I think it is significant--and Mr. Chairman, you 
brought it up earlier--was information technology, the use of 
information technology here in the House, and that this is the 
future. It is how business is done here. It is how business is 
done in the corporate world and in the rest of the Federal 
Government. It is not going away. And we need to be in a 
position to migrate to the next generation. Mobile devices are 
where it is at now and where it is going to be.
    When I started in 1985, that was BC, which is before 
computers, and I can't believe that I can say that now. We went 
from nothing to a mainframe system, which was a big box 
somewhere in the Ford Building and all these wires connecting 
all the offices, then to each office having their own IT system 
within their office, and then more recently to this cloud 
concept. So we do have a House cloud with almost 400 offices 
that participate in it. But now you have big data and storage 
requirements that come with that. We have moved from desktop to 
now laptop to mobile device. And so we need to be planning for 
the future as to what our needs are going to be. These are the 
types of things that we focus on. We work with this committee 
and the Committee on House Administration to come up with 
innovative solutions and cost reduction measures.
    And with that, Mr. Chairman, I am happy to answer any 
questions you may have.
    [The prepared statement of Mr. Strodel follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
         Opening Remarks--Clerk of the House of Representatives

    Mr. Alexander. We will get to that in a moment. Thank you. 
Ms. Haas.
    Ms. Haas. Well, thank you, Chairman Alexander and Ranking 
Member Wasserman Schultz, for the opportunity to testify here 
today before the subcommittee. And I am pleased to update the 
subcommittee on activities within the Office of the Clerk since 
I testified before you last year.

                   ONGOING PROJECTS--PROGRESS REPORT

    Over the past year, the Clerk's office has continued to 
play an important role in the House-wide effort to increase 
transparency in the legislative process. As directed by this 
subcommittee, a Bulk Data Task Force was established last year, 
which was chaired by the Clerk's Office. The task force met 
regularly with key stakeholders to examine the feasibility of 
increasing dissemination of congressional information via bulk 
data download. The task force completed its initial report and 
filed the report. However, we continue to meet regularly and to 
expand on the initial efforts that have resulted in access to 
House bill text and summaries of House floor proceedings in 
bulk download.
    This January, we launched the second phase of our 
docs.house.gov initiative. The first phase of this project 
provided a single Web portal to access the text of bills that 
were scheduled for the House floor. The second phase expanded 
the Web portal to include committee documents. It is a one-stop 
shop for the public to come and see what is going on in 
committees and meetings and hearings. We appreciate the 
cooperation of all the committees as we developed and deployed 
this site.
    I am also pleased to report that in collaboration with the 
House Historian, we launched the History, Art, and Archives Web 
site, another major transparency initiative. The art, 
artifacts, historical information, primary documents, and 
research resources that are now able to be made available 
through the Web site will be invaluable to researchers and 
educators.
    Over the past year, we have also been busy working to 
implement the STOCK Act. Member and candidate financial 
disclosures were made available in 2012. That was in the fall 
of 2012. The next major requirement is to develop and deploy an 
electronic filing system. The system must allow the public to 
search, sort, and download data contained in these reports. Our 
Web development team has been working closely with the 
Committee on Ethics. And we are also collaborating with our 
partners in the Senate and the Office of Government Ethics on 
this. I want to assure the subcommittee that we are dedicating 
our resources to make sure that this is a successful effort.

                    THE CLERK'S 2014 BUDGET REQUEST

    In fiscal year 2014 we are requesting $24,009,000 to carry 
out our operations. Assuming enactment of the funding levels in 
H.R. 993, this is $2.1 million less than current budget 
allocations, an 8.1 percent budget reduction from fiscal year 
2013. In this challenging budget climate, we continue to look 
for savings and efficiencies. Recently, the House library was 
expanded to include additional print and online research tools. 
We believe this will be a cost savings for the House community 
for Members and committees. We will continue to look for other 
ways to provide services at lower costs.
    I want to thank you for your time today. I look forward to 
working with the subcommittee. And I will be happy to answer 
any questions.
    [The prepared statement of Ms. Haas follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [The December 31, 2012 Bulk Data Task Force report 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                   Opening Remarks--Sergeant at Arms

    Mr. Alexander. Thank you. Mr. Irving.
    Mr. Irving. Good morning, Mr. Chairman, Ranking Member 
Wasserman Schultz, and members of the committee. I appreciate 
the opportunity to appear before you today to present the 
Sergeant at Arms request for fiscal year 2014. Before I begin, 
I would like to say that as Sergeant at Arms, it is indeed a 
unique privilege and honor for me to serve this institution, 
and I look forward to working with you and members of the 
committee. In the current fiscal environment, our office is 
acutely aware of the need to operate within tight fiscal 
boundaries. Our request has been crafted in the spirit of zero-
based budgeting, where each division identified cost savings 
without jeopardizing the mission critical services provided to 
the House community.

               113TH CONGRESSIONAL TRANSITION ACTIVITIES

    My full testimony, which I have submitted for the record, 
contains my fiscal year 2014 budget request. In terms of 
ongoing efforts and initiatives, every division in the office 
of the Sergeant at Arms was recently involved in the transition 
to the 113th Congress. This includes the distribution of new 
Member identification pins and license plates, processing of 
approximately 14,000 congressional identification badges, and 
issuing over 7,000 parking permits to all authorized vehicles.

                113TH CONGRESS HOUSE SECURITY ACTIVITIES

    Furthermore, the employees of the Sergeant at Arms have 
supported, reviewed, and approved the security procedures for 
numerous special events, including the opening session of the 
113th Congress, joint session of the Electoral College, the 
57th Presidential Inauguration, and the annual State of the 
Union Address by the President. Support was also provided off-
site to several issues retreats and the National Prayer 
Breakfast. Planning is currently underway for the annual Peace 
Officers Memorial Service and upcoming events on the west front 
lawn of the campus.
    In closing, I would like to thank the committee again for 
their support and the privilege of appearing today. I assure 
you of my commitment and that of my entire office to provide 
the highest quality support for the House of Representatives, 
while maintaining the safest and securest environment possible. 
We will remain focused on security and preparedness, while 
maintaining the level of fiscal responsibility demanded by the 
House of Representatives. I will continue to keep the committee 
informed of my activities, and will be happy to answer any 
questions you may have. Thank you.
    [The prepared statement of Mr. Irving follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                             THE STOCK ACT

    Mr. Alexander. Thank you. Ms. Haas, you talked about the 
STOCK Act, and having the ability at some point to have all 
that displayed electronically.
    Ms. Haas. Yes, sir.
    Mr. Alexander. Has the public called much about it? Have 
you had many inquiries as to what Members of Congress are 
buying and selling?
    Ms. Haas. We have not had a lot of those types of calls. 
But that information has been up for a while for the Member 
side. The candidate information became available in September. 
But at this point we have not had a lot of inquiries about 
that.

                INFORMATION TECHNOLOGY SECURITY EFFORTS

    Mr. Alexander. Okay. Mr. Strodel, you talked about 
protection of IT. Do you have any level of confidence that you 
will be able to detect anything that is on the outside that 
might be coming in to a Member's office?
    Mr. Strodel. That is right, Mr. Chairman. 2008 and 2009 was 
a growing period for CAO and learning about the critical nature 
of protecting the House infrastructure and the House network. 
GAO had a recent study of Federal Government agencies. And in 
the past 6 years, security incidents, IT security incidents 
have increased 782 percent, 782 percent Federal Government-
wide, Mr. Chairman. In the House in the last year, security 
incidents have increased 60 percent.
    We have an information security obligation to protect the 
House network, to protect the Member Web sites that use our Web 
vending. And that is what, frankly, is our biggest worry, that 
is why we spend our most time making sure that we can deliver 
and protect our network. So it is my biggest concern. The 
reputation of all the Members from their public-facing Web page 
is critical. It is the number one thing that we focus on.

                HOUSE SECURITY AND THE SERGEANT AT ARMS

    Mr. Alexander. Paul, you have been on your job 14 
months.What have you observed or what is the number one thing 
that you have observed that you would like to change to make 
life a little bit better for all of us?
    Mr. Irving. Well, I would first, Mr. Chairman, have to say 
that in the 14 months I have been here I have been very 
impressed with what I have seen with the security procedures 
implemented by the U.S. Capitol Police, not only procedurally 
but administratively. I think they do a great job balancing the 
need to keep a secure environment, and a secure campus with the 
openness to the public is an ongoing challenge. Capitol Police 
does a great job, but that is one area certainly where I would 
spend most of my time, again, in ensuring an open and 
accessible campus, but at the same time one that is safe and 
secure for Members, staff, and visiting general public. So it 
remains an ongoing issue.

         CURRENT AND FUTURE EFFECTS OF SEQUESTRATION REDUCTIONS

    Mr. Alexander. Okay. Ms. Wasserman Schultz.
    Ms. Wasserman Schultz. Thank you, Mr. Chairman. Continuing, 
Mr. Strodel, with the theme of quality of life, if the 
sequester is not overturned, how are you going to deal with 
long-term funding reductions in 2014 and 2015, and do you have 
a buyout plan to reduce FTEs? I mean how are you planning to 
deal with that?
    Ms. Wasserman Schultz. Hopefully you won't have to.
    Mr. Strodel. Right. As I mentioned a little earlier, we 
have been in this budget environment for a couple years now, 
and we have been looking not how can we get through one fiscal 
year, but how can we be prepared for the next several with the 
assumption that it is not going to be rosy.We had a major 
reorganization in 2011, collapsed some function and reduced 
personnel by 5 percent. I had to let people go.
    Ms. Wasserman Schultz. How many?
    Mr. Strodel. It was 5 percent positions, that ended up 
being 35 positions of which 22 were encumbered.That is the 
reality of it. But if we have to do that, my position is you 
have got to look at your entire organization. What is the 
mission that you are charged with? And then how can you best 
accomplish that? Again, I didn't just say, well, okay, let's 
get rid of X or Y function. How is it going to impact the 
community when we make these decisions and, even more 
importantly, the individuals ultimately who I had to tell were 
no longer going to be employed?
    So with that, looking down the road into 2013 and now 2014, 
we are in a position now, because of our planning, because of 
zero-based budgeting, where we presumed it was going to be a 10 
percent reduction. If it is less, that is great. And we still 
are in a position for fiscal year 2013 where I don't believe we 
are going to have to furlough employees unless there are 
further reductions. But as we roll into 2014 and 2015, our 
personnel costs increase even if our budget stays flat. If it 
goes down, we are going to be in a position where I think we 
are going to need to look at buyouts, as you call it, the 
voluntary separation incentive program, and hopefully position 
us for, again, these outyears, 2014 and 2015 where we don't 
necessarily have to make personnel reductions. But I don't 
think we are in a position to actually say we can. And I think 
buyouts are on the table.

                          HOUSE BUYOUT OPTIONS

    Ms. Wasserman Schultz. And obviously in a buyout situation 
we are targeting the most experienced staff who make the most 
money. And you are not making decisions based on the quality of 
the work or the experience that you need. You are just cutting, 
you are shedding salary and benefits.
    Mr. Strodel. Yes, that is correct. In the buyout authority 
that is provided to the legislative branch entities, you have 
to develop a plan and submit that plan in this case to the 
Committee on House Administration for approval. You indicate 
the billets or the positions and the functions you are 
considering. But yes, without regard to performance.

               LEGISLATIVE BRANCH RETIREMENT PLAN CHANGES

    Ms. Wasserman Schultz. So in that same line of questioning, 
the budget request for the House highlights a change that we 
made to Federal workers benefits, retirement benefits in the 
Middle Class Tax Relief and Job Creation Act of 2012, which I 
will note, Mr. Chairman, that I actually voted for, but not 
because of this provision. The act required new executive 
branch employees to pay 2.3 percent more out of each check for 
their retirement benefits. And new congressional staff not only 
pay more, but see their retirement benefits reduced by more 
than 5 percent.
    Do we expect a rash of retirements as a result of this 
change? And how do we expect to attract high quality personnel 
and staff in a very competitive environment in light of that 
change? And given that these are going to be complex changes, 
is Personnel and Benefits prepared to handle more complex 
questions from staff as the law that is affecting personnel and 
benefits evolve in these significant changes? And how are you 
going to deal with that if you are also faced with potentially 
buying out your most experienced staff?
    Mr. Strodel. Well, Ranking Member Wasserman Schultz, the 
point about recruiting and retaining employees here in the 
House, is significant. And I think that all of us could say our 
budgets are primarily personnel, whether it is in the officer 
corps or the officials or the Member offices. And that is what 
makes the place run. As you mentioned in that statute that was 
passed last March, or February and March, it created a new 
category of retirement for Members of Congress and 
congressional staff. But it had a grandfather provision. So 
what it said was that effective January 1, 2013, and after, any 
new Member and any new staff member would now be under the 
Federal Employees Retirement System, but they would be 
considered a Federal Employee Retirement System RAE, revised 
annuity employee. Starting January of this year any new Member, 
not current Member, and any new employee, not current employee, 
would be under this new retirement status. And as you 
referenced, the contribution is higher.
    Current Members and staff who were on the payroll prior to 
January 1, 2013, contribute 1.3 percent of their pay to the 
retirement system. This new category of Member and staff 
contribute 3.1 percent. So you are correct, their contribution 
each pay period has increased. In addition, the actual 
retirement benefit formula for this new category of employees 
is less. For example, under someone who is not covered by it, 
that is anyone who was here prior to January 1, 2013, our 
retirement contribution is 1.3 percent and our calculation is 
going to be higher.
    Let me give you a quick example. If someone had 20 years of 
service here and was eligible to retire as a FERS employee, it 
would be 1.7 percent per year, so 20 times 1.7, that is 34 
percent. I would get 34 percent of my salary or high three. A 
revised annuity employee, that is a new employee or new Member 
starting January 2013 or later, take that same 20 years, now 
they are going to get only 1 percent for each year of service. 
That is 20 percent after 20 years versus 34 percent of the high 
three. So that is a significant reduction in the retirement 
benefit that employees covered under this new provision would 
be in.
    Ms. Wasserman Schultz. Do you expect it to impact our 
ability to retain staff?
    Mr. Strodel. I think because of the grandfathering, it 
hasn't created a rush to retire. But I think it remains to be 
seen. We have over a thousand new employees who are FERS RAE 
employees. I don't think people have left because of it. I 
still think it is an attractive place to work and a dynamic 
environment. It may be too early to tell if it is having an 
impact.

               EFFECTS OF SEQUESTRATION ON HOUSE SECURITY

    Mr. Alexander. Mr. Moran.
    Mr. Moran. Thanks, Mr. Chairman. I heard on WTOP this 
morning that there was the police union was complaining about 
reduction of security at the daycare center. It was one Capitol 
Police officer who was going to be replaced by a contract 
person. Why do these issues become such a big deal that they 
need to be placed alongside, you know, the threat of nuclear 
strikes from Iran and the installation of the Pope? Tell me 
where that stuff comes from.
    Mr. Irving. I think I can address that. There were some 
changes that you are probably aware of that took effect after 
sequestration. Some posts were reduced. There were several 
posts also reduced at the Ford Building. The report that--
civilian employees would be taking the place of law enforcement 
is not accurate. I think that there was just an initial 
perception. Discussions are ongoing now, very collaborative 
discussions between the union and the Capitol Police. So I am 
happy to report that that relationship is ongoing and going 
well. Unfortunately, just some initial misperceptions at the 
front end. But nonetheless, no civilians will replace armed law 
enforcement positions. The Capitol Police officer at the 
daycare center has remained. So there has been no change there. 
There is just one minor effect with the Ford garage and the 
Third Street entrance.
    Mr. Moran. As you know, perceptions sometimes have their 
own reality. What do you do when you find something like that, 
a major story has been made out of a minor story, if even that? 
What do you do about that?
    Mr. Irving. We just continue to collaborate with the union 
and all those other entities and stakeholders.
    Mr. Moran. All right. I feel like I am talking with the 
State Department and diplomacy. Okay, I am not going to get 
anything out of you. Thanks, though.

         REQUESTED FY'14 INCREASE FOR THE HOUSE SECURITY OFFICE

    Let me ask why there is an increase of 5,000 percent in the 
House Security Office. We are cutting back. Why are we creating 
a new office? And how essential is this to spend $254,000.
    Mr. Irving. That increase is due to an anomaly in that we 
need to upgrade all of the databasing and inventorying and case 
management of all of those House employees that hold security 
clearances. So it is just an anomaly this year. The House 
Office of Security has been charged with ensuring that all 
House officers maintain their clearances, and that the 
clearances are passed from the executive branch to the 
legislative branch. That is just a databasing and inventorying 
procedure which, again, was an anomaly for this coming year.
    Mr. Moran. Well, I hear what you are saying, but it is not 
consistent with the budget justification, which says this 
requested increase of $254,000 will fund contract services such 
as E-learning, which will produce a security refresher course 
and training package, will also provide upgrades to the storage 
of documents. I don't know, that seems like a questionable time 
when you are cutting back on Members' allowances and other 
items for a security refresher course for $254,000. But I won't 
pursue that. It just seems quizzical. What is going to be the 
MRA for this year?

                2013 MEMBERS' REPRESENTATIONAL ALLOWANCE

    Mr. Strodel. The reduction was 8.2 percent. And it averages 
about--of course the MRA depends upon where you live, where 
your district is. Eight point two percent is the reduction.
    Mr. Moran. Let's take the minimum, since I get the minimum. 
Here is that big boss on the Democratic side.
    Mrs. Lowey. My goodness, my goodness.
    Mr. Moran. And Sanford. Holy smokes. This is very 
impressive.
    Mrs. Lowey. We know where the power is on this committee.
    Mr. Moran. We were just talking about the MRA allowance, 
and trying to--so let's assume that, I don't know, you can use 
somebody else's if you want. I assume I get the least because I 
travel the least distance, huh?
    Mr. Strodel. I wouldn't say the least.
    Mr. Moran. Eleanor gets less maybe?
    Mr. Strodel. It is close.
    Mr. Moran. What does it work out to?
    Mr. Strodel. Well, it is 8.2 percent. And the Committee on 
House Administration will be notifying each Member office 
specifically.
    Mr. Moran. I am trying to figure out how much is the cut so 
that people can figure out how to budget for this year. I mean 
if it is a $100,000 reduction in your MRA, you really need to 
start preparing with a staff change, for example. That is a 
whole person. And we have less and less time as time goes on to 
be able to make those accommodations in MRA.
    Mr. Strodel. Yes, sir. And the Committee on House 
Administration put out guidance to committees and Members at 
the end of last year and the beginning of this year, not 
knowing a number yet, but just putting a notice out to expect 
it. I recall I think it was around 10 percent they said to 
expect, and it came out to be 8.2 on the MRA. Roughly $100,000. 
To the extent you need a hard number, I would rely on our folks 
to work with your finance person.
    Mr. Moran. All right. Well, I gather most people get about 
a million dollars.
    Mr. Strodel. In the past, one point three was the average.
    Mr. Moran. One point three million dollars. Okay. And so it 
would be roughly on average an 8 percent reduction from that, 
which would come to about----
    Mr. Strodel. Correct.
    Mr. Moran [continuing]. $95,000 or something like that. All 
right. I guess that is about as much as we can get out of what 
we have to work with here, so I will give it back, Mr. 
Chairman.

                 ELIMINATION OF DUPLICATION IN SERVICES

    Mr. Alexander. Okay. Mr. Valadao.
    Mr. Valadao. Good morning. Thank you, thank you, Mr. Chair. 
Not only do we need to eliminate duplication within each office 
and departments, we also need to eliminate duplicative efforts 
across different legislative branch offices. For example, on 
the first page of your testimony you reference your Web site 
docs.house.gov and your effort to expand the site by including 
committee records in addition to text of bills to be considered 
on the House floor on the site. Is this the same information 
provided on sites such as LIS.gov? If so, how can you reduce 
duplication among different offices of the legislative branch?
    Ms. Haas. Sure. It actually is not duplicative. To step 
back a little bit, at the beginning of last Congress, the 
initiative here in the House was to provide more of this 
information to Members in a quicker and easy format. So that is 
why the first phase of this was rolled out, so Members and 
committees would have information posted by the Majority Leader 
and the House Rules Committee prior to bills going to the 
floor. Phase two of the committee process we don't have one--we 
currently now with this phase have a one-stop shop where folks 
can go. We have a consolidated calendar where you can go and 
find all committee hearings and meetings, posted testimony, 
official hearing information.
    So one of the outcomes of the task force that this 
subcommittee instructed us to put into place last year was that 
we now do have a coordinated effort out of this task force, so 
we are coordinating with all of our other legislative entities 
like GPO, the Library of Congress, and some of the other 
customers and partners that are here in the room today.
    Mr. Valadao. All right. Thank you.

                     DEFENSE OF MARRIAGE ACT (DOMA)

    Mr. Alexander. Okay. Ms. Lowey.
    Mrs. Lowey. Well, thank you very much. Thank you, Chairman 
Alexander, Ranking Member Wasserman Schultz for holding this 
hearing. I want to join my colleagues in thanking the witnesses 
for your testimony this morning. And I appreciate the 
opportunity to hear about your agencies' needs, which is so 
crucial to the effectiveness of the Congress.
    I know we can all agree on the effects of sequestration 
that are already being felt on Capitol Hill. And I am very 
concerned about the impact that these indiscriminate cuts will 
have on the security and operations of the House of 
Representatives. And at a time when other legislative branch 
agencies are forced to furlough employees or reduce services, 
it is both disappointing and frankly perplexing that $3 million 
in taxpayer money is going towards the protection of the 
Defense of Marriage Act. Three million dollars. A law that 
multiple Federal courts and appellate courts have determined is 
unconstitutional. I myself find it unconscionable that we would 
legislate discrimination. And I cannot condone the use of 
taxpayer dollars to defend a discriminatory law at any time, 
especially when these senseless cuts have placed an even 
greater burden on the operations and effectiveness of this 
Chamber.
    Now, can you share with us what other priorities could your 
office address if it were not tasked with the partisan effort 
to defend a discriminatory law that neither the President nor 
the American public supports?
    Mr. Moran. Heck of a question.
    Mr. Alexander. And we need to be reminded that is under 
litigation now. And like Ms. Wasserman Schultz said, soon, very 
soon we should get a decision by the courts. So we need to be 
careful about what we say. But Ms. Lowey, was that a question 
for Karen?
    Mrs. Lowey. Whoever chooses to answer.
    Ms. Haas. I can tell you from our perspective, the budgets 
are tight, they have been tight for a significant period of 
time. And we have continued to work to cut costs. So at this 
point we are not seeing a particular impact from one particular 
type of cut from our budget. So we are able to focus on the 
core responsibilities that we have under the budget allocation 
that we have received.

        EFFECTS OF THE SEQUESTRATION ON HOUSE SECURITY CONTINUED

    Mrs. Lowey. I won't press you further. Maybe I will ask 
another question. And Mr. Irving, I would like to commend you 
on the outstanding work that the Sergeant at Arms does. You 
keep our workplace secure and prepared for emergencies. And we 
are all grateful. And I understand that budget cuts will 
require staff vacancies to remain unfilled, and reductions in 
the purchase of communication technologies. Did you all before, 
and I apologize that I was late, but if you didn't answer that, 
can you describe to us what effect sequestration will have on 
House security?
    Mr. Irving. We have had some discussion on that. But in 
terms of security, we are very careful to balance security 
needs of the House. And there has been no effect on security 
itself. The effect primarily is on the business process of the 
House, which again we are very mindful not to have an adverse 
effect on. But there has been some lack of convenience, 
unfortunately, because of some of the closures and things. But 
in terms of security, there has been really no effect. In terms 
of my office personally, we have been able to get by with just 
a reduction in staff, and no effect, again, on security 
operations.
    Mrs. Lowey. You talk about convenience. Give me an example.
    Mr. Irving. Longer lines at some doors, for example. 
Everyone has been adapting quite well by using alternative 
entrances and allowing a little bit more time. But 
unfortunately, when you have to close one door it would 
increase the load at another door. So that is one example.

                     WEEKLY HOUSE OPERATIONAL COST

    Mrs. Lowey. What is the cost, by the way, to keep the House 
operating, the House of Representatives, for a week?
    Mr. Irving. In terms of security or in terms of----
    Mrs. Lowey. Everything.
    Mr. Irving. Oh, everything? That is certainly a broader 
question. I would probably have to ask my colleagues for some 
help on that one. I don't think I could give you an entire 
answer on that.
    Mrs. Lowey. I just wonder, Mr. Chairman, because there are 
days when we have one vote or maybe two votes for the week. And 
I sometimes think maybe we would be better having us stay home 
and work with our constituents and solve their problems. So I 
would be interested in knowing that number, what it costs to 
operate.
    Mr. Irving. We can certainly get that for you. There is 
certainly a difference in the security operations when the 
House is in session. Much more posting and presence versus when 
the House is not here on recess. But we can certainly provide 
that to you directly.
    Mrs. Lowey. I would be interested in those numbers.
    Mr. Irving. Absolutely.
    Mrs. Lowey. Thank you very much.
    Mr. Alexander.

                       DISTRICT OFFICES' SECURITY

    Mr. Bishop.
    Mr. Bishop. Thank you very much. Let me thank the witnesses 
for being here. And I apologize, I had another meeting prior to 
coming. I have got questions for Mr. Irving as well as for Ms. 
Haas. Your testimony, Mr. Irving, indicates that you have 
undertaken a number of efforts to improve district office 
security, including guidance on best practices, coordination 
with State and local law enforcement, and congressional offices 
creating a law enforcement coordinator. My concern is that with 
the MRAs being cut by nearly a fifth since 2011, it is becoming 
increasingly difficult for Members to make the necessary 
security adjustments at our district offices with the 
increasingly limited resources.
    Can you tell the subcommittee how the sequester and the 
budget cuts have impacted Members' efforts to bolster their 
district office security? Could you put it in the context of 
the threat assessments that your office has very helpfully 
given to us to provide security to protect our constituents, 
our staff, as well as the Members at district events?
    Mr. Irving. Absolutely. We spend quite a bit of time with 
district offices to ensure, as you indicated, that they follow 
all the processes, procedures not only for the office itself, 
but also when the Member has public appearances in district. So 
quite a bit of liaison time is spent there, also in terms of 
Capitol Police in terms of threat assessments. Any time the 
Member or the office receives a threat or someone who has 
directed an interest toward that Member. The effects of the 
latest fiscal climate certainly have been greater, far greater 
interaction between our office and Member offices, and also 
with local law enforcement to ensure that local law enforcement 
provides as much support as possible to the district office. 
Certainly there is an effect in terms of the infrastructure, 
the security infrastructure of the office, which I think is 
affected, by our current, fiscal issue. But we do everything 
that we can to work with that office so that they also receive 
assistance from their landlords to provide whatever security 
enhancements they can to their respective office.
    Mr. Bishop. As I mentioned last year before the 
subcommittee, your counterpart in the Senate has a little more 
flexibility than you have, and has a budget which is available 
for the use of Senators to do upgrades for security. We were 
trying to explore how we could do something similar in the 
House to help Members defray the costs of the infrastructure 
needed for district office security. To date, we have not been 
able to do anything. Still, the Senate is a model that we could 
use. Of course there are only a hundred Senators and there are 
435-plus House Members. But it would appear that the Sergeant 
at Arms office could make security determinations and 
contribute a certain amount to each office as needed to help 
defray the cost of that security. Rather than have that go 
directly to the Member, it seems as if that, similar to what 
they have in the Senate, the funds could go to the Sergeant at 
Arms and the Sergeant at Arms could then decide how much is 
needed to provide those security upgrades.
    Mr. Irving. It is certainly a challenging issue here. As 
you know, our side versus the Senate side, we have over 900 
district offices and they have certainly a fewer number. It is 
a far greater challenge, but certainly something to explore. 
But again, in the current fiscal environment it is a challenge 
with the number of offices we have.
    Mr. Bishop. Since the incident with Representative 
Giffords, I feel like we have an obligation to our colleagues 
to make sure that there is district office security and that 
they have the resources available, although we are in a limited 
fiscal environment here, to make sure that our constituents, 
our staff, and the Members are safe in district.
    Mr. Irving. Yes, sir.
    Mr. Bishop. Okay.
    Mr. Alexander. Ms. Wasserman Schultz?

  DOMA AND THE HOUSE'S STANDING TO DEFEND THE ACT'S CONSTITUTIONALITY

    Ms. Wasserman Schultz. Thank you, Mr. Chairman. My question 
is of the General Counsel, Mr. Kircher. Do you want to join the 
table?
    Mr. Kircher. Certainly. Where would you like me to sit?
    Ms. Wasserman Schultz. That is up to you. Mr. Kircher, the 
House rules package passed in January 2013 authorized the 
Bipartisan Legal Advisory Group of the 113th Congress to act as 
the successor to the same group in the 112th Congress and 
defend the constitutionality of section 3 of the Defense of 
Marriage Act. The rules of the House go on to specifically 
mention Windsor v. The United States, the DOMA case going 
before the Supreme Court later this month. When the Court 
agreed to hear the Windsor case in December of 2012, the Court 
raised the question of the House's standing to defend the act's 
constitutionality.
    Mr. Kircher, in February of this year the House's brief to 
the Court explaining why you had standing to act in this case 
pointed to the House rules package for the 113th. So that begs 
the question was DOMA added to House rules due to the Supreme 
Court's questioning of the House's standing to act in this 
case.
    Mr. Kircher. Are you asking whether the Supreme Court's 
order in December had an impact on the appearance of DOMA in 
the rules package?
    Ms. Wasserman Schultz. I am asking whether the question 
over the House's standing caused you to add the House's 
standing in the 113th rules package.
    Mr. Kircher. Well, I personally didn't add anything.
    Ms. Wasserman Schultz. Well, obviously, the House of 
Representatives did.
    Mr. Kircher. Correct.
    Ms. Wasserman Schultz. But was the language in the House 
rules in the 113th Congress specifically referring to DOMA in 
response to the Court's questioning of whether the House had 
standing in the case?
    Mr. Kircher. Yes, I think it is fair to regard section 4 of 
that resolution as being at least in part a response to the 
question that the Supreme Court had included in its grant of 
cert. in December.
    Ms. Wasserman Schultz. So since this was a rules change in 
the 113th, and based on your answer, what gave you standing to 
defend DOMA during the 112th Congress?
    Mr. Kircher. You have our brief. You know the arguments. 
They are set out in the brief in detail.
    Ms. Wasserman Schultz. Except I would like the answer for 
the record, please.
    Mr. Kircher. Okay. In the early 1980s, the House by 
resolution authorized then-Speaker Tip O'Neill to speak on 
behalf of the House in a case called Chadha, which was then on 
its way to the Supreme Court. The Speaker intervened. Chadha 
held that the House had standing to appear in that case by 
virtue of Speaker Tip O'Neill's appearance. And thereafter, in 
about 1983 or 1984, the leadership of the House on a bipartisan 
basis formed this 5-member leadership group that continues to 
exist today for the purpose of litigating on behalf of the 
House, either as intervenor or as amicus as the case may be, 
without the necessity of going to the floor of the House for a 
vote. The House did that. The leadership group carried out that 
function throughout the 1980s. It appeared as amicus--I am 
sorry, it appeared as an intervenor in a number of clashes 
between the executive branch and the legislative branch during 
that period of time. There was never any vote in the House 
during any of those times or any issue raised on the floor of 
the House to rescind the authority of the leadership group to 
do that. There was never any challenge in the courts to the 
leadership group's ability to do that.
    Ms. Wasserman Schultz. But just because there hasn't been 
any challenge doesn't mean that it was a right or that we had 
the authority as the House of Representatives to intervene.
    Mr. Kircher. It is certainly an argument in support of that 
position. In 1993, the House amended its rules, rule II.8, 
dealing with the Office of the General Counsel, and mentioned 
for the first time the bipartisan leadership group in 
connection with that office, the office that I now head. And 
thereafter, between that time and the time of the DOMA cases 
the House--the leadership group--did not intervene in any 
cases, but it did appear as amicus in a number of cases. And in 
none of those cases was any issue raised as to the House's 
standing.
    There were in that period of 19--in the early 1990s--there 
were a couple of resolutions, privileged resolutions taken to 
the floor of the House questioning and raising issues as to 
actions that the leadership group had taken in litigation. This 
is under rule IX, I believe it is, the privileged resolution 
rule. One of those resolutions was sustained and another one 
was tabled, making it very clear that the House knows how to 
question and raise issues as to the leadership group's 
litigation decisions if it wishes to do that. There was no such 
challenge during the 112th to any of the actions taken by the 
bipartisan group in any of the DOMA cases.
    And so if you couple all of that together with the language 
in H. Res. 5 about the House confirming the authority of the 
House--of the leadership group--to litigate on behalf of the 
House, that in essence is the package of arguments that we have 
presented to the Supreme Court as to why the leadership group 
has standing and has had standing throughout the DOMA 
litigation.
    Ms. Wasserman Schultz. Was the creation of the leadership 
group, was its purpose originally, or has it ever been used in 
the way that the Republican leadership has chosen to use it, 
wherein the Department of Justice declines to continue 
defending a particular law and the House has substituted itself 
as an intervenor?
    Mr. Kircher. Yes.
    Ms. Wasserman Schultz. In how many cases?
    Mr. Kircher. There were roughly a dozen such cases in the 
1980s.
    Ms. Wasserman Schultz. And in those cases the question of 
whether the House had standing has not come up?
    Mr. Kircher. It was not raised in the courts presumably in 
light of what Chadha held in 1983.
    Ms. Wasserman Schultz. But it has been raised by the courts 
and you----
    Mr. Kircher. In this case.
    Ms. Wasserman Schultz. And your testimony here is that the 
reason that you inserted that language in the rules in the 
113th was in response to the question from the Court.
    Mr. Kircher. Again, I didn't insert anything.
    Ms. Wasserman Schultz. That it was inserted. I realize that 
you didn't personally insert it.
    Mr. Kircher. It certainly was in part a response to the 
Supreme Court's order, yes.
    Ms. Wasserman Schultz. So was that an attempt for you to 
give the House standing after the fact? By you I mean----
    Mr. Kircher. Ranking member, you are getting very close to 
questioning me about matters on which I gave advice to the 
leadership, which I consider privileged, attorney-client 
privileged. I am a little nervous about getting into those 
areas.
    Ms. Wasserman Schultz. Okay, well close is not right on, 
so----
    Mr. Kircher. Okay. Right on. I am not comfortable with 
discussing advice that I gave to the leadership on this issue.
    Ms. Wasserman Schultz. I will take that as a yes, Mr. 
Chairman. Thank you.

              DOMA AND THE HOUSE'S $3 MILLION FUNDING CAP

    Mr. Alexander. Okay. Mr. Moran.
    Mr. Moran. Thanks, Mr. Chairman. Well, I was going to ask 
about some mundane stuff like why the leadership offices get 
more than $100,000 for newspaper subscriptions when we have to 
pay it out of our own MRA budget, but that seems a little too 
mundane in light of the issue we are talking about here.
    Ms. Lowey, that was not an annual cost.
    Mrs. Lowey. Three million.
    Mr. Moran. Three million not annually. Total?
    Mrs. Lowey. It was my understanding----
    Mr. Moran. Annually.
    Mrs. Lowey. I am not sure if it is annually or total.
    Mr. Moran. How much have we spent on this DOMA defense?
    Mrs. Lowey. Is that correct, am I correct that it is $3 
million annually?
    Mr. Kircher. No.
    Mrs. Lowey. Oh.
    Mr. Kircher. The contract authorizes a cap up to $3 
million.
    Mr. Bishop. It was a cap. I think Congress raised it to $3 
million.
    Mr. Moran. We raised it to 3?
    Mr. Bishop. Yes.
    Mr. Moran. We did?
    Mr. Bishop. Didn't we raise it to $3 million last year?
    Mr. Moran. It just seems like an awful lot of money. How 
has that $3 million been spent. What is the hourly legal fee 
then, $3 million?
    Mr. Kircher. To date only $1.6 million has been paid.
    Mr. Moran. But you are authorized to spend another $1.4 
million. Has there been time before the Court that that is paid 
for?
    Mr. Kircher. I beg your pardon?

            THE NUMBER OF HOUSE DEFENDED DOMA CASES TO DATE

    Mr. Moran. I just can't visualize where that $1.6 million 
went even. What have we gotten out of it?
    Mr. Kircher. There have been 15 DOMA cases that we have 
litigated around the country in the last 2 years.
    Mr. Moran. Fifteen DOMA cases. So this is challenging a 
State who wants to depart from DOMA?
    Mr. Kircher. No, no.
    Mr. Moran. Then what are you doing?
    Mr. Kircher. These cases involve individual plaintiffs, 
typically gay couples who have been married under the laws--
legally married under the laws of their State, some in 
California, some in New York, some in other northeastern States 
that permit gay marriage, and they bring suit in court saying 
that under Federal law they are being denied Federal benefits 
that would otherwise accrue to opposite sex couples. Some of 
these are immigration cases, immigration benefits as in a green 
card for a foreign spouse. Some are insurance benefits, if you 
have an employee, a Federal employee who is married to a same 
sex person and that same sex person is not getting insurance 
benefits because of the marriage not being recognized for 
purposes of Federal law. In the case of Ms. Windsor it is an 
estate tax that she had to pay that she would not have paid had 
she been married to a person of the opposite sex. Those are the 
contexts in which these cases arise.
    Mr. Moran. So these cases arise and then we the Congress 
come riding in opposing their ability to have that litigated in 
the State court, huh, or a Federal court?
    Mr. Kircher. No, we are not opposing their ability to 
litigate. They are coming in and challenging the 
constitutionality of the statute and we are defending the 
constitutionality of the statute.
    Mr. Moran. How much does the lawyer charge to do that on an 
hourly basis?
    Mr. Kircher. The contract provides for a blended rate of 
$520 an hour.
    Mr. Moran. $520 an hour. And how many lawyers are we 
speaking about?
    Mr. Kircher. We are talking the outside law firm, there are 
four lawyers that are working on this matter and there are also 
six lawyers in my office that are also working on this matter.
    Mr. Moran. Six lawyers in your office.
    Mr. Kircher. Who participate in the litigation, yes.
    Mr. Moran. And then who is the outside law firm?
    Mr. Kircher. Bancroft PLLC, the principal attorney is a 
gentleman named Paul Clement.
    Mr. Moran. Paul.
    Mr. Kircher. Clement.
    Mr. Moran. And, wow----
    Mrs. Lowey. If I could.
    Mr. Moran. Well, yes, if it is okay with the chairman. I am 
just kind of a little stunned that where we are cutting back on 
everything else and here we are getting ourselves involved in 
these cases all over the country, clearly on the wrong side of 
history I might say.
    But is it okay to yield to the ranking member of the full 
committee, Mr. Chairman?

                     QUESTIONS RAISED BY DOMA CASES

    Mrs. Lowey. Mr. Chairman, just for clarification you said 
the Speaker, majority leader, majority whip, minority leader, 
minority whip. Does it have to be unanimous or majority rules?
    Mr. Kircher. Majority rule.
    Mrs. Lowey. That is what I thought.
    Mr. Moran. So these are probably party line votes and off 
we go getting involved in----
    Mrs. Lowey. States rights.
    Mr. Moran [continuing]. States rights.
    Mr. Kircher. If I could clarify.
    Mr. Moran. Yes, please clarify.
    Mr. Kircher. The decision was made in March of 2011, so the 
decision was taken a very long time ago. It is not a question 
of States rights. These cases do not raise the question of 
whether States are obligated to permit same sex couples to 
marry. That issue is before the Supreme Court in a separate 
case, Hollingsworth, it is the Prop 8 case. That case will be 
heard in the Supreme Court on March 26th next week. And the 
Windsor case which involves the constitutionality of DOMA will 
be heard in the Supreme Court on March 27th. So it is likely 
that we will have an answer to both of these questions by the 
end of June and this will be behind us.

              OUTSTANDING DOMA COSTS AND POSSIBLE SAVINGS

    Mr. Moran. And we would save the $1.4 million that for some 
reason we authorized.
    Mr. Kircher. Well, I expect--I have not had bills since the 
end of October, so I expect there will be more bills and some 
of that will have to be paid.
    Mr. Alexander. We certainly hope we will get an answer 
soon.

                           SUBSCRIPTION COSTS

    Mr. Moran. Okay, Mr. Chairman. I was curious over this, I 
just feel so silly now raising this. Why do all the offices pay 
for their owns newspaper subscriptions and the leadership gets 
more than $100,000 for their own newspaper subscriptions?
    Ms. Haas. Sure, that has actually been a long practice and 
it actually goes beyond leadership. It is the cloakrooms, it is 
the Speaker's lobby, it is offices within the Capitol, 
leadership offices on both sides of the aisle and the money has 
come out of the Clerk's operation.
    Mr. Moran. Blame it on Tip O'Neill again, hmm?
    Ms. Haas. I am not blaming it on anyone.
    Mr. Moran. All right, fine. Mr. Chairman, go ahead. Ms. 
Lowey, did you have something else?

            STATES INVOLVED IN THE HOUSE DEFENDED DOMA CASES

    Mrs. Lowey. No, I still am focused on the questions that 
Ms. Wasserman Schultz asked and I referenced and Mr. Moran did 
as well. And it is just puzzling to me and I guess there will 
be a Supreme Court argument and a decision rendered, but that a 
majority is so focused on States rights would feel they have to 
intervene in a case--and how many cases were there, sir.
    Mr. Kircher.  There are 16 cases in which the leadership 
group has intervened to defend the constitutionality of the 
Federal statute.
    Mrs. Lowey. And do you have for the record the States in 
which they intervened?
    Mr. Kircher.  You mean the States in which those cases 
arose?
    Mrs. Lowey. Yes.
    Mr. Kircher.  Yes. They arose in California, they arose in 
Oklahoma, they arose in Illinois, they arose in Connecticut, 
they arose in New York and there was one in Pennsylvania.
    [Clerk's note.--Mr. Kircher notified the subcommittee after 
the hearing that there were also cases that arose in 
Massachusetts, Michigan, and the District of Columbia in 
addition to the states mentioned at the hearing.]
    Mr. Bishop. They were Federal court, right?
    Mr. Kircher.  These were all in Federal court.
    Mrs. Lowey. Well, it seems to me certainly based upon what 
is happening around the country and I guess the Federal courts 
will make that determination that the Congress of the United 
States, as my colleague said, was mandated or made a decision 
to intervene against the path of history.
    So I thank you for that presentation and I guess we will 
await the Federal decision. Thank you.

             HOUSE-WIDE SUBSCRIPTION EFFORTS TO LOWER COSTS

    Mr. Alexander. Mr. Bishop.
    Mr. Bishop. Thank you very much. I would like to go back to 
an issue that Mr. Moran had raised. Of course with 
implementation of the sequester and the budget cuts, all of our 
offices have had to reexamine our subscription costs for 
legislative information services such as Congressional 
Quarterly, which you are probably aware can cost thousands of 
dollars. Some of these services are very vital in terms of 
providing Members and staff with timely information and 
legislative analysis. While I understand that we are all 
operating under tight fiscal constraints, have there been any 
efforts to negotiate a House-wide contract as opposed to a 
group contract for these services at a lower price for each 
member office? Are there any other services that could be 
provided House-wide that could ultimately result in a lower 
cost per member office?
    Ms. Haas. Sure. Mr. Bishop, if I could speak to what we 
have been doing in the Clerk's office and maybe the CAO could 
talk about his office Hill-wide efforts with member offices. In 
the Clerk's office we recently expanded, you may have seen, the 
House library. As part of that expansion we now make available 
several databases that were not available to member offices. We 
have print publications and we also have video clipping 
services that are expensive services. So this was an attempt to 
try to have Members come to the library and their staffs to use 
these different research tools that they could then--they would 
no longer need to pay for that out of their MRA. That is 
something we are in the process of educating committees, 
members offices that these resources are available, so that is 
something again that is coming out of our budget, it is an 
investment that we have made that we hope will free up some 
funding in member committee offices for these types of 
materials.
    Mr. Bishop. They are online?
    Ms. Haas. We have online things available, we also have 
print, we have certain news publications, magazines that are 
all available there on a daily basis for Members and staff to 
use.
    Mr. Bishop. Congressional Quarterly?
    Ms. Haas. We have that, sir.
    Mr. Bishop. So we can access?
    Ms. Haas. Yes, you may.
    Mr. Bishop. Do they have to go to the Cannon Building or 
they just do it online?
    Ms. Haas. We have both and there is an online service. But 
in 263 Cannon is where it is located and we would love to have 
folks come and take advantage of that.
    Mr. Strodel. I can add a little bit to what the Clerk has 
stated. And to step back a little bit, all of us work very 
closely, the Sergeant at Arms, the Clerk, and myself. Our 
organizations work very closely, we interact, making sure that 
we are not doing something that is duplicative. But also if 
they have a better idea about doing something I think is it 
ProQuest, which is a free service that Karen offers, the 
Clerk's office offers. But we took a broader approach 
enterprise--meaning House wide--working with the Committee on 
House Administration. There is a site license for example for 
CQ Roll Call. There used to be 300 some offices paying an 
individual rate and now that is a negotiated reduction. I think 
it saved offices a little over $2,000 a year.
    As it relates to National Journal Daily, that is another 
area where we did negotiate a broad House wide license and 
there is no longer a charge to the member office. So where we 
can we have taken that approach. Offices still have the 
autonomy to decide what information they want and if they want 
to purchase something with their MRA funds, they can. But those 
core seem to be the most popular ones and we have been able to 
do that.
    Mr. Bishop. Roll Call, Politico, and The Hill are all 
publications which have valuable information for us and it 
would be helpful if all of those could be negotiated at a lower 
rate so that we could have access to them at a reduced cost to 
our MRAs.
    Ms. Haas. Absolutely.
    Mr. Strodel. And to that end there was also a subscription 
fair that was held in one of the House office buildings and the 
community staff members were invited to come and meet with 
people, Karen's group and ProQuest and the tools that they 
offer, as well as just generally. We had Bloomberg and other 
providers of information. Offices could come and get direct 
information and make their decisions.

                            Closing Remarks

    Mr. Alexander. We appreciate you all being here today. If 
there are no other questions--Mr. Moran, did you have another 
question?
    Mr. Moran. Yes, but I am going to hold it to myself. I 
appreciate it, Mr. Chairman, thank you. To be continued.
    Mr. Strodel. Mr. Chairman, if I could add one more thing.
    Mr. Alexander. Sure.
    Mr. Strodel. On behalf of the CAO and as I mentioned at the 
beginning of the House wide budget, I want to thank the staff, 
Liz Dawson, Chuck Turner and Shalanda Young and Jenny Panone 
and our budget staff that worked on this information daily, 
weekly, Karen's group, Paul's group, House officials, it all 
comes together.
    Mr. Alexander. We appreciate that, thank you. So the 
meeting will stand adjourned. We will meet again April 10th at 
10:00 a.m. With the U.S. Capitol Police.
    [The prepared statement of Mr. Kircher follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [The prepared statement of Ms. Strokoff follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [The prepared statement of Mr. Seep follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [The prepared statement of Ms. Grafenstine follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                         Wednesday, April 10, 2013.

                      UNITED STATES CAPITOL POLICE

                                WITNESS

KIM C. DINE, CHIEF OF POLICE

                Opening Statement of Chairman Alexander

    Mr. Alexander. Good morning. The meeting will come to 
order. Today we will hear from the Chief of Police, Kim Dine. I 
want to congratulate you on your appointment, and welcome you 
as you make your first appearance before this committee. The 
Chief is also accompanied by Acting Assistant Chief Matthew 
Verderosa and the Chief Administrative Officer, Mr. Richard 
Braddock. And we welcome all of you.
    The fiscal year 2014 request of $363 million represents an 
increase of $41 million, or 13 percent over the current 
continuing resolution and the sequestration. This request is 
very much in line with what the House of Representatives passed 
in fiscal year 2013 appropriations bill last summer.
    Chief, I want to publicly thank you and all of your members 
for what you do for keeping us safe, keeping the public safe. 
And we congratulate you for being able to do that. We know that 
you are proud of your accomplishments, and look forward to 
hearing your testimony.

          Statement of Ranking Member Debbie Wasserman Schultz

    Ms. Debbie Wasserman Schultz.
    Ms. Wasserman Schultz. Thank you, Mr. Chairman.
    Good morning, Chief Dine. Good to see you. You have had a 
busy few months on Capitol Hill, between the inauguration and 
the State of the Union. Your force has performed admirably.
    There are obviously several key challenges in front of you, 
including the radio modernization implementation and managing 
the effects of sequestration. We have got to come up with 
another word for that. No one knows what the heck that means, 
by the way. Maybe, Mr. Alexander, you and I can go to work on 
that.
    In 2009, when I was the chair of this subcommittee, and I 
promise, at some point, I am going to stop saying that--but we 
have to get through all the hearings first--I held a joint 
hearing with the Homeland Security Subcommittee on the security 
shortcomings and logistical failures during President Obama's 
first inauguration. And I am really glad that the first hearing 
after this inauguration is one that was not a repeat of that 
scenario. So, you, obviously, in addition to having smaller 
crowds, took steps to address the logistical nightmare that we 
went through. It was definitely a smoother inauguration by all 
accounts. And so congratulations to your team, working with the 
Metro Police, in getting all that sorted out.
    You know, one of our major investments in the Capitol 
Police budget over the last several years has been the $105 
million that we have included for the modernization of the 
police radios. Most of those funds were provided when I was 
chair through supplemental appropriations, because it was 
really presented as an immediate and urgent need to replace the 
outdated radios. The terrorist attacks of 9/11 brought renewed 
focus to the lack of interoperability of radio systems used by 
many law enforcement agencies, which is why there was great 
support, bipartisan support, to fund the project.
    During the fiscal year 2011 hearing, former Chief Morse 
told the subcommittee that the project would be implemented by 
the spring of 2012. Well, it is 80 degrees outside, and here we 
are in the spring of 2013, and there are still no new police 
radios in operation. We are nearly 12 years past 9/11, with a 
problem that we identified as needing urgent correction still 
incomplete.
    GAO has outlined several activities that must occur prior 
to implementation, including starting on how to train officers. 
Clearly, these activities will cause more delays.
    Chief Dine, I know you have come in on what we hope is the 
tail end of implementation, but the schedule delays may force 
you to take tighter reins, and I hope you do take tighter reins 
of this project, because I am tired of having hearings in which 
I have to say similar things over and over. And I look forward 
to hearing from you on this issue.
    During the previous administration, it came to light that 
the Capitol Police also had terrible fiscal mismanagement, with 
very little accountability in place to detect problems or keep 
track of millions of dollars. I am glad to hear the Capitol 
Police took the GAO audit seriously, and have put in place 
sound management practices, which made you a healthier 
organization fiscally. I look forward to your testimony. And 
thank you to all of the service and dedication of your officers 
and your civilian personnel in the department. They do a 
remarkable job on our behalf every single day. And we are 
grateful for their service and for their friendly faces that we 
see around the Capitol complex. Thank you so much.
    I yield back, Mr. Chairman.
    Mr. Alexander. Thank you.
    Chief, your entire testimony will be inserted in the 
record, please summarize it.
    Welcome.

                     Statement of Chief Kim C. Dine

    Chief Dine. Yes, sir, good morning.
    Thank you all for having us. We are pleased to be here. 
Chairman Alexander, Ranking Member Wasserman Schultz, members 
of the committee, I am honored to be here today, and I 
appreciate the opportunity to present the United States Capitol 
Police budget request for fiscal year 2014. I am joined here 
today by Acting Assistant Chief Matthew Verderosa, our acting 
Chief of Operations, and Mr. Richard Braddock, our Chief 
Administrative Officer, as well as some members of my executive 
management team.
    I want to begin by saying it is an honor for me to be 
sitting before you as Chief of the United States Capitol 
Police. Having been in this position for over 3 months, I 
observed the activity of the Department through an objective 
lens. I can say with no reservations that this organization is 
made up of extraordinarily professional and capable women and 
men who are dedicated to their work. I have also come to 
appreciate the interests of the Congress, and especially this 
committee, in our success. On behalf of the Department, I would 
like to thank you for the confidence and support you have shown 
the Capitol Police over the years.
    You and your staffs have taken the time to work closely 
with the department's leadership team and have shown a keen 
awareness of the complexity of our mission and the challenges 
we face. I consider the United States Capitol Police to be 
America's police department, a premier Federal law enforcement 
agency that works to ensure that the legislative process of our 
government can function without disruption or lapses in 
security or safety. Our mission is to protect the facilities 
you work in and around, to protect you and your fellow Members, 
your staff, the Capitol Hill community, and the millions of 
visitors who come here to be part of the democratic process on 
a regular basis.
    In fiscal year 2012, the Department screened over 12.8 
million people entering congressional buildings, including over 
2.3 million visitors to the Capitol Visitor Center. Our 
officers effected over 700 arrests, conducted over 119,000 K-9 
sweeps, and screened nearly 23,000 vehicles. In line with our 
close connection to the congressional community, we also held 
over 1,800 community outreach visits. These are just a few 
examples of the many services and enforcement activities that 
are conducted daily to ensure the success of the Department's 
core mission. My management team and I are more than keenly 
aware that the economic conditions of our country and the 
fiscal situation in the Federal Government require that we 
manage ourselves and plan for our future responsibly and 
accurately.
    Having recently come here from local government, with over 
37 years of law enforcement experience, I can tell you that I 
have firsthand understanding of the hardships being faced at 
all levels of government and by average citizens in communities 
across the country. Therefore, I believe it is our 
responsibility to submit a budget request that is accurate, 
reasonable, responsible, and based on critical requirements 
necessary to mitigate and address both identified and emerging 
threats and risks.
    The Department's funding levels have remained relatively 
stable in recent years, much to the credit of my predecessor's 
leadership and sound responsible management by my team of 
capable executive leaders. While we have seen some small 
increases in the budget due to expanding mission requirements, 
the Department also found efficiencies and reductions to offset 
many of the new requirements that we have addressed.
    One project that has required additional resources is our 
implementation of an extensive radio modernization project. The 
planning, building, and implementation of this system will 
eliminate considerable risk in our future capability to 
communicate and direct mission-critical activities. Just like 
other large construction projects, this endeavor has involved 
many partners and a complex combination of needs and 
requirements. As anyone who has ever done home renovations will 
tell you, when you start tearing down walls or replacing 
utilities, you start to discover unexpected obstacles that can 
delay your progress.
    Throughout these challenges, the partnership that we have 
with the Architect of the Capitol and NAVAIR remain strong. I 
know this project has had evolving timelines and scopes, but I 
am confident that we are on track to get this project done, 
with a priority for doing it right. In fact, I am pleased to 
report to you that the Department is able, with your support, 
to include the O'Neill building in the project with savings 
derived from this project.
    At this time, I would like to offer the committee an 
overarching summary of our fiscal year 2014 request. The 
Department's fiscal year 2014 request totals $363 million, and 
represents an overall increase of 7 percent, or $24 million 
over the fiscal year 2013 continuing resolution funding level 
of $339 million before sequester. While this may seem like a 
big increase over the continuing resolution level, it is less 
than a 1 percent increase over the original level approved by 
the House Appropriations Committee of $360 million for fiscal 
year 2013. The Department's 2014 personnel request reflects our 
continuous effort at all levels of management to effectively 
and prudently manage our existing resources to achieve the best 
possible balance of staff versus overtime to meet mission 
requirements. In light of the fiscal constraints of the 
Department and the entire Federal Government, our fiscal year 
2014 request again includes funding for only 1,775 of our 1,800 
sworn authorized positions and 370 of our authorized 443 
civilian positions. These are the staffing levels we maintained 
during fiscal year 2012 but have had to reduce even further 
during fiscal year 2013 due to the sequester.
    The personnel request for fiscal year 2014 represents an 
overall increase of 7 percent over the fiscal year 2013 
continuing resolution funding level, and is nearly the same as 
the original level approved by the House Appropriations 
Committee for fiscal year 2013.
    As we have discussed previously with the committee, the 
Department's current sworn staffing levels do not entirely 
provide the necessary resources to meet all our mission 
requirements with the established sworn officer utility or the 
number of work hours in a year that each officer is available 
to perform work. Because of the need to fill the mission 
requirement gap through overtime, the Department has struggled 
to pull our sworn personnel off line to conduct training. In 
order to achieve mandatory training, we must utilize overtime 
to ensure that the officers may be off line for training while 
meeting our daily mission requirements.
    At the requested funding staffing levels, the Department's 
fiscal year 2014 overtime projection is approximately $32.8 
million, which is $5.5 million less than our overtime request 
for fiscal year 2013. This amount will cover base mission 
requirements, support nonreimbursable events at the Library of 
Congress, and an offset to allow for appropriate security 
staffing so that sworn employees can be backfilled while they 
attend necessary and mandatory training.
    The second area I would want to cover in some detail is our 
requested general expenses budget, which includes protective 
travel; hiring, outfitting, and training of new sworn 
personnel; supplies and equipment; management systems; and 
other nonpersonnel needs. We are requesting $65 million for 
general expenses, which is an increase of $3 million over the 
continuing resolution and $2 million over the original level 
approved by the House Appropriations Committee. Three 
additional requirements represent a quarter of this increase, 
just over $500,000, for installation of security equipment and 
services for the dome rehabilitation project, the O'Neill 
building, and the radio modernization equipment rooms. The rest 
of the increase results from normal increases in costs and 
restoring annual levels reduced in previous fiscal years to 
meet immediate needs.
    The amount of the regular general expense request is 
slightly lower from last year's request, and we will continue 
to identify areas that we can target for further efficiency or 
elimination. With your support, the Department continues to 
successfully perform our operational mission, and has achieved 
several key accomplishments over the last year, some of which 
have resulted in greater efficiencies for the Department, which 
include addressing several administrative challenges and 
approving corresponding business practices.
    Further, we continue to work to close audit recommendations 
and to address material weaknesses from prior audits by closely 
working with our Inspector General and the Government 
Accountability Office to address identified issues and by 
providing the evidence necessary to close findings. In 
particular, I am pleased to report the Department received, for 
the first time in our history, a second consecutive unqualified 
``clean'' opinion on our financial statements. Also, thus far 
in fiscal year 2013, we have worked closely with the Office of 
Inspector General to close eight recommendations and have 
completed actions that we believe could lead to closure of 
another nine recommendations. Further, we are working on the 
resolution of a number of a number of other recommendations in 
order to achieve efficiency and effectiveness of our 
administrative programs.
    The long-term resolution of recommendations related to 
internal controls, business processes, and material weaknesses 
remains of the highest importance to our management team. I am 
grateful for your time today. As I said earlier, we realize 
that we have to function within the parameters of the economic 
and fiscal realities facing the country, and specifically the 
Legislative Branch. We will continue to work closely with you 
to make sure that we meet the needs of our mission in a 
reasonable and responsible manner. And I appreciate the 
opportunity to appear before you today and would be glad to 
answer any questions you may have at this time.
    [The prepared statement of Chief Dine follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                        TRAINING FUNDING DECLINE

    Mr. Alexander. Thank you. We understand that training for 
both civilian and sworn employees has declined in the last few 
years simply because of the budget restraints. In your request, 
it is $2.3 million in general expenses and $2.1 million for 
overtime training. Is that going to be adequate to bring your 
people up to where you would like them to be?
    Chief Dine. The current budget request will be adequate. 
You are absolutely correct, there has been a challenge over the 
last several years, especially during sequester. We have 
obviously had to cut back on training, which is something that 
we don't want to do. Generally, training is the last place that 
you would want to cut back. And that is an area that we prefer 
not to cut. I am obviously a firm believer that training is 
sort of a core component in policing. And it is one of the last 
places that you want to cut.
    One of the challenges that we face, unlike more traditional 
police departments, is that because we have a number of fixed 
posts and fixed responsibilities, we are unable to literally 
reduce staffing in the field, as other agencies would, and just 
literally have less people work. So that is related to the 
unique challenges that our department faces, unlike others. We 
have so many unique roles and responsibilities and places where 
people need to be staffed 24-7, it creates sort of a unique 
challenge for us as it relates to training.
    Mr. Alexander. Okay.
    Ms. Wasserman Schultz.

                  RADIO MODERNIZATION PROJECT TIMELINE

    Ms. Wasserman Schultz. Thank you, Mr. Chairman. Chief, I 
mentioned in my opening that I was told in 2011 that the radio 
modernization program project was on schedule to be completed 
in spring of 2012. We are in the spring of 2013, and now the 
new approximation is fall of 2013. And you know, GAO has been 
following this project from the beginning, which we asked them 
to from the Legislative Branch perspective, because there were 
very challenging fiscal mismanagement issues, and I wanted to 
be confident that we wouldn't have another CVC mess on our 
hands. And the costs of the project have mounted gradually over 
time. I mean, originally what was, you know, proposed to be 
budgeted we knew would never really actually be adequate for 
what the needs were. GAO over the time has cited several 
potential problems that exist right now that I think are likely 
to cause more schedule delays, which I guess hopefully you can 
confirm or reassure us, including things like that testing 
activities are not yet fully defined or agreed upon by USCP and 
NAVAIR, which is the contractor managing the project. Migration 
activities aren't yet fully defined and agreed upon. Hand-off 
dates from AOC, from the Architect of the Capitol to USCP or 
NAVAIR, or from NAVAIR to USCP aren't clear.
    The approaches for training officers have not been agreed 
upon. So that is beyond the punch list, to say the least. And 
any of those, one thing--any of those things could cause months 
more delay by themselves. So do you have a master schedule that 
attempts to capture and manage those potential delays? And does 
the fall of 2013 estimate for completion account for some delay 
of the items I mentioned in training officers or testing the 
system?
    A couple other things which you may need to write down 
since I have a few bullets in this question. If the system is 
not completed in the fall of 2013 before the end of the fiscal 
year, will you face losing lapsing funds that we provided for 
the project in 2009 and 2010? And then what are the operation 
and maintenance costs for operating the new system in fiscal 
year 2014 and beyond?
    Chief Dine. Thank you very much for those questions. And we 
fully understand the importance of the project. Let me first 
say, thank you for your support of this project. On 9/11, I was 
actually deputy chief of police for the Metropolitan Police 
Department and lived through that, as you all did here in 
Washington, D.C. So we all have our own 9/11 story. And out of 
that, in the police world, we learned how critical radio 
systems are and interoperability issues are. So I can't thank 
you enough for your support of this hugely important project. 
There probably couldn't be another project that is so critical.
    I have had, interestingly enough, the experience of putting 
in a radio system with a number of agencies in my last position 
as chief of the Frederick Police Department. That was also a 
very large project, with actually a huge geographical area. The 
difference was--and it involved a number of agencies--it did 
not involve the number of agencies that we have here, nor did 
it involve the complexities of internal radio systems inside 
buildings and all of the unique aspects that we have to cover 
here in the Nation's Capital and on Capitol Hill.
    I can tell you I am going to turn this over to my CAO, Mr. 
Braddock, in a minute, but since my arrival I have met 
regularly with the CAO. We have received regular briefings. And 
I do have full faith between our CAO and our CIO that we will 
see this project through. We have an excellent relationship 
with the Architect of the Capitol----
    Ms. Wasserman Schultz. When?
    Chief Dine [continuing]. And NAVAIR. We will provide some 
timelines for you.
    Ms. Wasserman Schultz. But is it realistic to say that fall 
of 2013 is no longer realistic?
    Chief Dine. Let me turn it over to Mr. Braddock, who can 
elaborate on some of the timelines and some of the specifics 
that you mentioned in terms of those relevant questions.
    Ms. Wasserman Schultz. Thank you.
    Mr. Braddock. Thank you, ma'am.
    Ms. Wasserman Schultz. You are welcome.
    Mr. Braddock. I appreciate the questions, and I also want 
to thank you for the GAO's role in this, because they have been 
critical, not just in an oversight but also in a technical 
perspective. They add a great reality check as we move through 
this process. And it helps me to manage the program with our 
CIO and with our partners.
    In answering your question, yes, we have an integrated 
master schedule. Inside of that, each one of the partners is 
putting data relative to their tasks that they have before 
them. There are parts of that schedule that are estimated 
dates. And what comes out the back end is the projection of 
fall of 2013. I fully expect that we will have delays as we 
move forward. You have got a technology to turn on that we need 
to work ourselves through with NAVAIR. They have challenges to 
optimize the system as it comes online. So undoubtedly there 
will be further delays with that.
    We are continuing to work with the Architect's Office on 
the hand off of infrastructure. As we proceed with that, we 
find there are other challenges with that. And I will use one 
example. When we were dealing with local jurisdictions on 
permitting, we put estimates of when we are going to get them. 
But every day that slips, it slips the back end of the project. 
That is something that myself and our CIO manage on a daily 
basis. I literally get updates from him every day on where we 
are, any new risk, any new challenge. And we work through that 
with our partners. NAVAIR, AOC, and Capitol Police communicate 
on a very, very regular basis, sometimes actually every day, to 
work through these challenges and to mitigate that.
    Does the schedule account for the potential delays? There 
are estimates in it. It changes every day because we put new 
data into the system based on the newest data that we get. The 
information on the back end is only as good as the data that 
goes into it, and we constantly work that. My CIO has a project 
management team that looks at that schedule and challenges 
things that are in it with our partners.
    Ms. Wasserman Schultz. Can I ask you a question?
    Mr. Braddock. Yes, ma'am.
    Ms. Wasserman Schultz. Mr. Chairman, if you would indulge 
me for a moment. So I am going to give you an analogy. I have 
been married to my husband for 22 years. And he is always on 
time. In fact, he is always early. I like to joke that he will 
be early to his funeral, God forbid. And I am always late. 
Although I wasn't late today. I was here at 9:58. But over the 
years of our marriage, he has always told me when I am, you 
know, out at something for work or, you know, racing to get 
home to do whatever it is that we are supposed to be doing, you 
know, he will ask me over the years, Debbie, when are you going 
to be home? So if I am supposed to be home at 8 o'clock and it 
is 7:30, I will say--I used to say--I will be home in about 15 
minutes, or I will be home in 30 minutes; probably 
underestimating, because I didn't want to deal with the 
pushback, the real time that I was going to get home. So he 
would, over the years, realize that that is what I did, and I 
was later than I said I would be every time. And I would still 
have to deal with the conflict when I got home.
    So he finally said to me one day, you know, honey, it is 
better just to be honest with me up front because it is going 
to be less difficult to deal with it, and I will know. Just be 
straight with me.
    So I would like the Capitol Police to apply what my husband 
and I now apply in our marriage, so that it is managed better 
and things go more smoothly, to the honesty and transparency in 
which this project is going to actually finally come to 
fruition.
    So I appreciate that there are estimates, but I am asking 
you a direct question. Is it likely, do you think, we are going 
to go beyond fall of 2013?
    Mr. Braddock. I expect us to go beyond the fall of 2013, 
yes, I do.
    Ms. Wasserman Schultz. Okay. So, instead of having to drag 
that out of you, it would really be helpful--I mean, this 
subcommittee went through a lot of delays with the CVC and very 
similar experience with when it was really going to be done, 
and what the cost overruns really were and what it was really 
going to cost. And, you know, it makes it tough for us to 
manage and oversee and do our jobs.
    Mr. Braddock. I completely understand that. That is why we 
try to provide a biweekly report on everything that changes in 
the project.
    Ms. Wasserman Schultz. But we still had a fall of 2013 
estimate of when it was going to be done.
    Mr. Braddock. Because we are reporting out what the 
schedule is saying. I do try to caveat that, though, with----
    Ms. Wasserman Schultz. Just like I told my husband that I 
would be home in 30 minutes.
    Mr. Braddock. Yes, ma'am. And part of that drives from the 
fact that there are stakeholders that ask us, what is that 
schedule saying? I totally agree with you. I don't want to set 
a false expectation. I want to give you transparency and the 
reality of what we are dealing with, which is what we are 
trying to do every 2 weeks.
    I fully expect we are going to go past that. We still have 
permitting challenges to get through. We have infrastructure 
that still needs to be completed. And we have a technology that 
needs to come online and all that testing. And it is a very 
complex process.
    Ms. Wasserman Schultz. Thank you.
    Mr. Alexander. Mr. Bishop. Do you tell your wife what time 
you are going to be home?

                   DISTRICT OFFICE SECURITY CONCERNS

    Mr. Bishop. No. She has the problem that Debbie has.
    Chief, let me just welcome to the subcommittee this 
morning. I look forward to working with you as we continue to 
try to ensure that the Capitol complex and all those who work 
and visit here are safe. I also appreciate the great job that 
the Capitol Police does in trying to keep us all safe.
    One of my chief concerns has been the security of Members' 
district offices, especially after the 2011 shooting of our 
friend and colleague Gabby Giffords. In the past, the Capitol 
Police and the Sergeant at Arms have provided Member offices 
with a series of recommendations on security improvements for 
district offices. I realize that it may not be possible to do 
everything we would like to do in this budget environment. But 
the Senate Sergeant at Arms has an account that allows the 
Senate Sergeant at Arms to expend funds for Senate Members for 
security reasons. Of course, they have fewer Senators and fewer 
Senate district offices than House Members.
    I am nevertheless very concerned that with the MRA 
constraints and the recommendations that have been made for 
physical security upgrades, that it is really, really stressing 
Members efforts at compliance. Have you looked into what impact 
sequestration and these budget cuts are having on Members' 
ability to comply? Have you been able to assess the level of 
compliance that Members are able to give to the 
recommendations? Have you gotten any feedback at all about the 
challenges that Members are experiencing in trying to comply 
with these security recommendations, particularly with the 
challenge to make sure that our constituents who visit district 
offices are safe, our staff is safe and, obviously, the Members 
are safe?
    I have continued to raise this issue. If the Senate can do 
it, it seems as if we should be able to establish a fund within 
the Sergeant at Arms Office or the Capitol Police office that 
would allow, on an as needed basis based on the determination 
by the Capitol Police and the Sergeant at Arms, that certain 
expenditures should be required to provide the minimum level of 
security. Can you respond to that for me?
    Chief Dine. Well, good morning, sir, and thank you for your 
question. Thank you for your kind comments about the Capitol 
Police. I will have to probably elaborate in a written response 
for the record. But I can tell you I know that we made--we 
routinely--it is kind of a fluid process. We do make 
recommendations regarding those issues. We work very, very 
closely with the Sergeant at Arms to ensure those are done 
across the country. And of course, the safety and security of 
you and your Members and staff are of the highest priority to 
us. In terms of the ability to create an account and those 
types of things, I would respectfully ask if I could get back 
to you for the record and provide a more detailed response as 
to how that process works.
    [Information provided for the record follows:]

    If a Member wants to have a security survey of his or her District 
Office, a request is made through the Office of the Sergeant at Arms 
which, upon approval, is forwarded to the USCP Security Services Bureau 
(SSB). SSB will conduct a security assessment of the location and make 
recommendations, through the Office of the Sergeant at Arms, to the 
Member for the proper security measures and/or equipment needed at the 
location. It is the decision of the Member to implement the security 
measures.
    Additionally, as part of the District Office Security Program, SSB 
reviews assessments and estimates for District Offices provided by 
security companies to ensure they conform with established standards 
for approval by the Office of the Sergeant at Arms. At that point, the 
Member could elect to have the recommended system installed. The Member 
would submit the approval, along with the voucher, to the House Chief 
Administrative Officer's Office of Finance for payment of the system 
and the service through the members MRA.

    Mr. Bishop. Thank you. I have found that your employees who 
do the threat assessments and security assessments of our 
district offices are very, very, very knowledgeable and 
fastidious in doing it, and have made great recommendations. 
But the challenge is being able to comply with them, with the 
limited MRA that we have, and trying to be safe but at the same 
time frugal.
    Chief Dine. Yes, sir, I understand that. And I, of course, 
totally appreciate the fact that sequestration has affected all 
of the budgets across the board. And we will get back to you in 
writing about that and make a more detailed response. I 
certainly appreciate your concerns.
    Mr. Bishop. Thank you, sir.
    Mr. Alexander. Mr. Fortenberry.
    Mr. Fortenberry. Good morning.
    Thank you, Mr. Chairman.

                             USCP READINESS

    Chief Dine, how is the new job?
    Chief Dine. Exhilarating.
    Mr. Fortenberry. Good. That is a great word. We don't often 
hear that around here. Exhilarating. Wonderful. Thank you for 
your service. And we appreciate the deep culture of respect and 
attentiveness that obviously you are continuing to foster, 
which has built upon persons who have come before you. And you 
are standing on their shoulders. And I expect that to be the 
ongoing environment that you compel the force to have in terms 
of attitude and help the constituents and us. And so it is very 
evident in their work. So I wanted to first of all thank you 
for that.
    Chief Dine. Thank you, sir.
    Mr. Fortenberry. Affirm what clearly I think is one of your 
goals as you carry out your important mission.
    I was a graduate student here in the 1980s, and I remember 
when dump trucks were first put on the entryways to the Capitol 
as our first level of security after things began to get more 
tense in the world, and clearly, there was intelligence about 
threats directed at the Capitol. So, since that time, we have 
come an extraordinarily long way, sadly, and have had to 
intensify the security here, and in a very aggressive manner, 
but an appropriate manner. And I recognize that.
    A couple of quick things I wondered, and one is small, but 
one is larger. Back to this point of constantly being on guard 
and attentive, almost 99.999 percent of the time nothing 
happens. And so there is in any position, in any job, there is 
a tendency to grow complacent in that regard. So I would like 
to hear a little bit from you how you guard that type of 
disposition or you try to fend off the type of disposition so 
that we are always ready.
    In this manner, I would like to point out what I think is a 
conflict in this regard, where you have television monitors at 
security stations. All of us in public office have given 
speeches, and I am going to tell my colleagues, do not give a 
speech standing with a television behind you, because everybody 
will stare at the television. This has happened to me before, 
so I never do that. It is human nature.
    So I am concerned at security stations where there are 
televisions, it is a distraction. Now, I understand it can be 
useful, particularly to Members and maybe the visitors, as well 
as officers, to know when votes are occurring and what the 
proceedings are on the floor. But when you have got a show on 
that is not related to congressional business, I just want to 
bring that before you. Because I just know that from human 
nature, there is a tendency to want to watch it. It just 
happens.
    Secondly, I received a threat one time several years ago 
within the Capitol directly to my face. And again, in the wakes 
of tragedies that have happened to our--one of our Members, I 
assumed that the response would be immediate and that the plans 
for action would be well thought out. So I called out to the 
nearest officer. There appeared to be confusion as to what to 
do. Now, as I understand it, he couldn't leave his post because 
he was at a particular door, an entryway with a high level of 
public visiting. There was another officer walking toward me. I 
tried to get his attention, but he was off duty, so that was--
there was some confusion there. I think we got this straight 
now.
    But given that you are new, I did want to point that out to 
you, that this actually happened within the Capitol. And so I 
was not going to let it pass by because I found it absolutely 
unacceptable that anyone should be subjected to a threat of 
violence, and particularly in the wake of Congresswoman 
Giffords' shooting. I was a bit surprised by the initial 
reaction, in which there did not appear to be a clear 
understanding as to what to do in a moment like that. It is 
understandable; we are looking for threats coming from the 
outside, trying perhaps to get in. But when one happens in 
front of you from a person who is in the building itself, 
again, I just wanted to, since you are new, I wanted to bring 
that to your attention. You might want to look in your file and 
see the report on that, because I think it is an important 
lesson for us all on how to respond and what to do.
    Chief Dine. Yes, sir. Thank you for bringing that to my 
attention. We will certainly look at that. We literally exist 
to serve you and keep the community here safe. I mean, that is 
our only purpose for existing.
    Mr. Fortenberry. Yeah. I offer those comments in the spirit 
of that partnership.
    Chief Dine. Absolutely. And we always want to provide the 
best service possible. What I have come to appreciate over the 
last several months is the extraordinary dedication and 
diligence that our officers provide every day. This is probably 
one of the most unique police agencies in the country, because 
we do so many different things up here. You know, we are almost 
an amalgamation of all the other Federal, agencies. That 
dignitary protection piece that was referenced is rather unique 
and something the Secret Service does in part and that we 
provide. We obviously provide sort of an urban policing 
presence and, as I mentioned, made over 700 arrests last year. 
The whole concept of having these posts across campus is a 
challenge, a daily 24-7 challenge, as you mentioned, that 
provides sort of a unique challenge to our officers because, as 
you noted, they literally cannot relax for a second. They have 
to be on guard and diligent.
    And I really appreciate the work that the officers do here 
across the board. But those particular challenges are really 
unique to this police agency. And of course, we have a number 
of other assignments in terms of our command centers and 
throughout the agency and investigations after the fact.
    So one of the things, in terms of boredom, is an issue that 
we are certainly cognizant of and work to offset constantly. We 
rotate officers. We give officers breaks. We are constantly 
talking to them about how important it is to be diligent and 
pay attention. And I think, overwhelmingly, they are incredibly 
professional, incredibly proficient and respectful. Like any 
agency, especially an agency the size--certainly we have our 
moments, but I am just immensely impressed with the quality of 
the people we have and the work they do on a daily basis. It is 
extremely uplifting. One of the things I have been doing, 
obviously, as the new Chief, but this is something I have done 
over the past 37 years, because while I am new to this agency, 
I am not new in the policing business, I like to get out there 
and talk to our officers and literally shake their hands and 
ask them how things are going and what issues did they face. So 
I am getting a lot of good feedback and some things similar to 
what you said. So we will continue to keep people motivated 
doing the great job that they did. And as you said, you know, 
we stand on the shoulders of the people who have come before 
us. I truly believe the police exist to serve the public or, in 
this case, our community here. That is our only reason for 
existing. So we always aspire to give you the best of all 
service.
    The thing about policing is that each case is unique. And 
obviously, you know, you raised some issues that are 
interesting, because one officer can't leave a post. And of 
course, over the years, we have learned why the posts are 
comprised the way they are, because we had a tragedy here in 
our own department when our officers were killed. And we 
realized that we needed to have more officers on those posts. 
So that was a huge sea change for us.
    So thank you for bringing those issues to my attention. We 
will continue to work on the larger issue that you mentioned, 
and I will certainly look at your specific case to see how we 
may improve.
    Mr. Fortenberry. Just for your own background as an 
education here, I think it was an example of a convergence of a 
lot of unique things that maybe the scenario planning had not 
worked itself through.
    Chief Dine. Absolutely. And that is one aspect that is 
unique to police work as long as I have been doing this, I 
mean, every day is sort of a new day. And we always tell the 
officers, don't say that this was a routine radio call or this 
is a routine post because there is nothing routine about this 
job. As you may know, in the United States, about every 57 
hours, a police officer is killed in the line of duty. It is 
like clockwork. And it is an amazing criminal justice fact that 
it happens. So there is nothing routine about this profession. 
And I think our folks are of the highest order and know that. 
They provide incredible service. But there are certain times--
--
    Mr. Fortenberry. The other thing, too, I think an officer 
should not hesitate, because it is the burden of the Member if 
the Member is not recognized, because a lot of time we will fly 
through things and assume there is the recognition. And again, 
99 percent of the time, there is, because obviously you are 
committed to serving Members, and you memorize faces and the 
rest. But they should not hesitate or feel in an awkward 
position that they need to ask for ID, that they are being put 
in an awkward position if they ask for an ID. That is important 
for Members to actually, again, cooperate in the spirit of 
partnership with you, because, again, the objective is the 
same. How do we keep all of ourselves safe? And it is 
complicated. And there are a lot of things going on all the 
time.
    Chief Dine. It is complicated. One of the other unique 
aspects that you know that make this job so interesting and 
exciting, unlike other locations, this is not a locked down 
campus. This is truly the People's House. So people are free to 
come and go, which makes, obviously, increased challenges for 
our force. But we appreciate the fact that you want that type 
of open campus. I know from time to time, different 
recommendations have been made. And again, this is different 
from the White House or any other location in that people are 
free to come and go, and it is truly the People's House. We are 
proud of the fact that we protect you and the People's House. 
And we appreciate the challenges that brings to our department.
    Mr. Fortenberry. Thank you.
    Thank you, Mr. Chairman.
    Mr. Alexander. What was on TV more interesting than you?
    Mr. Fortenberry. That is a good point.

                    RAYBURN FIRING RANGE RENOVATIONS

    Mr. Alexander. Sir, the Architect of the Capitol has asked 
for $4.5 million to renovate the firing range in the Rayburn 
garage. They are not supposed to be through with it until the 
fall of 2015. Do you all use that, and are there accommodations 
for your training elsewhere?
    Chief Dine. Yes, sir. Thank you for that question. They 
have requested funds to replace the firing range. We are 
excited about that. We think it is going to take approximately 
19 months for construction. Having that range here on Capitol 
Hill is a tremendous efficiency for our agency, obviously. We 
have looked at other options, and there is no other one that is 
as cost-effective as that both in terms of non-personnel costs 
and overtime costs. So we are grateful actually for the AOC for 
their efforts to create a new range for us.
    My understanding is it will sort of be a replacement. As 
one is getting built, we will continue to be able to use the 
existing range, and we will just flip sides. I am not in the 
architecture business, but I do understand that it is actually 
a better location for us, and is actually even better for the 
architecture due to the duct work and those kinds of things.
    So it is a more logical location, and it makes the most 
sense for the department both operationally and fiscally. So 
while the new range is being built, my understanding is that we 
will be able to continue to use the existing range. And I 
certainly hope that answers your question.
    Mr. Alexander. So ``renovation'' is not a good word then. 
If they are building a new range, they are not renovating. It 
seemed like 2 years is a long time to take.
    Mr. Bishop. Where is the new range being built?
    Acting Assistant Chief Verderosa. Lower level of the 
Rayburn, sir. G1 level.
    Mr. Bishop. So you are also going to use the old one, which 
is in Rayburn?
    Acting Assistant Chief. Verderosa. Correct.
    Mr. Bishop. And is the new one being built similar?
    Acting Assistant Chief Verderosa. On a different wing, 
different side.
    Chief Dine. Other side.
    Mr. Bishop. Okay.

                       DOOR CLOSURES AND OVERTIME

    Mr. Alexander. Ms. Wasserman Schultz.
    Ms. Wasserman Schultz. Thank you, Mr. Chairman.
    I am going to ask both my remaining questions, not at once 
but in succession. I want to talk to you, Chief, about the door 
closures and the overtime issue. Obviously, a lot of people 
have been frustrated, naturally, by the door closures and the 
longer lines that are the results of sequestration.
    The original estimates from the Capitol Police were that 
door closures would save about $9 million. And your request is 
$32.8 million for fiscal year 2014. But that budget request was 
completed prior to the sequester. So I don't really think the 
projection we have is an accurate representation of what your 
overtime needs are. So assuming the sequester remains in place 
and we are not able to replace it with a balanced approach to 
deficit reduction that is more reasonable, what do you think 
you are going to need for overtime in fiscal year 2014 with the 
current door closures?
    Chief Dine. Thank you for your question. If those--well, 
let me back up. First of all, we literally would have faced 
huge challenges that I am not sure we would know how to address 
had we not been able to reduce our budget and reduce the 
overtime through the door closures. As you know, we literally 
have more mission than we have people. And over the last 10 
years, obviously since 9/11, that expanded, which is why, as 
you know, the budget is crafted the way it is with the 
significant amount of overtime. And given the amount of cuts 
that we have had to make due to sequester, while approximately 
half of those have come operationally, the other half, or $9-
plus million, have come through those door closures. Those 
numbers are not annualized, though, you are absolutely correct. 
If those existed for a complete year, they would probably be 
between around $15 million to $17 million in overtime cuts if 
the sequester----
    Mr. Bishop. Will the gentlelady yield on that?
    Ms. Wasserman Schultz. Yes, I would be happy to yield.
    Mr. Bishop. Following up on that, have you considered the 
possible savings that you could have and still provide service 
if you kept those entrances open on days when the House is in 
session, and reduced those openings when we were not in 
session?
    Chief Dine. Yes, sir. We have considered so many options. I 
can't tell you how many meetings we have had and strategy 
sessions working with leadership, working with your staffs, 
working with the Sergeant at Arms staffs. We are obviously open 
to any suggestion and have made multiple changes as the last 
month transpired.
    Mr. Bishop. That is not workable?
    Chief Dine. I think that is some of what we have done. We 
have cut hours. We have cut closures. We looked at differences 
between when you are in session and not in session, because 
literally, this is allowing us to meet the budget mark. 
Operationally, I am not sure how else we would meet it. So I 
guess what I am attempting to say is we have done that: We have 
looked at hours. We have looked at time in session. We have 
looked at some posts that----
    Ms. Wasserman Schultz. So you are already doing--do you 
already close certain doors when we are not in session and open 
them when we are?
    Chief Dine. I believe so. I think that is part of our plan.
    [Information provided for the record follows]
    Hours of House doors have adjusted hours during ``Official Recess'' 
periods as determined by the Clerk of the House. All door hour changes 
are approved by the House Sergeant at Arms, Committee on House 
Administrations, and the Capitol Police Board. The current official map 
distributed by the House Sergeant at Arms also includes Sequestration 
Closures.

    Ms. Wasserman Schultz. Okay. Since there is a little bit of 
uncertainty in your response, could you double check for us?
    Chief Dine. Absolutely.
    Ms. Wasserman Schultz. Because that does seem to be a 
commonsense way to relieve the stress.
    Chief Dine. Yes. I can tell you that is part of our plan. 
There are some posts that we have learned over this time period 
were, frankly, it is one of those things--in a way, I guess, 
the silver lining is this has allowed us to go back and assess 
what it is, why we do it, why are we doing it? How long have we 
been doing it? And some of the answers were we are not exactly 
really sure why other than, a long time ago, somebody wanted X 
door open----
    Ms. Wasserman Schultz. Because it has always been done that 
way.
    Chief Dine [continuing]. At 5 in the morning, even though 
literally almost no one is coming in, or very few people.
    Ms. Wasserman Schultz. Right.
    Chief Dine. So we engaged in door counts to see how often 
the doors are used by the public and Members. And extensive 
analysis to try to come up with the best system and process to 
allow the business at the Capitol to continue with the least 
amount of inconvenience. Obviously, we were keenly aware of ADA 
issues, so we didn't want to close any of those doors. We 
wanted citizens to be able to access their Representatives and 
Senators. So it has been a long, ongoing process that still to 
this day, we are tweaking and trying to attain more cuts, which 
again, if it was annualized over a year, would be more around 
$15 to $17 million.
    Ms. Wasserman Schultz. Mr. Chairman, I have a systemic 
question that if I ask it now I will be completely done, if you 
don't mind.

                     CAPITOL POLICE BOARD STRUCTURE

    Mr. Irving, would you mind coming to the table? Because 
some of questions are for you.
    So I think a lot of Members, Mr. Chairman, aren't 
necessarily aware that the Capitol Police has an oversight 
board. And a lot of the policies that are in place are set by 
the Police Board, not by the Chief. And that Police Board is 
made up of the House and Senate Sergeant at Arms and the 
Architect of the Capitol, and the Chief is an ex officio 
member.
    So Chief, you have been here for a few months, and have a 
lot of years of policing and a lot of years of police 
leadership. So can you give us a sense of what you think of the 
overarching governing of the force? I mean, does it make sense 
to continue to do it that way?
    And Mr. Irving, since you are on the board, I would like to 
know your opinion of the board. What are the kinds of decisions 
that the board makes, and how do you interact with the Chief? I 
mean, are there any changes to the board's structure that you 
would make?
    Either one of you can go first.
    Mr. Irving. Okay. I think the existing board structure I 
think works very, very well. It is by statute. It has been in 
place for some time now. Most of the decisions that the Board 
makes are at the policy level. The board will look at 
implementing--in any security measure we deem appropriate for 
the Capitol, House and Senate--the Capitol Police Board will 
look at sort of from a bird's eye view, will look at the 
threat, weigh the risk, the vulnerability, the consequence. 
They will look at the issue from a threat-based perspective and 
then will weigh that very carefully with the business process 
of the complex. That is a lot of interaction with Members with 
the committee, with this committee, with the authorizing 
committee, with the leadership. And as we strive to then make a 
decision, we will, the Board, will make a decision, and then we 
will pass that onto the Chief and tell the Chief what to 
implement and how to implement it. The door closure 
sequestration closures were classic examples of that. The Chief 
presented the board with a range of options. The board weighed 
those very carefully, measuring the risk with, again, the 
impact on the business process of the House and Senate and 
arrived at those decisions. And as the Chief alluded to, we 
have made some tweaks, and we are being very sensitive to 
ongoing concerns.
    As we figure the best way to implement security and also 
save overtime, we realize that there are going to be some 
tweaks.
    And Congressman, also to your point, certainly during 
periods of high volume, when Congress is in session, and also 
to your point, we will make sure that we look at very closely 
the impact and make some tweaks. And we already have made some 
tweaks to our initial sequestration plan.
    But bottom line, from an overarching perspective, the Board 
provides policy guidance to the Capitol Police, to the Chief, 
and then the Chief provides the implementation. I think it 
works very well. Both Terry Gainer and I work very closely 
together. We are on the phone probably dozens of times a day. 
We work very closely with the Architect, who provides another 
overarching perspective on the historical nature of the campus 
and also the business process of the campus. So I think the 
structure works well. And especially with the interface between 
the board and the Members, leadership, the committees.
    But Chief, anything to add on that?
    Chief Dine. Just a few points.
    In one sense, having this unique type of oversight--it is 
unique, but it is not totally new to me, having reported to a 
mayor, but then also a city council, and then thousands and 
thousands of citizens, who frankly, I consider are our bosses 
as well. But I am on the board, ex officio, as you mentioned. 
Thus far during my tenure, there has been great communication 
and support. I guess the Board plays a role of ensuring that 
there is sort of an overarching view that the Department always 
sees the larger issue across Capitol Hill. They have been 
supportive in that regard. They played a pivotal role, as Mr. 
Irving mentioned, during sequestration. That was of great 
assistance to have sort of a buffer in that regard. And they 
also enhance communication between Members and our office. I 
was literally expecting thousands of phone calls 24-7, as I was 
used to in my previous career. And a lot of those calls have 
gone through the board. I am almost disappointed. I probably 
shouldn't say that. So, thus far, from my experience, it has 
been excellent. A lot of communication and a lot of support.
    It is kind of a unique makeup, as you mentioned. And I am 
really not privy to the historical aspects in terms of how that 
has worked.
    Ms. Wasserman Schultz. Are there any decisions that you are 
not able to make or any--I mean, what are the challenges that 
it presents to you?
    Chief Dine. Thus far, frankly, the structure has not really 
created any challenges, because we have had a lot of good open 
communication. I think the board recognizes that I am the Chief 
of Police, and day to day, we are running the police 
department. But they add support and guidance and support of an 
overview, and also historical aspect as to some of the long-
term concerns.
    Ms. Wasserman Schultz. Thank you, Mr. Chairman.

                UPDATE ON THE BLACKMON-MALLOY LITIGATION

    Mr. Alexander. Mr. Bishop.
    Mr. Bishop. Thank you, Mr. Chairman.
    Chief, I recognize that your tenure is really just 
beginning. Perhaps you may want to call on some of your staff 
to respond to the question that I am about to ask. Can you give 
the subcommittee an update on the 2001 discrimination suit 
filed by Lieutenant Sharon Blackmon-Malloy as the lead 
plaintiff in what I think was a class action suit which alleged 
more than 200 African American officers were denied promotions, 
retaliated against, unfairly disciplined, and fired because of 
their race?
    [Information provided for the record follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Would you tell us what new efforts have been made or that 
you will make to handle those kinds of complaints and, more 
importantly, to ameliorate the conditions that would lead to 
those kinds of complaints as we try to comply with the Civil 
Rights Act of 1964?
    Do you have adequate resources now to deal with that? Have 
you been able to improve or streamline the handling of 
complaints so that the process is now more workable to provide 
full equal opportunity employment?
    Chief Dine. Yes, sir.
    You touched on a number of issues. And, let me first say, 
one of the reasons that I am a police officer and that I put 
the badge on every day is to stand up for freedom and truth and 
justice. That is why we do what we do. And that relates both 
internally with any organization that I have been a part of or 
led or externally in terms of how we deal with the public. So 
that is what we stand for. That is what we do. I just recently 
issued a new statement in that regard to our entire agency to 
send that message throughout the force.
    So this is not, whatever complaints that were in the past, 
this is not that same police agency. We work very hard to 
transcend those issues, to correct those issues, and to 
communicate and to treat our employees correctly and 
appropriately and properly.
    I can certainly get you for record an actual legal update 
as to where that case is, as well as the many specifics we have 
put in place to ensure that those types of complaints, A, are 
handled properly, and, B, that any possible concern that might 
occur does not occur.
    Mr. Bishop. I would appreciate that because I think last 
year, I asked the same question to your predecessor. Of course, 
because it was in litigation, counsel was not comfortable 
making a public statement on it. I don't know whether or not it 
has been resolved now, or if you are in a position now to make 
a statement on where you are, what the status of the case is. 
Has it been settled? If it was settled, what are the conditions 
of the settlement? What steps were ordered and were agreed to 
be taken to ameliorate the situation? Are there any remedial 
actions taken, such as back pay? I think the subcommittee would 
like to know because if some back-pay issues are involved, of 
course that affects the resources available.
    Chief Dine. Absolutely. We can get you the exact status. I 
would just like for you and all the members to know that we 
each stand up for what is right and for equal opportunity. That 
is what I certainly personally have done my entire police 
career, and that is why we do what we do.
    So even though these complaints occurred in the past, they 
are of the utmost importance. If we don't treat ourselves 
right, obviously, then we are not going to be able to treat the 
public and the people we serve correctly.
    Mr. Bishop. I fully agree, and I appreciate that.
    In my other life, I was once a civil rights attorney. 
Almost 40 years ago, there was a case in my jurisdiction where 
a local city police department had some conditions that were 
considered racist by the local officers. The African American 
officers felt that they didn't get the appropriate 
consideration from the administration of the police department 
so they carefully severed the American flag from their uniforms 
and put them in their hat and delivered them to the chief 
during the course of the meeting, upon which, they were all 
fired. Of course, that triggered a massive lawsuit that lasted 
for decades. It was finally settled some 20, 25 years later. 
Their position was that, yes, we stand for that truth, justice 
and the American way, but it is inconsistent with the way that 
we are being treated. While I know that your intentions are 
noble, the noble intentions are not necessarily met with the 
actions of the bureaucracy. Consequently, I would like to 
follow that very closely and ask you if you would provide us 
with that information.
    Chief Dine. Absolutely. Yes, sir. And I appreciate your 
comments. And I will say they are beyond noble intentions. I 
have a record of, in my last position, of working with the 
NAACP and actually being awarded by the NAACP for the work that 
we did both with the community, with the African American 
community, the police department, and the community. So there 
is a strong almost unmatched record there, and we will continue 
those efforts.
    Mr. Bishop. Of course, the other elements, gender, national 
origin, age, disability, all of those protected categories 
under Title VII.
    Chief Dine. Absolutely. In fact, that is one of the reasons 
why we came up with sort of the moniker ``America's Police 
Department,'' because one of the things that we do is we serve 
this entire country. We serve millions and millions of people 
that come from literally all over the world and all over the 
country here to see you, to do the people's business. But as a 
police agency, we also reflect what this country is and what it 
is all about. So that is sort of both an internal moniker and 
an external moniker that stands for who we are and what we do.
    Mr. Alexander. Mr. Fortenberry?
    Mr. Fortenberry. I don't have any further questions, but 
thank you gentlemen for your service.

                    CHIEF DINE'S EXPERIENCES AT USCP

    Mr. Alexander. Chief, the few months that you have been 
here, I mean, we have had the inauguration, State of the Union, 
only times I guess that the President, Vice President, Supreme 
Court, the Speaker and all those in line to the Presidency are 
all together at one time.
    Overwhelming it has to be for those in charge of protecting 
that group. Is it what you expected? Is it more? Have you seen 
things that you want to do differently?
    Chief Dine. That is a great question. I guess that is why, 
when asked how the first 3 months have been, I used the term 
``exhilarating,'' because probably describes it pretty well.
    This position, this agency engages in very, very high 
levels of coordination with multiple police departments, both 
here, Federal, State, local, that is required for the roles 
that we fulfill. You are absolutely correct that some of those 
events that you just mentioned are literally our kind of Super 
Bowls here; they don't get any larger than that. The 
Inauguration, and that is thanks to all of the people here and 
the men, women of this agency, both civilian and sworn, I have 
to say, who worked just tirelessly to make sure that that event 
went off as smoothly as it did. Those are huge events.
    I won't say there are really any surprises. What is key 
here, which is not a surprise to me, is communication and 
coordination and subordination of ego, I think. We are here to 
serve you. Fortunately, that is the way I have always looked at 
the police business. So it is important that we get along with 
our partners. We know who they are. Fortunately, I know a lot 
of those people, a lot of those agencies from my previous 
experience. So it is a lot of team work. And, fortunately, 
those events have gone off without a hitch. But the challenges 
we face, that doesn't stop. It is ongoing. One of the things 
that we do that often doesn't get a whole lot of coverage is we 
preserve the right of people that come from all over to come 
here and express their rights. So, as you know, pretty much 
almost every day there are demonstrations here, people 
marching, and our officers do an outstanding job protecting 
them while they engage in their right to express themselves. 
And we are very proud of that.
    So, as you know, today, there is a huge immigration march. 
The agency is going to facilitate that. That is one of the 
roles when we mention all those tasks, roles, and 
responsibilities, overtime, and those kinds of things, that 
often goes almost unnoticed because our women and men do it so 
well and so professionally.
    I can't say there have been any huge surprises. I am 
extremely proud to be here. One of the things that is truly 
uplifting is the pride that the men and women of this agency 
have in terms of what they do. As I have been making the rounds 
and going to roll calls and going to posts and just meeting and 
greeting people, it is just immensely gratifying to see how 
much pride that our folks have in fulfilling their mission. And 
that goes for all of our outstanding civilians as well. In a 
police department, there are always a lot of coverage for what 
the sworn people do and the people with guns and badges. But, 
literally, the agency could not run if we didn't have the 
civilians that we have making all these things happen.
    Mr. Bishop. Would the chairman yield on that?
    Mr. Alexander. Sure.

                        CAPITOL DIVISION SURVEY

    Mr. Bishop. Chief, back in December, the labor division of 
the Capitol Police issued a survey to 380 members of the 
Capitol Division. Have you gotten the results of that survey? 
Have they been analyzed? And can you provide us with the 
feedback, an analysis of that from that survey?
    Chief Dine. Yes, sir. I received the survey. We have 
analyzed it. I have read the whole package that they gave me. 
Let me say that in the few months I have been here, we have met 
diligently with the labor committee. I just met with the 
executive board in the last week or two. I got an email 
response back, them thanking us for meeting with them and 
saying it was a productive meeting and they are looking forward 
to a productive relationship.
    Mr. Bishop. Have any changes been made as a result of the 
recommendations that the survey revealed?
    Chief Dine. There are some themes in there from some of the 
general feedback in the survey of things we are looking at. One 
of the issues that is still outstanding in our agency, as you 
may have heard, a lot of directives were issued in the last 
year, but a number had to still be resolved. So there are 
concerns about uniforms, things like that. There are always 
concerns about training. One of the things that we know we need 
to do better, which may or may not relate to the survey, it 
just relates to running an operation this size, is 
communication to the entire force so people know what is going 
on and not. So we are coming up with some mechanisms to enhance 
that. Because I want all our members to know what is going on 
in the agency, what changes have been made, what our philosophy 
is, all those kinds of things. So we are working very closely 
with the labor folks, as best we can so we can move this agency 
forward and make improvements where they need to be made.
    Mr. Bishop. Thank you, Mr. Chairman. Yield.

                           COMMUNITY OUTREACH

    Mr. Alexander.
    Your opening statement, you mentioned community outreach. 
Would you tell us what that means?
    Chief Dine. That actually encompasses all kinds of things. 
And I asked that same question as we were crafting this. We 
literally go to offices throughout Capitol Hill and do safety 
surveys and give----
    Mr. Alexander. Is that for the general public or for 
Members?
    Chief Dine. It is basically for the congressional 
community.
    Mr. Alexander. Okay.
    Chief Dine. Anywhere on the Hill where we think we can have 
some kind of interaction, do some type of demonstration, teach 
people something about safety and security for Members, 
offices, staff, as well as people who reside within our 
jurisdiction, that is what we do. We want to make sure that 
there is sort of the maximum communication and coordination. In 
a sense, that is part of what community policing is all about.
    Mr. Alexander. Anything else?
    Okay. We appreciate you all being here today. This meeting 
will stand adjourned.
    [Questions submitted for the record by Mr. Moran follow:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [Testimony for the record submitted by outside witnesses 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                           W I T N E S S E S

                              ----------                              
                                                                   Page
Ayers, S. T......................................................   163
Belden, Tammy....................................................   203
Billington, J. H.................................................    85
Burd, James......................................................   885
Davis, Tamara....................................................   203
Dine, K. C.......................................................   839
Dizard, Robert, Jr...............................................    85
Dodaro, G. L.....................................................     1
Elmendorf, D. W..................................................   129
Grafenstine, T. M................................................   653
Haas, K. L.......................................................   653
Irving, P. D.....................................................   653
Keninger, Karen..................................................    85
Kircher, K. W....................................................   653
Mazanec, M. B....................................................    85
O'Keefe, John....................................................   203
Pallante, M. A...................................................    85
Sargus, Jane.....................................................   203
Schuman, Daniel..................................................   897
Seep, R. W.......................................................   653
Shelden, Maura...................................................   203
Strodel, D. J....................................................   653
Strokoff, Sandra.................................................   653
Tauberer, Joshua.................................................   879
Vance-Cooks, Davita..............................................    51
Wenger, J. M.....................................................   891



                               I N D E X

                              ----------                              
                                                                   Page

                    Government Accountability Office

Opening Statement of Chairman Alexander..........................     1
Comptroller General's Opening Remarks............................     2
Written Testimony Inserted.......................................     5
GAO's Outreach to Congress to Prioritize Requests................    27
GAO Plays Key Role in Helping Congress...........................    29
GAO Identifies Billions of Dollars in Savings....................    30
Financial and Other Benefits From GAO's Work.....................    33
Capitol Police Radio Upgrade.....................................    34
Overlap and Duplication in Federal Programs......................    36
Report on Uncollected Taxes......................................    37
Pay for Performance at GAO.......................................    38
Staffing Challenges..............................................    39
GAO Review of Open World Operations..............................    40
Closing Remarks..................................................    41
Questions for the Record: Chairman Alexander.....................    42
Questions for the Record: Congressman Young......................    49

                       Government Printing Office

Equal Employment Opportunity at GPO..............................    67
Impact of Sequestration..........................................    66
GPO's Facilities.................................................    72
National Academy of Public Administration Report.................    70
Opening Statement--Acting Public Printer.........................    52
Prepared Statement of Davita Vance-Cooks, Acting Public Printer..    55
Printing Procurement for Agencies................................    69
Questions for the Record from Chairman Alexander.................    74
Questions for the Record from Ranking Member Wasserman Schultz...    84
Questions for the Record from Representative Young...............    82
Replacement of Sequester.........................................    71

                          Library of Congress

Actual vs. Base Budget Reductions................................   115
Alternatives to 4-Day Closure....................................   108
Baseline Reductions and Web Site Shutdown........................   108
Collections Uniquely Relevant to Larger World....................   113
Congressional Research Service...................................    88
Congressional Usage of the Library...............................   109
    Demand for Specific CRS Reports..............................   109
De Facto National Library........................................    87
Federal Research Division and 9/11...............................   113
Fee Services vs. Free Services...................................   113
Fort Meade Module 5..............................................    88
    Impact of Not Funding........................................   116
Introduction of Library Leadership...............................   110
Irrecoverable Collection Gaps....................................   112
Mission Critical and Non-Mission Critical Services...............   114
Opening Statements:
    Chairman Alexander...........................................    85
    Librarian of Congress........................................    87
    Ms. Wasserman Schultz........................................    85
Priorities.......................................................   115
Questions for the Record from the Chairman:
    Books for the Blind and Physically Handicapped...............   122
    Collections and Services.....................................   123
    Copyright Office.............................................   124
    Library Wide Acquisition.....................................   121
    Office of the Librarian......................................   125
Questions for the Record from Ms. Wasserman Schultz:
    Sequestration................................................   126
Questions for the Record from Mr. Young:
    Potential Cost Savings for IT Repairs and Upgrades...........   127
Requests from Other Countries....................................   110
    Exchanges with Iran..........................................   111
Sequestration
    Impacts on Blind and Physically Handicapped..................   117
    Impact on Young Readers Room.................................   119
    Managing with Reduced Funding................................   107
    Tension between Cuts and Optimal Services....................   112
Services for the Blind and Physically Handicapped................    88
Services for Educators...........................................    88
Telecommuting Plan in CRS........................................   118
Twitter Archive Access Issues....................................   119
Universal Collections 
Unlocking Cell Phones and Administrative Rulemaking..............   116
U.S. Copyright Office............................................    88
World Digital Library............................................   111
Written Statements:
    Director, Congressional Research Service.....................   103
    Librarian of Congress........................................    89
    Register of Copyrights.......................................    95

                      Congressional Budget Office

Opening Statement--Chairman Alexander and Other Members..........   129
Opening Statement--Dr. Elmendorf.................................   130
Statement of Douglas W. Elmendorf................................   134
    CBO's Funding History and Its Effects on Staffing and Output.   135
    CBO's Funding Request and Its Consequences for Staffing and 
      Output.....................................................   136
Sequestration Impact on Jobs.....................................   140
Recovery Using Purely Cuts Only Versus Balanced Mix..............   141
No Money for Discretionary Spending..............................   141
Interest Rates and Payments......................................   142
Balancing the Budget at the Expense of Discretionary Programs....   143
Spending Controls Versus Balanced Approach.......................   144
CBO Pay Increases................................................   145
SGR Scoring......................................................   145
Fiscal Policy....................................................   146
Framework of CBO Analysis........................................   147
Budget Scope and Related Matters.................................   149
Restructure Entitlement Programs.................................   151
Increase Taxes...................................................   152
Entitlement......................................................   152
Prioritize Requests..............................................   153
Questions for the Record.........................................   156
    Performance-Based Pay Increases..............................   156
    Projections for Legislation..................................   157
    Funds Required...............................................   159
    IT Overlapping Requirements..................................   160
    Sequestration................................................   160

                     Architect of The Capitol (AOC)

Accessibility To Congressional Buildings.........................   182
Chairman Remarks.................................................   163
Cannon Building Restoration......................................   183
Capitol Power Plant..............................................   186
Dome Restoration.................................................   182
Prepared Statement Stephen T. Ayers..............................   165
Ranking Member Remarks...........................................   164
Rayburn Garage Renovation........................................   184
Reducing Overtime................................................   185
Summary Statement of Stephen T. Ayers............................   167
Summerhouse......................................................   191
U.S. Botanic Garden..............................................   189
Questions for the Record From Chairman Rodney Alexander..........   192
    Capitol Building.............................................   196
    Capitol Grounds..............................................   197
    Human Capitol Management Software............................   195
    Library Buildings and Grounds................................   198
    Power Plant Revitalization...................................   193
Questions for the Record From Ranking Member Debbie Wasserman 
  Schultz........................................................   200
    Bids For Construction Work...................................   200

                      Open World Leadership Center

Opening Remarks..................................................   203
Open Statement by Ambassador O'Keefe.............................   204
Open World as an Asset, Resource and Investment..................   204
Open World Funding Expended in the U.S...........................   205
Open World's Unique Ability to Function Where Other USG Agencies 
  Cannot.........................................................   205
Private Funding and Outside Fundraising..........................   217
Expanding Development Efforts....................................   218
Open World Program Results.......................................   219
Open World's Strategic Plans and Performance Measures............   219
The Case for Open World..........................................   220
Closing Remarks..................................................   223

                     U.S. House of Representatives

Opening Remarks--Chairman........................................   653
Opening Remarks--Ranking Member..................................   653
Opening Remarks--the Chief Administrative Officer................   655
Changes to the 2013 House Budget.................................   655
The Chief Administrative Officer's Budget........................   655
Three Budgetary Initiatives......................................   655
Information Technology Current Programs and Future Plans.........   656
Prepared Statement--CAO..........................................   657
Opening Remarks--the Clerk of the House..........................   667
Ongoing Projects--Progress Report................................   667
The Clerk's 2014 Budget Request..................................   667
Prepared Statement--Clerk........................................   669
Bulk Data Task Force.............................................   678
Opening Remarks--the Sergeant at Arms............................   784
113th Congressional Transition Activities........................   784
113th Congress House Security Activities.........................   784
Prepared Statement--Sergeant at Arms.............................   785
The Stock Act....................................................   789
Information Technology Security Efforts..........................   789
House Security and the Sergeant at Arms..........................   789
Current and Future Effects of Sequestration Reductions...........   789
House Buyout Options.............................................   790
Legislative Branch Retirement Plan Changes.......................   791
Effects of the Sequestration on House Security...................   792
Requested FY'14 Increase for the House Security Office...........   792
LY 2013 Members' Representational Allowance......................   793
Elimination of Duplication in Services...........................   794
Defense of Marriage Act (DOMA)...................................   794
Effects of the Sequestration on House Security continued.........   795
Weekly House Operational Cost....................................   795
District Offices' Security.......................................   796
DOMA and the House's Standing to Defend the Act's 
  Constitutionality..............................................   797
DOMA and the House's $3 Million Funding Cap......................   800
The Number of House Defended DOMA Cases to Date..................   800
Questions Raised by DOMA Cases...................................   801
Outstanding DOMA Costs and Possible Savings......................   802
Subscription Costs...............................................   802
States involved in the House Defended DOMA Cases.................   802
House-Wide Subscription Efforts to Lower Costs...................   803
Closing Remarks..................................................   804
Prepared Statement--General Counsel..............................   805
Prepared Statement--Legislative Counsel..........................   809
Prepared Statement--Law Revision Counsel.........................   824
Prepared Statement--Inspector General............................   830

                      United States Capitol Police

Capitol Division Survey..........................................   874
Capitol Police Board Structure...................................   868
Chief Dine's Experiences at USCP.................................   873
Community Outreach...............................................   875
District Office Security Concerns................................   861
Door Closures and Overtime.......................................   866
Opening Statement of Chairman Alexander..........................   839
Questions for the Record.........................................   876
Radio Modernization Project Timeline.............................   858
Rayburn Firing Range Renovations.................................   866
Statement of Chief Kim C. Dine...................................   840
Statement of Ranking Member Debbie Wasserman Schultz.............   839
Testimony of Chief Dine..........................................   844
Training Funding Decline.........................................   858
Update on Blackmon-Malloy Litigation.............................   870
USCP Readiness...................................................   863

              Outside Witnesses Statements for the Record

Civic Impulse....................................................   880
Preservation Technologies........................................   885
American Association of Law Libraries............................   891
Sunlight Foundation..............................................   897

                                  <all>

</pre></body></html>
